No. _____
IN THE

TZVI WEISS, ET AL.
Petitioners,
v.
NATIONAL WESTMINSTER BANK PLC,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI
Peter Raven-Hansen
Gary M. Osen
Michael Radine
Ari Ungar
OSEN LLC
190 Moore Street
Suite 272
Hackensack, NJ 07601

Thomas C. Goldstein
Counsel of Record
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
James P. Bonner
FLEISCHMAN BONNER &
ROCCO LLP
81 Main Street, Suite 515
White Plains, NY 10601

Counsel for Petitioners

i
QUESTION PRESENTED
In Holder v. Humanitarian Law Project, 561 U.S.
1 (2010), this Court scrutinized and endorsed Congress’s finding that “[f]oreign organizations that engage in terrorist activity are so tainted by their criminal conduct that any contribution to such an organization facilitates that conduct.” Id. at 29 (citation omitted). The Court thus upheld the constitutionality of 18
U.S.C. § 2339B, which makes it a felony to knowingly
provide material support—even for charitable purposes—to entities that the Department of State has
designated as foreign terrorist organizations (FTOs).
Congress subsequently enacted the Justice
Against Sponsors of Terrorism Act (JASTA), Pub. L.
No. 114-222, 130 Stat. 852 (2016), which provides enhanced relief to Americans injured by terrorist attacks
that were committed, planned, or authorized by FTOs.
JASTA allows the victims of such attacks to assert a
cause of action for aiding and abetting against any person or entity that “knowingly provid[ed] substantial
assistance” to the people or entities that committed the
attack. 18 U.S.C. § 2333(d)(2). Congress’s objective
was to “provide civil litigants with the broadest possible basis, consistent with the Constitution of the
United States, to seek relief” from any party that “provided material support, directly or indirectly,” to FTOs
that injured Americans. JASTA § 2(b).
The question presented is:
Whether a person who knowingly transfers substantial funds to a designated FTO aids and abets that
organization’s terrorist acts for purposes of civil liability under JASTA, 18 U.S.C. § 2333(d)(2).

ii
PARTIES TO THE PROCEEDING
Petitioners are Tzvi Weiss, Leib Weiss, Malke
Weiss, Yitzchak Weiss, Yeruchaim Weiss, Esther
Deutsch, Moses Strauss, Philip Strauss, Bluma
Strauss, Ahron Strauss, Roisie Engelman, Joseph
Strauss, Matanya Nathansen, Chana Nathansen,
Matanya and Chana Nathansen for the Estate of
Tehilla Nathansen, Yehudit Nathansen, S.N., a minor,
Hezekiel Toporowitch, Pearl B. Toporowitch, Yehuda
Toporowitch, David Toporowitch, Shaina Chava
Nadel, Bluma Rom, Rivka Pollack, Eugene Goldstein,
Lorraine Goldstein, Barbara Goldstein Ingardia, Richard Goldstein, Michael Goldstein, Chana Freedman,
Michal Honickman for the Estate of Howard Goldstein, Michal Honickman, David Goldstein, Harry
Leonard Beer as Executor of the Estate of Alan Beer,
Harry Leonard Beer, Anna Beer, Phyllis Maisel, Estelle Carroll, Sarri Anne Singer, Judith Singer, Eric M.
Singer, Robert Singer, Julie Averbach for the Estate of
Steven Averbach, Julie Averbach, Tamir Averbach,
Devir Averbach, Sean Averbach, A.A., a minor, Maida
Averbach for the Estate of David Averbach, Maida
Averbach, Michael Averbach, Eileen Sapadin, Daniel
Rozenstein, Julia Rozenstein Schon, Alexander Rozenstein, Esther Rozenstein, Jacob Steinmetz, Deborah
Steinmetz, Jacob Steinmetz and Deborah Steinmetz
for the Estate of Amichai Steinmetz, Nava Steinmetz,
Orit Mayerson, Natanel Steinmetz, Robert L. Coulter,
Sr. for the Estate of Janis Ruth Coulter, Dianne Coulter Miller, Robert L. Coulter, Sr., Robert L. Coulter,
Jr., Larry Carter for the Estate of Diane Leslie Carter,
Larry Carter, Shaun Choffel, Richard Blutstein and
Katherine Baker for the Estate of Benjamin Blutstein,
Richard Blutstein, Katherine Baker, Rebekah

iii
Blutstein, Nevenka Gritz for the Estate of David Gritz,
Nevenka Gritz, Nevenka Gritz for the Estate of Norman Gritz, Jacqueline Chambers as the Administrator
of the Estate of Esther Bablar, Jacqueline Chambers,
Levana Cohen, Eli Cohen, Sarah Elyakim, Yehuda
Agababa, Menache Agababa, Yehezkel Agababa,
Greta Geler, Ilana Eropa Dorfman, Refael Kitsis and
Tova Guttman as the Administrator of the Estate of
Hannah Rogen, Akiva Anachovich, Joshua Faudem,
Zohar Fater, Bruce Mazer, Orly Rom, Richard Coffey,
Gal Ganzman, Judith Buchman-Ziv, Ora Cohen,
Mirav Cohen, Daniel Cohen, O.C., a minor, S.C., a minor, E.N.C., a minor, Faiga Zvia Lieberman, Einat
Noked for the Estate of Eyal Noked, Einat Noked,
A.N., a minor, Avishag Noked, Baruch Zuri Noked,
Binyamin Elkana Noked, Neta Nechama Cohen, T.N.,
a minor, Karen Goldberg, Chana Weiss, Esther Goldberg, Yitzhak Goldberg, Shoshana Goldberg, Eliezer
Goldberg, Y.M.G., a minor, T.Y.G., a minor, Nilly Choman, Temima Spetner, Jason Kirschenbaum, Isabelle
Kirschenbaum, Isabelle Kirschenbaum for the Estate
of Martin Kirschenbaum, Joshua Kirschenbaum, Shoshana Burgett, David Kirschenbaum, Danielle Teitelbaum, Netanel Miller, Chaya Miller, Arie Miller, Altea
Steinherz, Jonathan Steinherz, Baruch Yehuda Ziv
Brill, Chaya Beili, Gila Aluf, the Estate of David Applebaum, the Estate of Naava Applebaum, Debra Applebaum, the Estate of Jacqueline Applebaum, Natan
Applebaum, Shira Applebaum, Yitzchak Applebaum,
Shayna Applebaum, Tovi Belle Applebaum, Geela Applebaum Gordon, Chaya Tziporah Cohen, Philip Litle,
the Estate of Abigail Litle, Elishua Litle, Hannah Litle, Heidi Litle, Josiah Litle, Noah Litle, Ari Horovitz,
Batsheva Horovitz Sadan, David Horovitz, the Estate
of Debra Ruth Horovitz, the Estate of Eli Natan

iv
Horovitz, the Estate of Leah Horovitz, The Estate
Moshe Horovitz, Nechama Horovitz, Shulamite Horovitz, Tovi Horovitz, Tvi Horovitz, Uri Horovitz, Bernice Wolf, Bryan Wolf, Stanley Wolf, Fran Strauss
Baxter, William J. Baxter, Ariela Freirmark, Menachem Freirmark, Hadassah Freirmark, Phyllis Pam,
Rivka Reena Pam, Shoshana Tita, Ezra Tita, Ephraim
Tita, Ephriam Tita for the Estate of Bertin Tita, Rachel Potolski, Ovadia Topporowitch, Yisrael Topporowitch, Yitzchak Topporowitch, Miriam Ehrenfeld,
Rose Joseph, Leibel Reinitz, Malvia Reinitz, Margali
Reinitz, Mendy Reinitz, Miriam Reinitz, Rivka Reinitz, Samuel Reinitz, Shmuel Reinitz, Yakov Reinitz,
the Estate of Mordechai Reinitz, the Estate of Yissocher Dov Reinitz, Yitzchok Reinitz, Raizel Shimon,
Leah Tauber, Helen Weider, Avrohom D. Richter,
Breina Richter, Miriam Leah Richter, Moshe Richter,
Nechama Richter, Sara Malka Richter, Shlomo Chaim
Richter, Tranne Richter, Yakov Yosef Richter, Yechiel
Richter, Yehudis Richter, Yisroel Richter, Yitzchok
Richter, Perl Brailofsky, Malky Breuer, Ester
Buxbaum, Gittel Cohen, Chaya Freisel, Rachel Rosner, Elizabeth Schwartz, Jacob Schwartz, Max
Schwartz, Michael Schwartz, Phillip Schwartz, Abraham Zarkowsky, Aron Zarkowsky, Bshava Zarkowsky
Richter, the Estate of Eli Zarkowsky, Ezriel Zarkowsky, Gittel Zarkowsky, the Estate of Goldie Zarkowsky, Joseph Zarkowsky, Mendel Zarkowsky, Miriam
Zarkowsky, Shrage Zarkowsky, Trany Zarkowsky, Yehuda Zarkowsky, Erik Schecter, Shlomo Tratner, the
Estate of Tiferet Tratner, Averham Grossman, Devorah Chechanow Leifer, Joseph Leifer, Bracha Milstein,
Shifra Miller, Chaya Rosenberg, Abraham Waxler, Arthur Waxler, Baruch Waxler, Chana Waxler, Dina
Waxler, Ezekiel Waxler, Gedalia Waxler, Haggi

v
Waxler, Nachum Waxler, Obadiah Waxler, Yaakov
Waxler, Yoel Waxler, Zacharia Waxler, Nethaniel
Bluth, Moshe Naimi, Faye Chana Benjaminson, the
Estate of Moshe Gottlieb, Seymour Gottlieb, and
Sheila Gottlieb.
Respondent is National Westminster Bank, PLC.
RELATED PROCEEDINGS
Weiss v. National Westminster Bank PLC,
No. 05-cv-4622 (DLI) (RML) (E.D.N.Y. Mar. 31,
2019), consolidated with Applebaum v. National
Westminster Bank PLC, No. 07-cv-916 (DLI)
(RML) (E.D.N.Y.)
Weiss v. National Westminster Bank PLC,
Nos. 19-863, 19-1159 (2d Cir. Apr. 7, 2021)
Weiss v. National Westminster Bank PLC,
No. 13-1618-cv (2d Cir. Sept. 22, 2014)

vi
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDING ............................ ii
RELATED PROCEEDINGS........................................ v
TABLE OF AUTHORITIES ..................................... viii
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 4
JURISDICTION........................................................... 4
STATUTORY PROVISIONS INVOLVED .................. 4
STATEMENT OF THE CASE..................................... 4
I. The Anti-Terrorism Laws ................................... 4
II. Factual Background and Procedural
History ............................................................. 12
REASONS FOR GRANTING THE WRIT ................ 21
I. The Decision Below Conflicts With Decisions
From Other Circuits. ...................................... 21
II. The Decision Below Is Incorrect. .................... 29
III. The Question Presented Is Important. ......... 32
IV. This Court Should Consider Calling For
The Views Of The Solicitor General. .............. 35
CONCLUSION .......................................................... 36
APPENDIX A: Opinion of the Court of Appeals
(2d Cir. 2021) .................................... 1a
APPENDIX B: Opinion and Order of the District
Court (E.D.N.Y. 2019) .................... 43a

vii
APPENDIX C: Opinion and Order of the District
Court (E.D.N.Y. 2017) .................... 73a
APPENDIX D: Opinion and Order of the District
Court (E.D.N.Y. 2016) .................. 101a
APPENDIX E: Opinion of the Court of Appeals
(2d Cir. 2014) ................................ 145a
APPENDIX F: Statutory Provisions .................... 165a

viii
TABLE OF AUTHORITIES
Cases
Abecassis v. Wyatt,
785 F. Supp. 2d 614 (S.D. Tex. 2011) .................... 27
Averbach ex rel. Est. of Averbach v. Cairo
Amman Bank,
2020 WL 1130733 (S.D.N.Y. Mar. 9, 2020) ........... 34
Banque Worms v. BankAmerica Int’l,
570 N.E.2d 189 (N.Y. 1991) ................................... 35
Bartlett v. Société Générale de Banque Au Liban
SAL,
2020 WL 7089448 (E.D.N.Y. Nov. 25, 2020) ......... 34
Boim v. Holy Land Found. for Relief & Dev.,
549 F.3d 685 (7th Cir. 2008) .......................... passim
Boim v. Quranic Literacy Inst.,
2012 WL 13171764 (N.D. Ill. Aug. 31, 2012) ........ 22
Cent. Bank of Denver, N.A. v. First Interstate
Bank of Denver, N.A.,
511 U.S. 164 (1994) ............................................ 9, 10
Est. of Henkin v. Kuveyt Türk
Katilim Bankasi, A.Ş.,
495 F. Supp. 3d 144 (E.D.N.Y. 2020) .................... 34
Freeman v. HSBC Holdings PLC,
2021 WL 76925 (E.D.N.Y. Jan. 7, 2021) ............... 34
Halberstam v. Welch,
705 F.2d 472 (D.C. Cir. 1983) ........................ passim
Holder v. Humanitarian Law Project,
561 U.S. 1 (2010) ............................................ passim
Honickman v. BLOM Bank SAL,
6 F.4th 487 (2d Cir. 2021) .......................... 28, 30, 34

ix
Kaplan v. Lebanese Canadian Bank, SAL,
999 F.3d 842 (2d Cir. 2021) ............................. 28, 34
Linde v. Arab Bank, PLC,
882 F.3d 314 (2d Cir. 2018) ........................... passim
Miller v. Arab Bank, PLC,
372 F. Supp. 3d 33 (E.D.N.Y. 2019) ...................... 34
O’Sullivan v. Deutsche Bank AG,
2020 WL 906153 (S.D.N.Y. Feb. 25, 2020) ............ 34
Rothstein v. UBS AG,
708 F.3d 82 (2d Cir. 2013) ..................................... 34
Siegel v. HSBC N. Am. Holdings, Inc.,
933 F.3d 217 (2d Cir. 2019) ................................... 34
Spetner v. Palestine Inv. Bank,
495 F. Supp. 3d 96 (E.D.N.Y. 2020) ...................... 34
Strauss v. Crédit Lyonnais, S.A.,
842 F. App’x 701 (2d Cir. 2021) ....................... 21, 34
In re Terrorist Attacks on Sept. 11, 2001,
714 F.3d 118 (2d Cir. 2013) ................................... 34
United States v. El-Mezain,
664 F.3d 467 (5th Cir. 2011) .................. 3, 25, 26, 27
Weiss v. Nat’l Westminster Bank PLC,
453 F. Supp. 2d 609 (E.D.N.Y. 2006) .................... 14
Weiss v. Nat’l Westminster Bank PLC,
936 F. Supp. 2d 100 (E.D.N.Y. 2013) .................... 14
Wultz v. Islamic Republic of Iran,
755 F. Supp. 2d 1 (D.D.C. 2010) .............................. 9

x
Statutes
Antiterrorism and Effective Death Penalty
Act of 1996, Pub. L. No. 104-132,
110 Stat. 1214 ................................................ 1, 4, 29
Anti-Terrorism Clarification Act of 2018,
Pub. L. No. 115-253, 132 Stat. 3183 ...................... 35
Justice Against Sponsors of Terrorism Act,
Pub. L. No. 114-222, 130 Stat. 852 (2016) .... passim
Promoting Security and Justice for Victims of
Terrorism Act of 2019, Pub. L. No. 116-94,
133 Stat. 2534 ........................................................ 36
8 U.S.C. § 1189(a)(1) .................................................... 5
18 U.S.C. § 2331(1) ................................................ 8, 18
18 U.S.C. § 2333 ................................................. 1, 8, 22
18 U.S.C. § 2333(a) ............................................ 2, 8, 14
18 U.S.C. § 2333(d)(2) ........................................ passim
18 U.S.C. § 2339A(b)(1) ............................................... 1
18 U.S.C. § 2339B .............................................. passim
18 U.S.C. § 2339B(a)(1) ..................................... passim
28 U.S.C. § 1254........................................................... 4
Other Authorities
Antiterrorism Act of 1990: Hearing on S.2465
Before the S. Subcomm. on Cts. & Admin.
Practice of the S. Comm. on the Judiciary,
101st Cong. (1990).................................................... 8
Exec. Order No. 13,886, 84 Fed. Reg. 48,041
(Sept. 9, 2019) ......................................................... 33
Jimmy Gurulé, Unfunding Terror: The Legal
Response to the Financing of Global Terrorism
(2008) ...................................................................... 33

xi
Matthew Levitt, Hamas: Politics, Charity, and
Terrorism in the Service of Jihad (2006) ................. 7
S. Rep. No. 102-342 (1992) .......................................... 9
U.S. Dep’t of State, Executive Order 13224,
https://www.state.gov/executive-order-13224/
(last visited Sept. 2, 2021) ....................................... 5
U.S. Dep’t of State, Foreign Terrorist
Organizations, https://www.state.gov/foreignterrorist-organizations/ (last visited Sept. 2,
2021) ......................................................................... 5
Juan C. Zarate, Treasury’s War: The Unleashing
of a New Era of Financial Warfare (2013)
(ebook)..................................................................... 33

INTRODUCTION
Petitioners are more than 200 American nationals
(or the family members or estates of American nationals) who were injured or killed in terrorist attacks
committed by Hamas in Israel during the Second Intifada, a widely reported period of intense terrorist violence in the early 2000s. They brought this action under the Antiterrorism Act (ATA), 18 U.S.C. § 2333,
against respondent National Westminster Bank PLC
(NatWest).
Petitioners allege that for more than a decade
NatWest processed hundreds of transfers moving millions of dollars for Hamas’s principal European fundraiser, Interpal. Although these transfers were nominally for charitable purposes, the evidence shows that
NatWest knew that Interpal was closely linked with
Hamas and that the transferees were controlled by or
alter-egos of Hamas. These contributions swelled Hamas’s coffers, enabling its terrorist violence.
Congress enacted a comprehensive legal regime to
deter and punish such support to terrorists. First,
Congress made it a felony to knowingly provide any
material support (including currency and financial
services) to certain designated foreign terrorist organizations (FTOs), including Hamas. See 18 U.S.C.
§§ 2339A(b)(1), 2339B(a)(1). This prohibition applies
with full force to charitable and humanitarian support. The only mens rea requirement is that the defendant must know that the support is going to a designated FTO, because they “are so tainted by their
criminal conduct that any contribution to such an organization facilitates that conduct.” Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), Pub. L.

2
No. 104-132, § 301(a)(7), 110 Stat. 1214, 1247 (emphasis added).
Second, the ATA imposes complementary civil liability and provides redress to victims of terrorist attacks. See 18 U.S.C. § 2333(a). Congress strengthened
the ATA with the Justice Against Sponsors of Terrorism Act (JASTA), Pub. L. No. 114-222, 130 Stat. 852
(2016). This statute mirrors the criminal prohibition,
providing the “broadest possible basis, consistent with
the Constitution of the United States, to seek relief”
from anybody that has “provided material support, directly or indirectly,” to FTOs. JASTA § 2(b). Thus,
when a designated FTO commits, plans, or authorizes
an act of international terrorism, JASTA imposes civil
liability on anybody who “aids and abets” that act by
“knowingly providing substantial assistance” to the
entity that committed it. 18 U.S.C. § 2333(d)(2).
Under these laws, any bank—like NatWest—that
knowingly sent millions of dollars to Hamas should be
liable for aiding and abetting its terrorist attacks. The
Second Circuit nevertheless ruled for NatWest as a
matter of law. That is because Second Circuit precedent holds that knowingly providing support (including substantial funds) to an FTO is insufficient to permit a jury to find that the defendant aided and abetted
the FTO’s attacks when, as here, the transferor did not
admit that the funds were for a “terroristic purpose,”
and the victims cannot trace the funds to attacks or
terrorist recruiting. Pet. App. 41a. In effect, the Second Circuit recognizes a humanitarian charity exception to aiding and abetting liability.
Other circuits disavow any such exception. The
Seventh Circuit holds that “[a]nyone who knowingly
contributes to the nonviolent wing of an organization

3
that he knows to engage in terrorism is knowingly contributing to the organization’s terrorist activities.”
Boim v. Holy Land Found. for Relief & Dev., 549 F.3d
685, 698 (7th Cir. 2008) (en banc). The Fifth Circuit
likewise recognizes that “purportedly charitable donations . . . aid[] Hamas’s violent activities.” United
States v. El-Mezain, 664 F.3d 467, 508 (5th Cir. 2011).
These cases involved donations to many of the same
Hamas “charities” at issue here.
The Second Circuit’s holding also conflicts with
the findings of every branch of our government, including this Court. In Holder v. Humanitarian Law Project, 561 U.S. 1, 36 (2010), this Court accepted “the
considered judgment of Congress and the Executive
that providing material support to a designated foreign terrorist organization—even seemingly benign
support—bolsters the terrorist activities of that organization.” The Court held that this judgment was supported by “persuasive evidence,” which showed that it
was “wholly foreseeable” that even peaceful support
for designated FTOs would advance these organizations’ violent agendas. Ibid.
Thus, people and entities that transferred money
to Hamas “charities,” even for purported humanitarian purposes, have been found civilly liable in the Seventh Circuit, and criminally culpable in the Fifth Circuit. But banks that enabled indistinguishable transactions escaped accountability in the Second Circuit—
a particularly concerning result because of that court’s
near-monopoly on terror-financing cases, which generally premise jurisdiction on transfers routed through
New York branches and accounts. This Court should
grant certiorari to bring uniformity to the law, and to
ensure that Congress’s important objectives in

4
enacting the ATA are not frustrated by the Second Circuit’s erroneous construction of the statute.
OPINIONS BELOW
The Second Circuit’s opinion (Pet. App. 1a-42a) is
reported at 993 F.3d 144. The district court’s opinion
(Pet. App. 43a-72a) is reported at 381 F. Supp. 3d 223.
JURISDICTION
The Second Circuit’s judgment was entered on
April 7, 2021. Pet. App. 1a. This petition is timely filed
under this Court’s March 19, 2020 order extending the
deadline to file any petition for a writ of certiorari to
150 days from the date of the lower court judgment,
and remains in effect in this case pursuant to this
Court’s July 19, 2021 order. This Court has jurisdiction pursuant to 28 U.S.C. § 1254.
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions are reproduced
in the appendix at 165a-68a.
STATEMENT OF THE CASE
I. The Anti-Terrorism Laws
1. It has been the longstanding policy of the
United States that certain terrorist organizations “are
so tainted by their criminal conduct that any contribution to such an organization facilitates that conduct.”
AEDPA § 301(a)(7). Such organizations are designated
FTOs by the Secretary of State.
The Secretary may designate an FTO by finding
that the organization is: (1) foreign; and (2) engages in
terrorism or retains the capability and intent to engage in terrorism; which (3) threatens the security of

5
United States nationals or the national security of the
United States. 8 U.S.C. § 1189(a)(1). The list of FTOs
includes entities like al-Qaeda, ISIS, and Hamas that
have engaged in sustained violence against Americans
and our allies. See U.S. Dep’t of State, Foreign Terrorist Organizations, https://www.state.gov/foreign-terrorist-organizations/ (last visited Sept. 2, 2021).
Designation as an FTO is not the only tool the government uses to curb support for terrorism. Under Executive Order 13,224 (as amended), people or entities
that provide support to terrorists may be named Specially Designated Global Terrorists (SDGTs). See U.S.
Dep’t of State, Executive Order 13224, https://www.state.gov/
executive-order-13224/ (last visited Sept. 2, 2021).
SDGT designation enables asset restrictions, and thus
“provides a means by which to disrupt the financial
support network for terrorists and terrorist organizations.” Ibid.
2. FTO designation is particularly significant because it is a felony to knowingly provide any material
support to an FTO. 18 U.S.C. § 2339B(a)(1). Such support is punishable by up to 20 years in prison, or by
life imprisonment if death results. Ibid. This Court analyzed this prohibition in Holder, undertaking a detailed analysis of the legal history and policy behind
our anti-terrorism laws.
In Holder, the respondents were advocacy organizations that wished to provide peaceful aid to members of designated FTOs, including training members
“on how to use humanitarian and international law to
peacefully resolve disputes,” teaching them “how to petition various representative bodies such as the United
Nations for relief,” and offering “legal expertise in negotiating peace agreements.” 561 U.S. at 14-15

6
(citation omitted). The respondents argued that the
support they wished to provide was lawful because
they lacked specific intent to advance terrorism or, in
the alternative, that the statute was unconstitutional
as applied to such support.
This Court held that the statute prohibited the
support the respondents wanted to provide, rejecting
the argument that the statute requires any intent “to
further a foreign terrorist organization’s illegal activities.” Holder, 561 U.S. at 16. Instead, the statute is
satisfied if the defendant has “knowledge about the organization’s connection to terrorism.” Id. at 16-17.
Regarding constitutionality, the Court applied
strict scrutiny, and found that the statute survived it.
The parties agreed, and the Court found, that the Government’s “interest in combating terrorism” was compelling. The respondents argued, however, that the
statute was not narrowly tailored to that interest because “their support will advance only the legitimate
activities of the designated terrorist organizations, not
their terrorism.” Holder, 561 U.S. at 28-29.
This Court rejected that argument. It noted that
“[w]hether foreign terrorist organizations meaningfully segregate support of their legitimate activities
from support of terrorism is an empirical question,”
which Congress resolved in 1996 by making “specific
findings,” including that “any contribution to [an FTO]
facilitates” its terrorist conduct. Holder, 561 U.S. at 29
(quotation marks omitted). Congress also specifically
“considered and rejected the view that ostensibly
peaceful aid would have no harmful effects” when, during drafting, it “removed an exception” to liability “for
the provision of material support in the form of

7
‘humanitarian assistance to persons not directly involved in’ terrorist activity.” Ibid. (citation omitted).
Consistent with the requirements of strict scrutiny, the Court did not blindly accept Congress’s conclusion, but instead found it “justified.” Holder, 561
U.S. at 29. The Court held that peaceful support still
“further[s] terrorism by foreign groups in multiple
ways.” Id. at 30. Teaching FTO members how to request international disaster relief would enable them
to access funds. Id. at 37. Those funds would “free[] up
other resources within the organization that may be
put to violent ends.” Id. at 30. After all, “[m]oney is
fungible.” Id. at 31. Thus, when terrorist organizations
raise funds for “civilian and humanitarian ends,” that
money is often redirected “to fund the purchase of
arms and explosives.” Ibid. (quotation marks omitted).
As a specific example, the Court stated that “Hamas is
able to use its overt political and charitable organizations as a financial and logistical support network for
its terrorist operations.” Ibid. (quoting Matthew
Levitt, Hamas: Politics, Charity, and Terrorism in the
Service of Jihad 2 (2006)).1 The Court further found
that support legitimizes FTOs, enabling recruiting
and fundraising. Id. at 30.
In this regard, the Court credited an affidavit
from the Executive Branch averring that “it is highly
likely that any material support to [FTOs] will ultimately inure to the benefit of their criminal, terrorist
functions—regardless of whether such support was ostensibly intended to support non-violent, non-terrorist
activities” Holder, 561 U.S. at 30, 33 (quotation marks
1

Notably, Dr. Levitt delivered similar testimony in this case
as one of petitioners’ expert witnesses.

8
omitted). The Court found that this “evaluation of the
facts by the Executive, like Congress’s assessment,
[was] entitled to deference.” Id. at 33. The Court accordingly held that Congress’s decision to outlaw even
peaceful support to designated FTOs was narrowly
tailored to its objective of combating terrorism. Id. at
40.
3. In parallel with criminal statutes forbidding
material support to FTOs, the ATA’s civil liability provision, 18 U.S.C. § 2333, provides a remedy for victims
of terrorism. When the ATA was enacted, witnesses
from the Department of Justice explained to Congress
that § 2333 was “a significant new weapon against terrorists” that would “supplement [the Department’s]
criminal law enforcement efforts.” Antiterrorism Act of
1990: Hearing on S.2465 Before the S. Subcomm. on
Cts. & Admin. Practice of the S. Comm. on the Judiciary, 101st Cong. 25 (1990) (testimony of Steven R. Valentine, Deputy Asst. Att’y Gen., Civil Div.).
As originally enacted, the ATA provided a remedy
to any American national injured by reason of an act
of international terrorism. 18 U.S.C. § 2333(a). To constitute “international terrorism,” activities must:
(1) involve “violent acts” or “acts dangerous to human
life”; (2) violate federal or state criminal law (assuming extraterritorial application of those laws); (3) “appear to be intended” to intimidate or coerce a civilian
population, influence the policy of a government by intimidation or coercion, or affect the conduct of a government by mass destruction, assassination, or kidnapping; and (4) “occur primarily outside the territorial jurisdiction of the United States, or transcend national boundaries.” 18 U.S.C. § 2331(1).

9
Congress intended for the ATA’s civil cause of action to provide broad relief. Other than the requirement that injury result from acts of international terrorism, the substance of the action was “not defined by
the statute, because the fact patterns giving rise to
such suits will be as varied and numerous as those
found in the law of torts.” S. Rep. No. 102-342, at 45
(1992). Congress was clear, moreover, that the law was
designed to impose “liability at any point along the
causal chain of terrorism” and therefore to “interrupt,
or at least imperil, the flow of money” to terrorists. Id.
at 22.
Consistent with the flexible cause of action Congress created, courts held that knowingly providing
funds to FTOs in violation of 18 U.S.C. § 2339B can
itself constitute an act of international terrorism under the ATA. This is because the provision of such support is criminal, dangerous to human life, objectively
appears intended to promote terrorists’ political ends,
and typically transcends national borders. See Boim,
549 F.3d at 690; Wultz v. Islamic Republic of Iran, 755
F. Supp. 2d 1, 43-49 (D.D.C. 2010). But some courts
questioned whether this Court’s decision in Central
Bank of Denver, N.A. v. First Interstate Bank of Denver, N.A., 511 U.S. 164 (1994), foreclosed a cause of action predicated on aiding and abetting when Congress
had not expressly codified one.
Congress put that issue to rest in 2016 with
JASTA, which provides that if the “act of international
terrorism” that injured the plaintiff was “committed,
planned, or authorized” by a designated FTO, then “liability may be asserted as to any person who aids and
abets, by knowingly providing substantial assistance,
or who conspires with the person who committed such

10
an act of international terrorism.” 18 U.S.C.
§ 2333(d)(2). Thus, defendants that support an FTO
are liable even if their assistance does not itself meet
all the elements of an “act of international terrorism.”
JASTA applies retroactively to any pending case based
on injuries that arose on or after September 11, 2001.
JASTA § 7.
Aiding and abetting liability under JASTA is intended to be very broad. The statute seeks:
to provide civil litigants with the broadest
possible basis, consistent with the Constitution of the United States, to seek relief
against persons, entities, and foreign countries, wherever acting and wherever they may
be found, that have provided material support, directly or indirectly, to foreign organizations or persons that engage in terrorist activities against the United States.
JASTA § 2(b).
To achieve the intended breadth, Congress
adopted the standards for secondary liability from
Halberstam v. Welch, 705 F.2d 472 (D.C. Cir. 1983).
JASTA § 2(a)(5); see also Central Bank, 511 U.S. at
181 (describing Halberstam as a “comprehensive opinion on the subject”). Under Halberstam, aiding and
abetting liability is available when three elements are
met:
(1) the party the defendant aids must perform
a wrongful act that causes an injury; (2) the
defendant must be generally aware of his role
as part of an overall illegal or tortious activity
at the time he provides the assistance; and

11
(3) the defendant must knowingly and substantially assist the principal violation.
Halberstam, 705 F.2d at 487-88.
In Halberstam, a woman who provided administrative support to a burglar was held liable for aiding
and abetting an unplanned murder he committed during a botched getaway—even though the defendant
did not intend, know about, or cause the killing, and
may not even have known she was aiding burglaries.
705 F.2d at 474-75, 488-89.
The D.C. Circuit held that when a plaintiff alleges
that a defendant aided and abetted an act of violence,
the general awareness element is met if the defendant
was generally aware that she was playing a role in any
illegal activity from which violence is a foreseeable
risk. See Halberstam, 705 F.2d at 488. The defendant
need not intend for violence to occur, nor contribute
directly to the violent act; indeed, the defendant need
not even know the precise nature of the illegal activity
she is assisting. See ibid. All she has to know is that
the principal is engaged in unlawful activity, and that
“violence and killing is a foreseeable risk” from that
activity. Ibid. For the support to be “substantial,”
courts look to multiple factors, including, but not limited to, the amount and duration of the assistance. Under this standard, even acts that are “neutral standing
alone” can support liability based on the “context of the
enterprise they aided.” Ibid. By incorporating Halberstam into JASTA, Congress showed it was serious
about creating the broadest possible cause of action.

12
II. Factual Background and Procedural
History
1. Petitioners are victims, family members of victims, and estates of victims of terrorist attacks Hamas
committed during the Second Intifada. See Pet. App.
7a-8a. Petitioners filed their consolidated complaints
in 2005 and 2007, seeking redress for attacks that occurred from 2001 to 2004. Ibid.; id. at 9a.
The complaints allege that NatWest knowingly
sent money to Hamas for an entity called Interpal. Pet.
App. 9a. Interpal was one of Hamas’s principal fundraisers; it raised funds from around the world (mostly
in Western Europe) and sent those funds to Hamas.
Interpal was a NatWest customer from at least 1994
to 2007. Id. at 9a-10a. During that period, NatWest
executed over 450 wire transfers on Interpal’s behalf
to 13 Hamas-controlled entities. Id. at 10a.
These recipients are described as the “13 Charities.” Pet. App. 10a. They operate as Hamas’s “social
network,” and are controlled by, or are alter-egos of,
Hamas itself. Id. at 85a. Specifically, the 13 Charities
have “shared personnel and overlapping leadership”
with Hamas. Ibid. And “multiple government agencies, including the German Ministry of Interior, the Israeli Minister of Defense, and the U.S. Department of
Treasury,” have found “that the 13 Charities were Hamas-controlled.” Ibid. As petitioners’ expert Dr. Matthew Levitt explained, “there is ample evidence for the
role of Hamas social institutions in the terror activities
directed and authorized by Hamas leaders and commanders” and that “[t]hese activities amplify, enable,
and accelerate Hamas’s overall ability to engage in incitement, recruitment, and logistical and operational

13
support for weapons smuggling, reconnaissance, and
acts of terror from suicide bombings to rocket fire.”
A-243.2
The United States designated Interpal an SDGT
on August 22, 2003. Pet. App. 9a; A-1032.3 The Treasury Department explained that Hamas raises “tens of
millions of dollars per year throughout the world using
charitable funding as cover.” A-1035. Using “a web of
charities to facilitate funding and to funnel money,”
Hamas obtains funds that are “often diverted or siphoned to support terrorism.” Ibid. Although this
money is sometimes also used “for legitimate charitable work, this work is a primary recruiting tool for the
organization’s militant causes.” Ibid. Thus, charitable
donations “allow the group to continue to foment violence, strengthen its terrorist infrastructure, and undermine responsible leadership.” Ibid.
The government identified Interpal as “a principal
charity utilized to hide the flow of money to Hamas,”
which acted as “the conduit through which money
flows to Hamas from other charities,” and was also
“the fundraising coordinator of Hamas.” A-1036 (capitalization altered). In addition to raising funds for Hamas, Interpal’s activities included “supervising activities of charities, developing new charities in targeted
areas, instructing how funds should be transferred

2
Citations to A-____ are to the joint appendix in the court of
appeals.
3

For convenience, the public announcement of the designation, which was reproduced in the Joint Appendix below (A-10321037), is available at https://www.treasury.gov/press-center/
press-releases/pages/js672.aspx. Excerpts appear in the Second
Circuit’s 2014 opinion. Pet. App. 149a.

14
from one charity to another, and even determining
public relations policy.” Ibid.
Even after NatWest knew its customer was an
SDGT, it continued to make transfers from Interpal to
Hamas-controlled charities. Petitioners seek to hold
NatWest liable for its role in Hamas’s violence.
2. The case has a long procedural history. As relevant here, the complaints originally asserted causes of
action for primary liability as well as aiding and abetting. The pre-JASTA aiding and abetting claims were
initially dismissed, and the case proceeded on primary
liability claims predicated on violations of the material
support statutes, including 18 U.S.C. § 2339B. See
Weiss v. Nat’l Westminster Bank PLC, 453 F. Supp. 2d
609, 612, 633 (E.D.N.Y. 2006).
After discovery, NatWest moved for summary
judgment. In 2013, the district court granted the motion on the element of scienter. Weiss v. Nat’l Westminster Bank PLC, 936 F. Supp. 2d 100, 114, 120
(E.D.N.Y. 2013).
The Second Circuit reversed, holding that the relevant legal question when considering “scienter for liability under 18 U.S.C. § 2333(a) predicated on a violation of 18 U.S.C. § 2339B(a)(1)” was whether “NatWest had knowledge that, or exhibited deliberate indifference to whether, Interpal provided material support to a terrorist organization, irrespective of whether
Interpal’s support aided terrorist activities of the terrorist organization.” Pet. App. 147a. The court held
that there was “a triable issue of fact as to whether
NatWest possessed the requisite scienter.” Id. at 148a.
The court of appeals described some of the evidence that would support a jury finding that NatWest

15
knew that it was providing material support to Hamas. This included:


NatWest’s knowledge that Treasury designated Interpal as an SDGT in August 2003.



The 2004 written acknowledgment by the head of
NatWest’s Group Enterprise Risk that she was
“aware that we had accounts for people connected
to Hamas, but not Hamas itself.”



Testimony from the head of NatWest’s Group Security and Fraud Office that NatWest would only terminate a relationship with a customer on terror financing grounds if the customer was first “convicted in a court of law,” and NatWest had “clear
evidence” that the money transferred had been
used to “buy bullets or explosives.”

Pet. App. 161a-163a (cleaned up).
That evidence was sufficient for the Second Circuit to hold that there was a triable issue as to whether
NatWest knew it was providing material support to
Hamas. But it was only some of the favorable record
evidence. Additional evidence demonstrated that:


NatWest filed an internal suspicious activity report
based on a 1996 Financial Times article recounting
Israeli government charges that Interpal “had
masterminded fund-raising for the Hamas Islamic
movement in Europe,” and was providing “support
to families of Hamas guerillas and suicide bombers.” A-1054. The article stated that when Interpal’s then-Chairman, Abdul Rahman Daya, was
asked whether any of the charities funded by Interpal were linked to Hamas, he admitted,
“Maybe.” Ibid.

16


Israel outlawed Interpal in 1997 and declared it a
terrorist organization a year later. A-280.



In September 2001, the same executive who later
testified about NatWest’s reluctance to close Interpal’s accounts saw (and personally hand-delivered to British authorities), A-1119, a leaked South
African National Intelligence Agency report indicating that Interpal was Hamas’s principal fundraiser in Western Europe, and that Hamas used
the Interpal funds to support terrorist activities,
A-1171-1200.



NatWest’s internal customer risk program marked
Interpal with a “red flag” throughout the relevant
period, signifying “Extreme caution is advised,”
A-1479, “serious grounds for concern,” ibid., and
after 2004, “[f]irm evidence of wrongdoing,”
A-1524.



NatWest contemporaneously knew that the United
States and the United Kingdom both designated
Interpal’s counterparty, the Al-Aqsa Foundation,
on May 29, 2003, A-1569-1572. U.K. Chancellor
Gordon Brown publicly explained that “[t]he AlAqsa Foundation describes itself as an organisation that helps widows and orphans but we have
linked them to supporting terrorists.” A-1572 (emphasis added). Nevertheless, NatWest kept depositing transfers from the Al-Aqsa Foundation into
Interpal’s account. A-3242, A-3247-3248.

Notwithstanding these damning facts, Interpal
remained a NatWest customer until 2007 (after the
motion to dismiss in this case was denied), at which
point NatWest finally closed Interpal’s accounts. See
Pet. App. 151a.

17
On remand, the district court adjudicated NatWest’s remaining summary judgment arguments, and
denied the motion. See Pet. App. 73a-100a. Thus, the
court held that petitioners had introduced sufficient
evidence that the 13 Charities were controlled by, or
alter-egos of, Hamas. Id. at 83a-86a.
The district court also found sufficient evidence
that Hamas had committed 16 of the 18 terrorist attacks at issue, Pet. App. 89a, and that the money
transferred to the 13 Charities had proximately
caused the attacks. The court explained that by
“provid[ing] funds to Hamas front-groups,” NatWest’s
conduct proximately caused the attacks because “[t]he
social services provided by Hamas and its front groups
are integral to building popular support for its organization and goals, which then facilitates its ability to
carry out violent attacks.” Id. at 83a.
3. While this case was pending, Congress enacted
JASTA in 2016, expressly adding a claim for aiding
and abetting to the ATA. See 18 U.S.C. § 2333(d)(2).
4. Two years later, the Second Circuit decided
Linde v. Arab Bank, PLC, 882 F.3d 314 (2d Cir. 2018).
There, the plaintiffs, who were injured in attacks committed by Hamas from 2001 to 2004, sued a Jordanian
bank for providing financial services to Hamas entities, leaders, and operatives. The plaintiffs prevailed
after a liability trial. See id. at 317-18.
On appeal, the Second Circuit found that the district court had improperly instructed the jury regarding the elements of ATA primary liability. See Linde,
882 F.3d at 318. Specifically, the Second Circuit held
that the district court erroneously allowed the jury to
impose liability upon finding that the bank knowingly

18
provided material support to a terrorist organization
without separately requiring the jury to find that the
bank satisfied the elements of the ATA’s § 2331(1) definition of “international terrorism” (e.g., the “violent”
or “dangerous to human life” requirement, and the apparent intent requirement).
The plaintiffs in Linde argued that any charging
error was harmless, in part because, under JASTA
(enacted after the trial in Linde), knowingly providing
material support to a designated FTO was effectively
the same as aiding and abetting the organization’s terrorist violence. Thus, the plaintiffs argued, and the
Second Circuit agreed, “the jury found Arab Bank to
have provided material support in the form of financial
services to what it knew was a designated terrorist organization.” Linde, 882 F.3d at 329.
Nevertheless, the Second Circuit held that the
jury’s findings did not support a JASTA claim because
“aiding and abetting an act of international terrorism
requires more than the provision of material support
to a designated terrorist organization.” Linde, 882
F.3d at 329. Specifically, Linde held that aiding and
abetting liability requires a jury to find that, “in
providing [financial] services, the bank was ‘generally
aware’ that it was thereby playing a ‘role’ in Hamas’s
violent or life-endangering activities.” Ibid. It was not
enough, in the court’s view, for the bank to know of
Hamas’s “connection to terrorism.” Id. at 330.
Because the court concluded that the instructional
error was not harmless, it vacated and remanded for a
jury to consider JASTA’s aiding and abetting elements. Pursuant to a settlement, the retrial never occurred. See Linde, 882 F.3d at 318-19.

19
5. NatWest filed another summary judgment motion, arguing that under Linde, evidence showing that
NatWest had knowingly provided material support to
Hamas was insufficient to render it liable. Indeed,
NatWest instructed the district court to assume that
there was sufficient evidence in the record for a jury to
conclude that NatWest “knowingly provided material
support to an FTO in violation of § 2339B,” the felony
material support statute. Pet. App. 55a. Contemporaneously, petitioners sought to amend their complaints
to re-introduce claims for aiding and abetting liability
under JASTA.
The district court granted NatWest’s renewed motion. See Pet. App. 43a-72a. After finding the evidence
insufficient to support primary liability, the court denied petitioners’ motion for leave to amend as futile.
Id. at 70a. The court explained that “[e]vidence that
Defendant knowingly provided banking services to a
terrorist organization, without more, is insufficient to
satisfy JASTA’s scienter requirement” because even if
the evidence showed knowing support to an FTO, that
would not “create[] a jury question as to whether [NatWest] generally was aware that it played a role in any
of Hamas’s or even Interpal’s . . . violent or life-endangering activities” under Linde. Id. at 72a.
6. Petitioners appealed, and the Second Circuit affirmed. Pet. App. 7a.4 The court explained that under
Linde, “the mens rea element of aiding and abetting is
‘different from the mens rea required to establish
4

NatWest cross-appealed the denial of its summary judgment motion on personal jurisdiction grounds. The Second Circuit did not reach that issue because it ruled for NatWest on the
merits. Pet. App. 25a.

20
material support in violation of 18 U.S.C. § 2339B,’”
and that “‘[a]iding and abetting an act of international
terrorism requires more than the provision of material
support to a designated terrorist organization.’” Pet.
App. 37a-38a (quoting Linde, 882 F.3d at 329-30).
Under the Second Circuit’s rule, the ample evidence demonstrating that NatWest knowingly transferred funds for and to Hamas-controlled entities was
deemed insufficient even to create a jury question regarding aiding and abetting because: petitioners conceded that the 13 Charities also “performed charitable
work”; there was “no evidence that the charities
funded terrorist attacks or recruited persons to carry
out such attacks”;5 and “Interpal did not indicate to
NatWest that the transfers were for any terroristic
purpose.” Pet. App. 41a. Legally, it did not matter that
Interpal and the 13 Charities were controlled by Hamas or that Hamas was a designated FTO engaged in
a campaign of violent terrorism when NatWest transferred funds for Interpal. See ibid. (rejecting the argument that NatWest’s awareness “was established by
evidence that NatWest was assisting Interpal”).
7. This petition followed. Although the lower
courts addressed primary and secondary liability, this

5
Although the “charities” did not directly fund attacks or
recruit terrorists in their own name, employees and management
of the charities were directly involved in planning two of the suicide bombings at issue in this case. A-279, A-362. Other “charitable” committee employees also recruited Hamas operatives,
A-256-57; transported suicide bombers to their targets, A-363;
and paid benefits to the families of Hamas “martyrs,” A-308,
A-313-314, A-431-432, A-2410.

21
petition solely concerns aiding and abetting under
JASTA, 18 U.S.C. § 2333(d)(2).
Petitioners have filed a separate petition seeking
review of the Second Circuit’s decision in Strauss v.
Crédit Lyonnais, S.A., 842 F. App’x 701 (2d Cir. 2021).
There, another bank processed donations to many of
the same Hamas charities on behalf of another Hamas
fundraiser. The Second Circuit decided this case and
Strauss on the same day, issuing a published opinion
here and an unpublished decision in Strauss incorporating the reasoning below. The Court may wish to
consider the two petitions together.
REASONS FOR GRANTING THE WRIT
I. The Decision Below Conflicts With Decisions From Other Circuits.
Certiorari should be granted because two other
circuits have squarely rejected the core premise underlying the Second Circuit’s ruling—i.e., that knowingly
providing material support to a terrorist organization
does not equate to knowingly playing a role in illegal
activities that foreseeably risk violence. The conflict is
exceptionally clear because all three cases arose out of
indistinguishable transactions (i.e., transfers to putative charities controlled by Hamas—at least five of
which appear in each case).
1. In Boim v. Holy Land Foundation for Relief &
Development, 549 F.3d 685, 687-88 (7th Cir. 2008) (en
banc), the parents of an American national killed in
Israel sued U.S.-based charities for providing financial

22
support to Hamas in violation of the ATA.6 The defendants were found liable; on their appeal, the Seventh
Circuit, sitting en banc, considered the standard for
ATA liability “against financial supporters of terrorism.” Id. at 688.
Because Boim arose before JASTA’s enactment,
the discussion nominally concerned primary liability,
i.e., whether donations to terrorist organizations constitute acts of international terrorism. However, as the
Seventh Circuit explained, secondary liability concepts applied because “[p]rimary liability in the form
of material support to terrorism has the character of
secondary liability. Through a chain of incorporations
by reference, Congress has expressly imposed liability
on a class of aiders and abettors.” Boim, 549 F.3d at
691-92. JASTA essentially codifies the Seventh Circuit’s primary-liability rule as a secondary-liability
cause of action. Indeed, the Seventh Circuit cited and
relied on Halberstam v. Welch, 705 F.2d 472 (D.C. Cir.
1983), see 549 F.3d at 691, which Congress incorporated into JASTA § 2(a)(5).
As relevant here, the Seventh Circuit held that
§ 2333’s scienter requirement is met if a person who
provides funds to an organization “either knows that
the organization engages in such [terrorist] acts or is
deliberately indifferent to whether it does or not,
meaning that one knows there is a substantial
6
At least six of the charities that received money in Boim
also received transfers from Interpal: Islamic Charitable Society
– Hebron; Jenin Zakat Committee; Nablus Zakat Committee;
Tulkarem Zakat Committee; Ramallah al-Bireh Zakat Committee; and Sanabil Association for Relief and Development. See
Boim v. Quranic Literacy Inst., 2012 WL 13171764, at *6 (N.D.
Ill. Aug. 31, 2012).

23
probability that the organization engages in terrorism
but one does not care.” Boim, 549 F.3d at 693. Applying that standard, the court reasoned that “[a] knowing donor to Hamas—that is, a donor who knew the
aims and activities of the organization—would know
. . . that donations to Hamas, by augmenting Hamas’s
resources, would enable Hamas to kill or wound . . .
more people,” including the “many U.S. citizens” who
“live in Israel.” Id. at 693-94.
The Seventh Circuit also grappled with the fact
that Hamas was “engaged not only in terrorism but
also in providing health, educational, and other social
welfare services,” and that many defendants “directed
their support exclusively to such services.” Boim, 549
F.3d at 698. The court concluded that “if you give
money to an organization that you know to be engaged
in terrorism, the fact that you earmark it for the organization’s nonterrorist activities does not get you off
the liability hook.” Ibid. The court cited two bases for
that holding. “The first is the fungibility of money. If
Hamas budgets $2 million for terrorism and $2 million
for social services and receives a donation of $100,000
for those services, there is nothing to prevent its using
that money for them while at the same time taking
$100,000 out of its social services ‘account’ and depositing it in its terrorism ‘account.’” Ibid.
The second reason is that “Hamas’s social welfare
activities reinforce its terrorist activities both directly
by providing economic assistance to the families of
killed, wounded, and captured Hamas fighters and
making it more costly for them to defect,” as well as
“indirectly by enhancing Hamas’s popularity among
the Palestinian population and providing funds for indoctrinating schoolchildren.” Boim, 549 F.3d at 698.

24
The Seventh Circuit was explicit that:
Anyone who knowingly contributes to the
nonviolent wing of an organization that he
knows to engage in terrorism is knowingly
contributing to the organization’s terrorist activities. And that is the only knowledge that
can reasonably be required as a premise for
liability. To require proof that the donor intended that his contribution be used for terrorism—to make a benign intent a defense—
would as a practical matter eliminate donor
liability except in cases in which the donor
was foolish enough to admit his true intent.
Boim, 549 F.3d at 698-99.
Finally, the Seventh Circuit held that those who
provide funds to terrorists cannot “escape liability because terrorists and their supporters launder donations through a chain of intermediate organizations.”
Boim, 549 F.3d at 701-02. As long as the defendant “either knows or is reckless in failing to discover” that the
donations “end up with Hamas,” it is liable. Id. at 702.
“[T]o set the knowledge and causal requirement
higher . . . would be to invite money laundering, the
proliferation of affiliated organizations, and two-track
terrorism (killing plus welfare),” rendering the statute
“a dead letter” against terrorist financing. Ibid.
The Seventh Circuit was assisted by the United
States’ amicus brief, which argued that defendants
that knowingly provide substantial support to terrorist organizations can be liable even absent “a specific
intent to further terrorist activities or the violent components of a terrorist organization.” Boim U.S. Amicus
Br., 2008 WL 3993242, at *31.

25
Under the Seventh Circuit’s rule, NatWest was
not entitled to summary judgment. The Second Circuit
previously held (and NatWest instructed the district
court to assume for present purposes) that there was
sufficient evidence in the record to permit a jury to find
that NatWest “knowingly provided material support
to an FTO in violation of § 2339B” (the felony material
support statute). Pet. App. 55a. Even if those transfers
were purportedly earmarked for charitable purposes,
they supported liability under Boim because the Seventh Circuit recognizes that any knowing support to
an FTO foreseeably furthers that organization’s violence, and therefore supports ATA liability. The facts
that the Second Circuit found dispositive—i.e., that
the 13 Charities performed some charitable work, that
transferred funds were not traced to specific terrorist
attacks, and that Interpal did not admit that its transfers were for terroristic purposes—would not entitle
NatWest to judgment as a matter of law. At most, they
would create a jury issue.
2. In United States v. El-Mezain, 664 F.3d 467, 483
(5th Cir. 2011), the Fifth Circuit affirmed criminal liability under 18 U.S.C. § 2339B (the material support
statute) for individuals and charities that sent funds
to entities in Hamas’s “social wing.” The transfer recipients in El-Mezain included five of the same charities at issue here and in Boim. See supra n.6. Despite
acknowledging that these “entities performed some legitimate charitable functions,” the Fifth Circuit affirmed the defendants’ convictions. 664 F.3d at 483.
The court reasoned that the purported charities “were
actually Hamas social institutions” and that, “by supporting such entities, the defendants facilitated Hamas’s activity by furthering its popularity among

26
Palestinians and by providing a funding resource” that
“allowed Hamas to concentrate its efforts on violent
activity.” Id. at 483-84.
The Fifth Circuit detailed the clear connections
between Hamas’s social wing and its terrorist objectives. It explained that “social services like education
and medical care to the needy . . . build[] grassroots
support for Hamas and its violent activities.” El-Mezain, 664 F.3d at 486. Indeed, Hamas’s social activities
are “crucial to Hamas’s success because, through its
operation of schools, hospitals, and sporting facilities,”
Hamas can “win the ‘hearts and minds’ of Palestinians
while promoting its anti-Israel agenda and indoctrinating the populace in its ideology.” Ibid. Not only
that, but Hamas’s “social wing also supports the families of Hamas prisoners and suicide bombers, thereby
providing incentives for bombing, and it launders
money for all of Hamas’s activities.” Ibid. Consequently, “aid to Hamas’s social wing critically assists
Hamas’s goals while also freeing resources for Hamas
to devote to its military and political activities.” Ibid.
Like the defendants in Boim, the defendants in
El-Mezain argued “that they did not support Hamas or
terrorism, but rather shared a sympathy for the plight
of the Palestinian people.” El-Mezain, 664 F.3d at 489.
They also contended that the court could not treat the
charities as Hamas fronts because the government
had never designated them as terrorist organizations.
See ibid.
The Fifth Circuit held that these arguments were
properly presented to the jury, which rejected them in
light of the government’s “evidence of Hamas control
of the” putative charities, which the Fifth Circuit described as “substantial.” El-Mezain, 664 F.3d at 489-

27
90. The “plethora of evidence,” id. at 527, the court
cited largely overlapped with the evidence in this case:
Dr. Levitt offered indistinguishable expert testimony,
and petitioners relied on much of the same documentary evidence that supported the El-Mezain convictions, including voluminous materials seized by the
Government of Israel from the “charities” offices.
Although El-Mezain is a criminal case, it stands
clearly for the proposition that those who aid an FTO’s
peaceful arm necessarily enable terrorist violence.
That empirical proposition is no less true when presented as an argument for civil liability. Unsurprisingly, in civil cases under the ATA, district courts in
the Fifth Circuit have noted that this Court’s “discussion of fungibility, legitimacy, and foreign affairs” in
Holder v. Humanitarian Law Project, 561 U.S. 1
(2010), “confirms the broad sweep of the statute and
supports the reasoning of Boim.” Abecassis v. Wyatt,
785 F. Supp. 2d 614, 634 (S.D. Tex. 2011).
3. The Second Circuit’s decisions in this case and
Strauss are irreconcilable with the conclusions
reached by the Fifth and Seventh Circuits. While other
courts recognize that support for an FTO’s nonviolent
activities constitutes support for its terrorism, the Second Circuit adopted a contrary rule. The Second Circuit particularly stands apart in its willingness to
grant judgment to defendants as a matter of law and
thereby prevent a jury from considering whether a defendant that knows it is sending money to an FTO is
also aiding that organization’s violent activities. The
split is stark.
In subsequent cases, the Second Circuit has adhered to its position that knowingly providing material support to FTOs is insufficient to support liability

28
for aiding and abetting. Thus, in Kaplan v. Lebanese
Canadian Bank, SAL, 999 F.3d 842, 860-61 (2d Cir.
2021), the court reaffirmed the rule in Linde v. Arab
Bank, PLC, 882 F.3d 314 (2d Cir. 2018), but found that
the plaintiffs’ complaint satisfied it by alleging that
the bank’s customers “were so closely intertwined with
Hizbollah’s violent terrorist activities that one can reasonably infer that [defendant] LCB was generally
aware while it was providing banking services to those
entities that it was playing a role in unlawful activities
from which the rocket attacks were foreseeable.” The
Second Circuit does not permit such an inference, however, when the donations were nominally charitable.
The court made the point even more explicitly in
Honickman v. BLOM Bank SAL, 6 F.4th 487 (2d Cir.
2021). There, the Second Circuit rejected the plaintiffs’
“attempt to equate the Halberstam foreseeability
standard with the ‘fungibility’ theory in Holder v. Humanitarian Law Project” because “Linde determined
that the facts in Holder—adequate for criminal material support—fall short for the general awareness element of JASTA aiding and abetting.” Id. at 498-99.
Honickman also acknowledged the conflict between the Seventh Circuit’s decision in Boim and the
Second Circuit’s rule. The court noted that the Seventh Circuit held that “anyone who knowingly contributes to the nonviolent wing of an organization that he
knows to engage in terrorism is knowingly contributing to the organization’s terrorist activities.” 6 F.4th
at 499 n.14 (quotation marks and alteration omitted).
But the Second Circuit held that “any persuasive
value [Boim] might have is insufficient to overcome
the binding effects of Linde and Kaplan on us.” Ibid.

29
In sum, a circuit split exists over whether, when a
person knowingly provides funds to an FTO (or its
fronts), a jury may find that the person aided and abetted the FTO’s terrorist acts. The split is entrenched,
and calls out for this Court’s immediate review.
II. The Decision Below Is Incorrect.
Certiorari should also be granted because the decision below is incorrect. The Second Circuit’s holding
rejects a fundamental axiom of American counterterrorism policy: that any material support to designated
FTOs advances their terrorist agendas. Congress
found as much in 1996 in AEDPA, and operationalized
that finding as a felony prohibition in the material
support statute, 18 U.S.C. § 2339B(a)(1). The Executive Branch reaffirmed the principle before this Court
in Holder, where this Court found it sufficiently powerful to overcome strict scrutiny.
Congress followed up with JASTA, codifying an
action for aiding and abetting against any person who
“knowingly provid[es] substantial assistance” to
FTOs, 18 U.S.C. § 2333(d)(2), and explaining that by
doing so, it invested victims of FTO violence with “the
broadest possible basis, consistent with the Constitution of the United States, to seek relief” against any
person or entity that “provided material support, directly or indirectly,” to an FTO. JASTA § 2(b). The natural reading of the phrase “broadest possible basis” is
that Congress intended JASTA liability to extend at
least as far as the liability this Court recognized in
Holder (which explored the limits the Constitution imposes on liability for material support). And under
Holder, the fact that support to FTOs is given for nominally charitable or humanitarian purposes—or even

30
used for such purposes—does not eliminate liability as
a matter of law. Holder, 561 U.S. at 30 (“Material support meant to promote peaceable, lawful conduct, can
further terrorism by foreign groups in multiple ways.”)
(cleaned up).
Notwithstanding these authorities, the Second
Circuit has insisted that the knowing provision of material support to FTOs is insufficient to establish aiding and abetting. The Second Circuit seeks to justify
this approach by citing purported distinctions between
supporting an organization, on the one hand, and supporting its terrorist acts, on the other. Pet. App. 37a38a. But any such distinction is illusory vis-à-vis designated FTOs. As this Court observed in Holder, “the
considered judgment of Congress and the Executive,”
is “that providing material support to a designated foreign terrorist organization—even seemingly benign
support—bolsters the terrorist activities of that organization.” 561 U.S. at 36. The Court found that view
supported by “persuasive evidence,” sufficient to overcome a strict scrutiny challenge. Ibid. All three
branches of the federal government thus reject the
Second Circuit’s core legal premise, i.e., that providing
support to FTOs is not the sort of unlawful activity
that foreseeably leads to terrorism.
In Honickman, the Second Circuit also concluded
that treating material support for terrorist organizations as a proxy for aiding and abetting would conflict
with Halberstam, which Congress identified as the
standard for aiding and abetting under JASTA. See 6
F.4th at 498-99. This is incorrect. Under Halberstam,
a defendant can be liable for aiding and abetting an
act of violence if the defendant was “generally aware
of his role as part of an overall illegal or tortious

31
activity,” and violence was a “foreseeable consequence
of the activity.” 705 F.2d at 487-88. Thus, the D.C. Circuit determined that the defendant could be held liable
for an unplanned murder even if she did not know that
her partner was a burglar, let alone a killer—and even
though she personally played no role in the murder.
See id. at 488. Indeed, “her own acts were neutral
standing alone.” Ibid. But she was liable because she
knew she was involved in “some type of personal property crime,” and “violence and killing is a foreseeable
risk” of that enterprise. Ibid.
Similar logic supports liability for NatWest—or at
least precludes summary judgment. Knowingly
providing an FTO with access to currency and financial services is playing a role in an illegal enterprise;
terrorist violence is at least a foreseeable (if not inevitable) consequence of that enterprise. See, e.g., Holder,
561 U.S. at 36. Thus, even if support for Hamas-controlled charities is “seemingly benign,” ibid., or “neutral standing alone,” Halberstam, 705 F.2d at 488, that
support is culpable “in the context of the enterprise” it
aids, ibid. Under Halberstam, no more is required. The
facts the Second Circuit deemed exculpatory—including that Interpal did not foolishly earmark its transfers for terroristic purposes, that Hamas-controlled
charities performed charitable work, and that the
funds donated did not necessarily pay directly for violence—are insufficient to defeat JASTA liability as a
matter of law. At most, these facts create a jury question about whether terrorist violence was a foreseeable
risk from providing financial support to Hamas.
Indeed, the burden the Second Circuit imposed
eviscerates JASTA. Sophisticated terrorist fundraisers know better than to admit that they are funding

32
terrorism. And victims of terrorism have no way to
trace funds received by a terrorist front group through
to terrorist attacks or recruiting. FTOs, after all, do
not open their ledgers to the public. Congress knows
this, which is why it outlawed all material support to
FTOs. But if defendants are entitled to judgment as a
matter of law any time terrorists do not hand the
plaintiffs evidence connecting transfers to terrorism,
“the statute would be a dead letter” against terrorist
financing. Boim, 549 F.3d at 702.
On the other hand, answering the question presented in petitioners’ favor does not require the Court
to hold that every act that violates 18 U.S.C.
§ 2339B(a)(1) also gives rise to aiding and abetting liability under JASTA. For example, knowingly providing material support to an FTO might not equate to
aiding and abetting the FTO’s terrorist acts where the
support was not “substantial” under JASTA. The question presented here focuses on the provision of substantial funds, the form of support most easily “diverted or siphoned to support terrorism.” A-1035. NatWest knowingly moved millions of dollars from Interpal to Hamas, even after Interpal was designated
an SDGT, and while Hamas was carrying out a wave
of terrorist attacks during the Second Intifada. At a
minimum, the aiding and abetting claim required a
jury’s consideration.
III. The Question Presented Is Important.
The question presented is important and frequently recurring. Halting the flow of money to terrorist organizations is key to stopping their violence
against Americans, and civil liability is a critical deterrent to illicit terror financing.

33
It is well-understood that terrorists rely on U.S.
dollars moving through the international banking system to finance violence. See, e.g., Juan C. Zarate,
Treasury’s War: The Unleashing of a New Era of Financial Warfare 145-46 (2013) (ebook) (former Deputy
Assistant to the President and Deputy National Security Advisor for Combating Terrorism explaining that
“[f]or any criminal or terrorist enterprise to have
global and sustained reach, it must have a financial
infrastructure to raise, hide, and move money to its
operatives and operations. Banks are the most convenient and important of these nodes of the financial system and are critical to nefarious networks.”); Jimmy
Gurulé, Unfunding Terror: The Legal Response to the
Financing of Global Terrorism 151 (2008) (former Under Secretary of the Treasury for Terrorism and Financial Intelligence and later Assistant Attorney General explaining that banks are attractive to terrorists
“because they provide an extensive range of financial
services,” “wide geographic availability,” and the capacity to transfer “large sums of money . . . instantaneously” across the world). That is why, for example,
Congress observed in JASTA that “terrorist organizations” “act[] through affiliated groups or individuals
[and] raise significant funds outside of the United
States.” JASTA § 2(a)(3). For the same reason, the
United States recently modernized its sanctions regime by authorizing the Treasury Department to deny
foreign financial institutions that assist sanctioned
terrorists any further access to U.S. dollar accounts.
See Exec. Order No. 13,886, § 1, 84 Fed. Reg. 48,041
(Sept. 9, 2019).
Nevertheless, many banks have not halted the
flow of terrorist financing. Indeed, NatWest continued

34
to transfer funds from Interpal to Hamas-controlled
charities even after NatWest learned of Interpal’s designation and after the U.K. froze payments “to, or for
the benefit of, Hamas.” Pet. App. 150a. It only ceased
doing so in 2007, after losing the motion to dismiss this
case. See id. at 151a.
As explained supra pp.31-32, the Second Circuit’s
rule undermines Congress’s efforts to deter terror financing by imposing an illogical burden on plaintiffs,
and excusing banks from undertaking even minimal
diligence. The flaw in the Second Circuit’s rule is particularly significant because most ATA cases against
commercial banks arise in the Second Circuit. See, e.g.,
Honickman, 6 F.4th 487; Kaplan, 999 F.3d 842;
Strauss, 842 F. App’x 701; Siegel v. HSBC N. Am.
Holdings, Inc., 933 F.3d 217 (2d Cir. 2019); Linde, 882
F.3d 314; In re Terrorist Attacks on Sept. 11, 2001, 714
F.3d 118 (2d Cir. 2013); Rothstein v. UBS AG, 708 F.3d
82 (2d Cir. 2013); Miller v. Arab Bank, PLC, 372
F. Supp. 3d 33 (E.D.N.Y. 2019); Freeman v. HSBC
Holdings PLC, 2021 WL 76925 (E.D.N.Y. Jan. 7,
2021); Bartlett v. Société Générale de Banque Au Liban
SAL, 2020 WL 7089448 (E.D.N.Y. Nov. 25, 2020); Est.
of Henkin v. Kuveyt Türk Katilim Bankasi, A.Ş., 495
F. Supp. 3d 144 (E.D.N.Y. 2020), motion to certify appeal granted, 2020 WL 6700121 (E.D.N.Y. Nov. 13,
2020); Spetner v. Palestine Inv. Bank, 495 F. Supp. 3d
96 (E.D.N.Y. 2020); Averbach ex rel. Est. of Averbach
v. Cairo Amman Bank, 2020 WL 1130733 (S.D.N.Y.
Mar. 9, 2020); O’Sullivan v. Deutsche Bank AG, 2020
WL 906153 (S.D.N.Y. Feb. 25, 2020).
These cases, many of which remain pending, are
incredibly consequential; they are brought by the victims of the September 11th attacks, Gold Star

35
families, and myriad other Americans killed and injured by terrorists. The cases arise in the Second Circuit because most international transfers of U.S. dollars pass through branch or intermediary banks in
New York. See Banque Worms v. BankAmerica Int’l,
570 N.E.2d 189, 194 (N.Y. 1991). The Second Circuit
thus plays an outsized role in determining what standard governs ATA claims against banks—and it has
adopted the wrong rule. This Court should intervene
immediately.
IV. This Court Should Consider Calling For
The Views Of The Solicitor General.
If the Court is uncertain about the need for review, it should call for the views of the Solicitor General. The Court did so in O’Neill v. Al Rajhi Bank, No.
13-318, which concerned whether the ATA (before
JASTA) included an action for aiding and abetting. A
CVSG makes sense because, as this Court recognized
in Holder, terrorism cases implicate “sensitive and
weighty interests of national security and foreign affairs.” 561 U.S. at 33-34.
The United States also has an interest in the
scope of civil liability. The ATA’s civil liability provision “was supported by the Executive Branch as an effective weapon in the battle against international terrorism.” Boim U.S. Amicus Br., 2008 WL 3993242, at
*1. Indeed, the Government lobbied for the statute,
and argued for its broad application in Boim. Since
then, Congress has only broadened the ATA with
JASTA and other laws, including the Anti-Terrorism
Clarification Act of 2018, Pub. L. No. 115-253, 132
Stat. 3183, and the Promoting Security and Justice for

36
Victims of Terrorism Act of 2019, Pub. L. No. 116-94,
§ 903, 133 Stat. 2534, 3082.
The Government also has an interest in this case
because of how the civil and criminal liability provisions interact with the FTO and SDGT sanctions regime, which the Executive Branch enforces.
CONCLUSION
Certiorari should be granted.
Respectfully submitted,
Peter Raven-Hansen
Gary M. Osen
Michael Radine
Ari Ungar
OSEN LLC
190 Moore Street
Suite 272
Hackensack, NJ
07601

Thomas C. Goldstein
Counsel of Record
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
James P. Bonner
FLEISCHMAN BONNER &
ROCCO LLP
81 Main Street, Suite 515
White Plains, NY 10601

September 3, 2021

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
Nos. 19-863(L), 19-1159(XAP)
________________________________
August Term, 2019
Argued: May 14, 2020 Decided: April 7, 2021
________________________________
TZVI WEISS, LEIB WEISS, MALKE WEISS,
YITZCHAK WEISS, YERUCHAIM WEISS, ESTHER
DEUTSCH, MOSES STRAUSS, PHILIP STRAUSS,
BLUMA STRAUSS, AHRON STRAUSS, ROISIE
ENGELMAN, JOSEPH STRAUSS, MATANYA
NATHANSEN, CHANA NATHANSEN, MATANYA
AND CHANA NATHANSEN FOR THE ESTATE OF
TEHILLA NATHANSEN, YEHUDIT NATHANSEN,
S.N., A MINOR, HEZEKIEL TOPOROWITCH, PEARL
B. TOPOROWITCH, YEHUDA TOPOROWITCH,
DAVID TOPOROWITCH, SHAINA CHAVA NADEL,
BLUMA ROM, RIVKA POLLACK, EUGENE
GOLDSTEIN, LORRAINE GOLDSTEIN, BARBARA
GOLDSTEIN INGARDIA, RICHARD GOLDSTEIN,
MICHAEL GOLDSTEIN, CHANA FREEDMAN,
MICHAL HONICKMAN FOR THE ESTATE OF
HOWARD GOLDSTEIN, MICHAL HONICKMAN,
DAVID GOLDSTEIN, HARRY LEONARD BEER AS
EXECUTOR OF THE ESTATE OF ALAN BEER,
HARRY LEONARD BEER, ANNA BEER, PHYLLIS
MAISEL, ESTELLE CARROLL, SARRI ANNE
SINGER, JUDITH SINGER, ERIC M. SINGER,

2a
ROBERT SINGER, JULIE AVERBACH FOR THE
ESTATE OF STEVEN AVERBACH, JULIE
AVERBACH, TAMIR AVERBACH, DEVIR
AVERBACH, SEAN AVERBACH, A.A., A MINOR,
MAIDA AVERBACH FOR THE ESTATE OF DAVID
AVERBACH, MAIDA AVERBACH, MICHAEL
AVERBACH, EILEEN SAPADIN, DANIEL
ROZENSTEIN, JULIA ROZENSTEIN SCHON,
ALEXANDER ROZENSTEIN, ESTHER
ROZENSTEIN, JACOB STEINMETZ, DEBORAH
STEINMETZ, JACOB STEINMETZ AND DEBORAH
STEINMETZ FOR THE ESTATE OF AMICHAI
STEINMETZ, NAVA STEINMETZ, ORIT
MAYERSON, NATANEL STEINMETZ, ROBERT L.
COULTER, SR. FOR THE ESTATE OF JANIS RUTH
COULTER, DIANNE COULTER MILLER, ROBERT
L. COULTER, SR., ROBERT L. COULTER, JR.,
LARRY CARTER FOR THE ESTATE OF DIANE
LESLIE CARTER, LARRY CARTER, SHAUN
CHOFFEL, RICHARD BLUTSTEIN AND
KATHERINE BAKER FOR THE ESTATE OF
BENJAMIN BLUTSTEIN, RICHARD BLUTSTEIN,
KATHERINE BAKER, REBEKAH BLUTSTEIN,
NEVENKA GRITZ FOR THE ESTATE OF DAVID
GRITZ, NEVENKA GRITZ, NEVENKA GRITZ FOR
THE ESTATE OF NORMAN GRITZ, JACQUELINE
CHAMBERS AS THE ADMINISTRATOR OF THE
ESTATE OF ESTHER BABLAR, JACQUELINE
CHAMBERS, LEVANA COHEN, ELI COHEN,
SARAH ELYAKIM, YEHUDA AGABABA,
MENACHE AGABABA, YEHEZKEL AGABABA,
GRETA GELER, ILANA EROPA DORFMAN,
REFAEL KITSIS AND TOVA GUTTMAN AS THE
ADMINISTRATOR OF THE ESTATE OF HANNAH
ROGEN, AKIVA ANACHOVICH, JOSHUA

3a
FAUDEM, ZOHAR FATER, BRUCE MAZER, ORLY
ROM, RICHARD COFFEY, GAL GANZMAN,
JUDITH BUCHMAN-ZIV, ORA COHEN, MIRAV
COHEN, DANIEL COHEN, O.C., A MINOR, S.C.,
A MINOR, E.N.C., A MINOR, FAIGA ZVIA
LIEBERMAN, EINAT NOKED FOR THE ESTATE OF
EYAL NOKED, EINAT NOKED, A.N., A MINOR,
AVISHAG NOKED, BARUCH ZURI NOKED,
BINYAMIN ELKANA NOKED, NETA NECHAMA
COHEN, T.N., A MINOR, KAREN GOLDBERG,
CHANA WEISS, ESTHER GOLDBERG, YITZHAK
GOLDBERG, SHOSHANA GOLDBERG, ELIEZER
GOLDBERG, Y.M.G., A MINOR, T.Y.G., A MINOR,
NILLY CHOMAN, TEMIMA SPETNER, JASON
KIRSCHENBAUM, ISABELLE KIRSCHENBAUM,
ISABELLE KIRSCHENBAUM FOR THE ESTATE OF
MARTIN KIRSCHENBAUM, JOSHUA
KIRSCHENBAUM, SHOSHANA BURGETT, DAVID
KIRSCHENBAUM, DANIELLE TEITELBAUM,
NETANEL MILLER, CHAYA MILLER, ARIE
MILLER, ALTEA STEINHERZ, JONATHAN
STEINHERZ, BARUCH YEHUDA ZIV BRILL,
CHAYA BEILI, AND GILA ALUF,
Plaintiffs-Appellants-Cross-Appellees,
v.
NATIONAL WESTMINSTER BANK, PLC.,
Defendant-Appellee-Cross-Appellant.
________________________________
THE ESTATE OF DAVID APPLEBAUM, THE
ESTATE OF NAAVA APPLEBAUM, DEBRA
APPLEBAUM, THE ESTATE OF JACQUELINE
APPLEBAUM, NATAN APPLEBAUM, SHIRA
APPLEBAUM, YITZCHAK APPLEBAUM, SHAYNA

4a
APPLEBAUM, TOVI BELLE APPLEBAUM, GEELA
APPLEBAUM GORDON, CHAYA TZIPORAH
COHEN, PHILIP LITLE, THE ESTATE OF ABIGAIL
LITLE, ELISHUA LITLE, HANNAH LITLE, HEIDI
LITLE, JOSIAH LITLE, NOAH LITLE, ARI
HOROVITZ, BATSHEVA HOROVITZ SADAN,
DAVID HOROVITZ, THE ESTATE OF DEBRA
RUTH HOROVITZ, THE ESTATE OF ELI NATAN
HOROVITZ, THE ESTATE OF LEAH HOROVITZ,
THE ESTATE MOSHE HOROVITZ, NECHAMA
HOROVITZ, SHULAMITE HOROVITZ, TOVI
HOROVITZ, TVI HOROVITZ, URI HOROVITZ,
BERNICE WOLF, BRYAN WOLF, STANLEY WOLF,
FRAN STRAUSS BAXTER, WILLIAM J. BAXTER,
ARIELA FREIRMARK, MENACHEM FREIRMARK,
HADASSAH FREIRMARK, PHYLLIS PAM, RIVKA
REENA PAM, SHOSHANA TITA, EZRA TITA,
EPHRAIM TITA, EPHRIAM TITA FOR THE ESTATE
OF BERTIN TITA, RACHEL POTOLSKI, OVADIA
TOPPOROWITCH, YISRAEL TOPPOROWITCH,
YITZCHAK TOPPOROWITCH, MIRIAM
EHRENFELD, ROSE JOSEPH, LEIBEL REINITZ,
MALVIA REINITZ, MARGALI REINITZ, MENDY
REINITZ, MIRIAM REINITZ, RIVKA REINITZ,
SAMUEL REINITZ, SHMUEL REINITZ, YAKOV
REINITZ, THE ESTATE OF MORDECHAI REINITZ,
THE ESTATE OF YISSOCHER DOV REINITZ,
YITZCHOK REINITZ, RAIZEL SHIMON, LEAH
TAUBER, HELEN WEIDER, AVROHOM D.
RICHTER, BREINA RICHTER, MIRIAM LEAH
RICHTER, MOSHE RICHTER, NECHAMA
RICHTER, SARA MALKA RICHTER, SHLOMO
CHAIM RICHTER, TRANNE RICHTER, YAKOV
YOSEF RICHTER, YECHIEL RICHTER, YEHUDIS
RICHTER, YISROEL RICHTER, YITZCHOK

5a
RICHTER, PERL BRAILOFSKY, MALKY BREUER,
ESTER BUXBAUM, GITTEL COHEN, CHAYA
FREISEL, RACHEL ROSNER, ELIZABETH
SCHWARTZ, JACOB SCHWARTZ, MAX
SCHWARTZ, MICHAEL SCHWARTZ, PHILLIP
SCHWARTZ, ABRAHAM ZARKOWSKY, ARON
ZARKOWSKY, BSHAVA ZARKOWSKY RICHTER,
THE ESTATE OF ELI ZARKOWSKY, EZRIEL
ZARKOWSKY, GITTEL ZARKOWSKY, THE
ESTATE OF GOLDIE ZARKOWSKY, JOSEPH
ZARKOWSKY, MENDEL ZARKOWSKY, MIRIAM
ZARKOWSKY, SHRAGE ZARKOWSKY, TRANY
ZARKOWSKY, YEHUDA ZARKOWSKY, ERIK
SCHECTER, SHLOMO TRATNER, THE ESTATE OF
TIFERET TRATNER, AVERHAM GROSSMAN,
DEVORAH CHECHANOW LEIFER, JOSEPH
LEIFER, BRACHA MILSTEIN, SHIFRA MILLER,
CHAYA ROSENBERG, ABRAHAM WAXLER,
ARTHUR WAXLER, BARUCH WAXLER, CHANA
WAXLER, DINA WAXLER, EZEKIEL WAXLER,
GEDALIA WAXLER, HAGGI WAXLER, NACHUM
WAXLER, OBADIAH WAXLER, YAAKOV WAXLER,
YOEL WAXLER, ZACHARIA WAXLER,
NETHANIEL BLUTH, MOSHE NAIMI, FAYE
CHANA BENJAMINSON, THE ESTATE OF MOSHE
GOTTLIEB, SEYMOUR GOTTLIEB, SHEILA
GOTTLIEB,
Plaintiffs-Appellants-Cross-Appellees,
v.

6a
NATIONAL WESTMINSTER BANK, PLC.,
Defendant-Appellee-Cross-Appellant.*
________________________________
Before: KEARSE, JACOBS, and CABRANES, Circuit
Judges.
________________________________
Joint appeal from judgments entered on March
31, 2019, in the United States District Court for the
Eastern District of New York, Dora L. Irizarry, thenChief Judge, (A) dismissing the operative amended
complaints in these two actions that seek to hold defendant bank liable under the Antiterrorism Act of
1990 (“ATA”), see 18 U.S.C. §§ 2333(a), 2331(1), and
2339B, for providing banking services to a charitable
organization with alleged ties to Hamas, a designated
Foreign Terrorist Organization (“FTO”) alleged to
have committed a series of terrorist attacks in Israel
in 2001-2004; and (B) denying leave to amend the complaints to allege aiding-and-abetting claims under the
Justice Against Sponsors of Terrorism Act (“JASTA”),
see 18 U.S.C. § 2333(d). The district court granted
summary judgment dismissing the ATA claims in light
of this Court’s decision in Linde v. Arab Bank, PLC,
882 F.3d 314 (2d Cir. 2018), on the ground that plaintiffs failed to adduce sufficient evidence that the bank
itself committed an act of international terrorism
within the meaning of §§ 2333(a) and 2331(1); it denied leave to amend on the ground that amendment
asserting JASTA claims would be futile because plaintiffs did not point to evidence sufficient to support an
*

The Clerk of the Court is directed to amend the official caption to conform with the above captions of the two cases, which
were consolidated for pretrial proceedings in the district court.

7a
inference that the bank had the requisite awareness
that it was aiding and abetting the violent or life-endangering activities of the FTO Hamas. See Weiss v.
National Westminster Bank PLC, 381 F.Supp.3d 223
(2019). On appeal, plaintiffs contend principally that
the district court misapplied Linde and imposed unduly stringent standards (a) in requiring that the material support provided by the bank be traceable to the
attacks on plaintiffs in order to hold the bank liable as
a principal for the attacks, and (b) in concluding that
plaintiffs’ evidence of the bank’s violation of § 2339B
was insufficient to permit an inference that the bank
was generally aware that it was playing a role in terrorism by Hamas, as required to make the bank liable
as an aider and abetter.
Cross-appeal by defendant requesting, in the
event the judgments are not to be affirmed, that we
reverse the district court’s denial of defendant’s motion to dismiss the actions for lack of personal jurisdiction.
Concluding that the district court properly assessed the record and applied the principles articulated in Linde, we affirm the judgments. Defendant’s
conditional cross-appeal is dismissed as moot.
Judgment affirmed; cross-appeal dismissed.
*

*

*

KEARSE, Circuit Judge.
Plaintiffs Tzvi Weiss, et al., United States citizens
who were, or represent, victims of more than a dozen
alleged Hamas terrorist attacks in Israel in 20012004, appeal from judgments entered on March 31,
2019, in the United States District Court for the Eastern District of New York, Dora L. Irizarry, Chief

8a
Judge, (A) dismissing their amended complaints in
these two actions seeking to recover damages under
the Antiterrorism Act of 1990 (“ATA”), see 18 U.S.C.
§§ 2333(a), 2331(1), and 2339B, against defendant National Westminster Bank PLC (“NatWest” or the
“Bank”) for providing banking services to a charitable
organization that allegedly had ties to Hamas; and (B)
denying leave to amend the complaints to allege aiding-and-abetting claims against the Bank under the
Justice Against Sponsors of Terrorism Act (“JASTA”),
see id. § 2333(d). The district court, in light of this
Court’s decision in Linde v. Arab Bank, PLC, 882 F.3d
314 (2d Cir. 2018) (“Linde”), granted summary judgment dismissing plaintiffs’ claims under §§ 2333(a),
2331(1), and 2339B on the ground that plaintiffs failed
to adduce sufficient evidence to hold the Bank liable
as a principal for acts of international terrorism; the
court denied plaintiffs’ motion for leave to amend the
complaints, concluding that amendment asserting
JASTA aiding-and-abetting claims would be futile because plaintiffs did not point to evidence sufficient to
support an inference that NatWest had the requisite
knowledge—i.e., at least a general awareness—that it
played a role in Hamas’s alleged violent or life-endangering activities. On appeal, plaintiffs contend principally that the district court misapplied Linde and (a)
unduly credited evidence proffered by NatWest and
imposed unduly stringent standards in requiring that
the Bank’s provision of banking services be traceable
to specific terrorist attacks in order to make the Bank
liable for the attacks as a principal, and (b) erred in
concluding that plaintiffs’ evidence of NatWest’s violation of § 2339B was insufficient to permit an inference
that the Bank was generally aware that it was playing
a role in terrorism.

9a
NatWest, while urging affirmance of the dismissals, cross-appeals to contend that if we do not affirm,
we should reverse the district court’s denial of NatWest’s motion to dismiss these actions for lack of personal jurisdiction.
For the reasons that follow, we conclude that summary judgment was properly granted and that leave
to amend the complaints was properly denied. We thus
affirm the judgments, and we dismiss the cross-appeal
as moot.
I. BACKGROUND
The first of these two actions was commenced in
2005 under the ATA by the Weiss plaintiffs against
NatWest (the “Weiss action”) following numerous terrorist attacks in Israel between March 27, 2002, and
September 24, 2004. The Applebaum plaintiffs commenced their ATA action against NatWest in 2007 (the
“Applebaum action”), and the two cases were soon consolidated for pretrial proceedings.
NatWest is a financial institution incorporated
and headquartered in the United Kingdom. From at
least 1994 to 2007, NatWest provided banking services
to the Palestine Relief & Development Fund, commonly known as “Interpal.” Interpal is a London-based
nonprofit entity founded in 1994 and registered with
the United Kingdom’s Charity Commission for England & Wales (“UK Regulatory Authorities”).
Hamas has been officially designated a Foreign
Terrorist Organization (“FTO”) by the United States
since 1997. In August 2003, the United States officially designated Interpal a Specially Designated
Global Terrorist (“SDGT”) based on reports that it was
operated as a major fundraiser for Hamas. Plaintiffs

10a
contend that NatWest provided material support to
Interpal between 1996 and 2003 by processing at least
457 wire transfers of funds from Interpal to 13 charities that NatWest allegedly knew, or willfully ignored,
were controlled by, or were alter egos of, Hamas (the
“13 Charities”). “It is undisputed that each of the attacks by which Plaintiffs were injured was ‘an act of
international terrorism’” within the meaning of 18
U.S.C. §§ 2333(a) and 2331(1). (NatWest brief on appeal at 4.)
A. The Course of This Litigation
The procedural history of the present actions has
been tracked through several opinions of the district
court and this Court, including the following, familiarity with which is assumed. See Weiss v. National Westminster Bank PLC, 453 F.Supp.2d 609 (E.D.N.Y. 2006)
(“Weiss I”); Weiss v. National Westminster Bank PLC,
936 F.Supp.2d 100 (E.D.N.Y. 2013) (“Weiss II”), vacated and remanded by Weiss v. National Westminster
Bank PLC, 768 F.3d 202 (2d Cir. 2014) (“Weiss III”);
Weiss v. National Westminster Bank PLC, 278
F.Supp.3d 636 (E.D.N.Y. 2017) (“Weiss IV”); and Weiss
v. National Westminster Bank PLC, 381 F.Supp.3d
223 (E.D.N.Y. 2019) (“Weiss V”).
The original complaint in the Weiss action alleged
that NatWest aided and abetted the murder or attempted murder of, or physical violence to, United
States citizens in violation of 18 U.S.C. §§ 2332(a),
2332(b), 2332(c), and 2333(a), and that as a principal
it committed acts of international terrorism in violation of 18 U.S.C. §§ 2339B(a)(1) and 2333(a). In 2006,
the aiding-and-abetting causes of action were dismissed, without prejudice, for failure to state a claim.

11a
See Weiss I, 453 F.Supp.2d at 622. The plaintiffs in the
Applebaum action, whose original complaint also included aiding-and-abetting claims, thereafter agreed
to the dismissal of those claims without prejudice.
In 2013, the district court granted a motion by
NatWest for summary judgment (“First Summary
Judgment Motion”) dismissing the actions. The court
found that plaintiffs could not show that NatWest
acted with the requisite scienter to support their
claims. See Weiss II, 936 F.Supp.2d at 114. In 2014,
this Court vacated the judgments, concluding that
plaintiffs had proffered evidence “sufficient to create a
triable issue of fact as to whether NatWest’s
knowledge and behavior in response satisfied the statutory scienter requirements.” Weiss III, 768 F.3d at
212. We remanded for further proceedings, including
consideration of other grounds asserted by NatWest in
its motion for summary judgment.
In June 2016, plaintiffs filed their present complaints—an amended Applebaum action complaint
and the sixth amended Weiss action complaint—adding claims arising from three additional attacks. NatWest promptly moved for summary judgment dismissing the new claims and renewed its motion for summary judgment on grounds the district court had not
reached in Weiss II. In September 2017, in Weiss IV,
the district court granted the motion in part, but found
there were triable issues of fact with respect to 16 of
the 18 alleged attacks. See Weiss IV, 278 F.Supp.3d at
650.
In September 2016, in the interim between plaintiffs’ filing of the current complaints and the district
court’s decision in Weiss IV, the ATA was amended by
the enactment of JASTA to provide that a civil ATA

12a
action under § 2333(a) may be maintained on theories
of aiding and abetting or conspiracy. See 18 U.S.C.
§ 2333(d). Congress made JASTA retroactively applicable to actions such as these (see Part II.B. below).
A few months after the decision in Weiss IV, this
Court decided Linde, an appeal from an ATA judgment
in favor of the Linde plaintiffs after a jury trial. The
jury had been instructed that if it found that the defendant, Arab Bank PLC (“Arab Bank”), provided material support to Hamas in violation of § 2339B—
which makes it a crime to knowingly provide, or attempt or conspire to provide, material support or resources to an FTO—that finding was sufficient to establish Arab Bank’s own commission of an act of international terrorism under § 2333(a). As discussed further in Part II.A. below, we vacated the judgment, concluding that that instruction was erroneous because a
bank’s provision of material support to a known terrorist organization is not, by itself, sufficient to establish the bank’s liability under the ATA. See Linde, 882
F.3d at 326. Rather, in order to satisfy the ATA’s requirements for civil liability as a principal, the “defendant’s act must,” inter alia, “also involve violence
or endanger human life. See [18 U.S.C.] § 2331(1)(A).
Further, the act must appear to be intended to intimidate or coerce a civilian population or to influence or
affect a government. See id. § 2331(1)(B).” Linde, 882
F.3d at 326 (emphasis in original).
In addition, Linde noted that in order to hold a defendant liable for an ATA violation on a JASTA theory
of aiding and abetting, a plaintiff must show that the
entity the defendant aided—i.e., the principal—performed a wrongful act that caused an injury, that the
defendant must have been “generally aware of his role

13a
as part of an overall illegal or tortious activity at the
time that he provide[d] the assistance,” and that “the
defendant must [have] knowingly and substantially
assist[ed] the principal violation.” Id. at 329 (internal
quotation marks omitted).
B. NatWest’s Renewed Summary Judgment Motion
Based on Linde
In the wake of Linde, NatWest sought and received permission to file another renewed motion for
summary judgment (“2018 Summary Judgment Motion”). NatWest contended that plaintiffs could not adduce evidence sufficient to permit an inference that its
financial services of transmitting Interpal moneys to
the 13 Charities involved violence, or endangered human life, or appeared to be intended to intimidate or
coerce a civilian population or to influence or affect a
government.
In support of its 2018 Summary Judgment Motion, NatWest cited, inter alia, facts that were undisputed as revealed in statements that had been submitted by the parties pursuant to Local Rule 56.1 (“Rule
56.1 Statement” or “Rule 56.1 Response”) in connection with the Bank’s First Summary Judgment Motion; and it submitted a Rule 56.1 Supplemental Statement as to additional facts it asserted were undisputed. NatWest’s Rule 56.1 Supplemental Statement
principally quoted Interpal documents and quoted declarations or deposition testimony of the Bank’s managerial employees as to the policies and practices of
NatWest and their institutional knowledge of the operations and affairs of Interpal. It included the following assertions.

14a
In 1998, NatWest’s Relationship Manager for the
accounts of Interpal “completed a customer appraisal
form for Interpal describing it as an organization that
‘[p]rovides charitable relief’ in Palestine and Lebanon,
usually involving ‘food or allowances for children’s education.’ The form further noted [Interpal’s statement]
that the ‘[t]wo major times of the year for receipts are
Ramadan . . . and at Easter time.’” (NatWest Rule 56.1
Supplemental Statement ¶ 1.) Plaintiffs’ response to
this was as follows:
RESPONSE: Admit the quoted statements
were made, but note that the Second Circuit
has expressly held that:
The requirement to “appear to be intended . . .” does not depend on the actor’s
beliefs, but imposes on the actor an objective standard to recognize the apparent
intentions of actions. Cf. Boim v. Holy
Land Found. for Relief and Dev., 549 F.3d
685, 693-94 (7th Cir. 2008) (en banc) (Posner, J.) (describing the appearance-of-intention requirement “not [as] a state-ofmind requirement” and stating that “it is
a matter of external appearance rather
than subjective intent . . . .”).
Weiss v. Nat’l Westminster Bank PLC, 768
F.3d 202, 207 (2d Cir. 2014). Therefore, the
customer appraisal form for Interpal is irrelevant to the subject of the pending motion.
The “external appearance” relevant to 18
U.S.C. § 2331 is not the “external appearance” presented by a terrorist group or its funders. If that were the case, Hamas’s description of its terror campaign as “legitimate

15a
resistance to occupation” would itself nullify
the ATA. Instead, the question for the jury is
whether the Defendant’s conduct presents the
“external appearance.” That is to be determined by assessing the Bank’s culpability in
contributing to the acts of terrorism at issue.
(Plaintiffs’ Response to Rule 56.1 Supplemental Statement ¶ 1) (Plaintiffs’ “External Appearance Caveat”).
NatWest’s proffer of supplemental facts it believed to be undisputed also included the following:
NatWest’s internal inquiries in 2002 with regard to
“‘details of the most recent due diligence undertaken
in respect of the Bank’s knowledge of dealings in [Interpal’s] US$ account,’” and Interpal’s characterizations of its charitable operations (NatWest Rule 56.1
Supplemental Statement ¶¶ 2-3); a 2003 record from
UK Regulatory Authorities—which NatWest maintained in its files—listing among Interpal’s objectives
“the provision of aid and assistance, support[,] guidance[,] and comfort to poor[,] needy[,] sick children and
widows” (id. ¶ 4); and Interpal annual reports for
1999-2003 (also maintained in NatWest’s files) detailing Interpal’s spending allocations—a planned 5% for
fundraising, 5% for administration, and 10% for future
distribution, and actual yearly expenditures of 87.3%
to 94.7% directly on charitable projects (id. ¶ 5). NatWest also asserted that “[b]etween November 8, 1996
and September 25, 2003, at the request of its customer
Interpal, NatWest processed 457 wire transfers (the
‘Relevant Transfers’) to the 13 charities that plaintiffs
contend are alter egos of or controlled by Hamas,” and
that the “stated purposes for these transfers included”
programs for orphans, a maternity clinic, student aid,
emergency medical aid, food parcels, winter clothes,

16a
and other community projects (id. ¶ 7); that Interpal
on its website stated that it felt an obligation “‘to ensure that the funds’ it received were ‘used for charitable purposes as specified,’” “stated that it allowed
transfers only to ‘bona fide organisations,’” and stated
that it insisted on—and sent delegations to verify—the
charities’ adherence to “‘the proper charitable use of
funds as specified’” (id. ¶¶ 9-12); and that “[n]one of
the Relevant Transfers was identified as being for any
violent or terroristic purpose” (id. ¶ 8).
As to each of these NatWest Rule 56.1 Supplemental Statements other than ¶¶ 7 and 8, plaintiffs’
response was to state that they “[a]dmit[ted]” that the
statement described was made by the speaker cited or
was contained in the document cited, but to incorporate by reference their (above quoted) External Appearance Caveat. Plaintiffs gave a qualified response
to ¶ 7 by admitting that there were “at least” 457 wire
transfers, and by asserting that the transfers were “for
Hamas” and totaled approximately $12,000,000; and
as to ¶ 8, plaintiffs “[a]dmit[ted] that Interpal did not
identify any of the Relevant Transfers as being for any
violent or terroristic purpose.” (Plaintiffs’ Rule 56.1
Response to Supplemental Statement ¶¶ 7, 8 (emphasis in Response).)
NatWest also quoted testimony and declarations
from the managers of its customer-relations, fraudprevention, and anti-money-laundering groups stating
that the Bank was aware of Interpal’s “alleged” links
to Hamas (NatWest Rule 56.1 Supplemental Statement ¶ 16 (emphasis in Statement)), but that the Bank
had no tolerance for the funding of terrorism, did not
want to be related in any way to such activities, and
would have taken quick action to terminate its

17a
relationship with Interpal “if the bank believed that
Interpal was funding terrorism” (id. ¶ 15; see, e.g., id.
¶¶ 14-19). Plaintiffs’ response to each of these NatWest assertions was to “[a]dmit” that each cited
speaker had so testified, but to add, by incorporation,
their External Appearance Caveat.
In addition, NatWest cited facts that plaintiffs
had conceded in responding to the Bank’s First Summary Judgment Motion (made when the then-operative Weiss action complaint alleged 15 terrorist attacks), including the following.
•

Plaintiffs “admit[ted] they ‘do not contend that
any of the funds Interpal transferred from the accounts it maintained with NatWest to HAMAS
was used specifically to finance any of the terrorist attacks that injured Plaintiffs and/or killed
their loved ones.’” (First Summary Judgment Rule
56.1 Statement and Response ¶ 248 (quoting
Plaintiffs’ response to an interrogatory));

•

Plaintiffs’ expert Dr. Levitt “offers no evidence
that any funds transferred by Interpal through its
NatWest accounts was used to perpetrate the 15
attacks” (id. ¶ 253);

•

Nor did Dr. Levitt “opine that any of the 12 Charities [that he addressed] participated in” or “recruited” “any of the perpetrators of the 15 attacks”; he did not offer any opinion as to what individuals or entities planned and executed the attacks at issue (id. ¶¶ 254, 261);

•

Plaintiffs’ expert “Spitzen does not opine that any
of the 13 Charities requested that someone carry
out any of the 15 attacks” (id. ¶ 272).

18a
C. The District Court’s Decision in Weiss V
The district court concluded, in light of the decision in Linde and the undisputed facts in the present
actions, that the evidence adduced by plaintiffs was insufficient to establish all of the elements necessary to
hold NatWest liable under the ATA either as a principal or as an aider and abetter.
1.

Liability as a Principal

First, the district court addressed plaintiffs’
claims seeking to hold NatWest liable as a principal:
Plaintiffs bring their claims under 18
U.S.C. § 2339B as the predicate criminal violation to satisfy the . . . require[ment] that the
[defendant’s] act violate federal criminal law.
Section 2339B makes it a felony to “knowingly
provide[] material support or resources to a
[F]oreign [T]errorist [O]rganization,” or attempting or conspiring to do so. 18 U.S.C.
§ 2339B; See also, Weiss [III], 768 F.3d at 207.
Under § 2339B, “a defendant may be liable for
civil remedies under § 2333(a) for providing
material support to an organization that solicits funds for an FTO,” even if that support
is not provided directly to the FTO itself.
Weiss [III], 768 F.3d at 209.
Weiss V, 381 F.Supp.3d at 229. The court noted, however, that
[i]n Linde, the Second Circuit rejected the
argument that providing material support to
a known FTO in violation of § 2339B invariably constitutes a violent act or act dangerous
to human life. Linde, 882 F.3d at 326. (“[T]he
provision of material support to a terrorist

19a
organization does not invariably equate to an
act of international terrorism. Specifically, . . .
providing financial services to a known terrorist organization may afford material support to the organization even if the services do
not involve violence or endanger life and do
not manifest the apparent intent required by
§ 2331(1)(B).”). The Second Circuit explained
that, “conduct that violates a material support statute can also satisfy the § 2331(1) definition requirements of international terrorism in some circumstances.” Id. (emphasis
added). However, the Second Circuit found
that it was “incorrect [for the trial court in
Linde] to instruct the jury that a finding that
Arab Bank provided material support to Hamas in violation of § 2339(B) was alone sufficient to prove the bank’s own commission of
an act of international terrorism under
§ 2333(a).” Id. Instead, the jury “needed to be
instructed on and to find proved all of
§ 2331(1)’s definitional requirements for an
act of international terrorism, including those
pertaining to violence or danger and the apparent intent to intimidate or influence.” Id.
Weiss V, 381 F.Supp.3d at 229 (emphases ours, except
as indicated); see id. at 230 (“Thus, the Second Circuit
determined that the provision of material support to a
terrorist organization alone is not enough to constitute
international terrorism.”).
The district court noted that in Weiss II, it had
ruled on only one of the several grounds argued by
NatWest for summary judgment. However, it then explained that:

20a
the ATA sets forth four separate requirements for an act to constitute international
terrorism. The act at issue must: (1) involve
violence or endanger human life; (2) violate
federal or state criminal law if committed in
the United States; (3) appear intended to intimidate or coerce civilian population, influence government policy, or affect government
conduct by specified means; and (4) occur primarily outside the United States or transcend
national boundaries. See, Licci [ex rel. Licci v.
Lebanese Canadian Bank, SAL], 673 F.3d
[50,] 68 [(2d Cir. 2012)].
Weiss V, 381 F.Supp.3d at 231 (emphases added). Taking into account that in order to prevail, plaintiffs were
required to establish all four of those elements, the
court found merit in NatWest’s contention that summary judgment dismissing the complaints was required because plaintiffs had not adduced sufficient
evidence to prove the first and third elements, i.e., to
permit an inference that NatWest’s conduct involved
violence or danger to human life or to permit an inference that its conduct appeared to be intended to intimidate or coerce a civilian population, influence government policy, or affect government conduct by statutorily prohibited means.
The court noted that “[i]n Linde, the evidence
demonstrated that defendant Arab Bank processed
bank transfers that ‘were explicitly identified as payments for suicide bombings,’” id. at 235-36 (quoting
Linde, 882 F.3d at 321 (emphasis ours)). “Here,” however, the court found that “Plaintiffs provide no such
evidence,” Weiss V, 381 F.Supp.3d at 236—i.e., “[t]here
is no evidence that the transfers Defendant processed

21a
on behalf of the 13 charities were used explicitly for
purposes similar to those describe[d] in Linde,” id. at
234. Rather, the court noted that “Plaintiffs’ experts
. . . admitted that the 13 Charities performed charitable work,” id. at 232 (citing First Summary Judgment
Rule 56.1 Statement and Response), and that
Plaintiffs concede that there is no evidence
that any of Interpal’s transfers to the 13 Charities processed by Defendant were identified as
being for any specific violent or terroristic purpose. . . . “Plaintiffs admit they do not contend
that any of the funds Interpal transferred
from the accounts it maintained with NatWest to Hamas was used specifically to finance any of the terrorist attacks that injured
Plaintiffs and/or killed their loved ones.” . . .
“[Plaintiffs a]dmit that Interpal did not identify any of the Relevant Transfers as being for
any violent or terroristic purpose.”
Weiss V, 381 F.Supp.3d at 232 (quoting First Summary Judgment Rule 56.1 Response ¶¶ 248 and 8 (emphases ours)).
The court thus concluded that NatWest’s “motion
for summary judgment as to the violent acts and acts
dangerous to human life prong of § 2331(1) is granted
because Plaintiffs fail to present evidence sufficient to
create a jury question as to whether Defendant’s activities involved violent acts or acts dangerous to human
life.” Weiss V, 381 F.Supp.3d at 235; see id. at 233 (“a
reasonable juror cannot conclude that Defendant’s alleged conduct involves violence or endangers human
life”).
In addition, given that plaintiffs “adduce[d] no evidence” from which to infer that NatWest “had the

22a
apparent intent to intimidate or coerce a civilian population, influence the policy of a government by intimidation or coercion, or affect the conduct of a government by mass destruction, assassination, or kidnapping,” id. at 236, the court concluded that NatWest’s
motion for summary judgment should be granted for
lack of a triable issue on the appearance-of-intent-tointimidate-or-coerce element of plaintiffs’ ATA claim
against the Bank as a principal.
2.

Plaintiffs’ Attempt To Raise Claims of Aiding
and Abetting

With respect to the matter of secondary liability
under the ATA, the district court faced the preliminary question of whether such claims were procedurally foreclosed. The original claims of aiding and abetting, based on common-law principles, had been dismissed in Weiss I in 2006 for failure to state a claim.
See 453 F.Supp.2d at 622. In opposition to NatWest’s
2018 Summary Judgment Motion, plaintiffs argued
that there was sufficient evidence to warrant a trial as
to whether NatWest aided and abetted the terrorist
attacks, and they urged the court either to allow them
to further amend their complaints to state such claims
under JASTA or to construe the action as it stood to
include such claims because they were advocated by
plaintiffs in the parties’ July 2016 joint pretrial order
(“Pretrial Order”). The court rejected plaintiffs’ contention that they could pursue aiding-and-abetting
claims merely on the basis of their mention in the Pretrial Order. See Weiss V, 381 F.Supp.3d at 237.
However, the court also rejected NatWest’s contention that Weiss I had precluded any future aidingand-abetting claims. The court determined that the

23a
mere passage of time should not preclude plaintiffs’
proposed amendment (a) because plaintiffs could not
have amended their pleading to assert JASTA aidingand-abetting claims prior to the filing of the Pretrial
Order as that order was entered months before JASTA
was enacted, and (b) because Congress made JASTA
retroactively applicable in pending actions such as
those here, with respect to an organization that had
been designated an FTO at the time it committed,
planned, or authorized a terrorist attack. Id. at 238.
Ultimately, however, the district court decided to
deny leave to amend the complaints to assert aidingand-abetting claims under JASTA, holding that such
an amendment would be futile. The court noted that
while the mens rea element of a § 2339B claim of
providing material support can be satisfied by proof of
the defendant’s “knowledge of the organization’s connection to terrorism,” a JASTA claim of aiding and
abetting has a different mens rea element, requiring
proof that the defendant be “‘aware’ that, by assisting
the principal, it is itself assuming a ‘role’ in terrorist
activities.’” Id. at 238-39 (quoting Linde, 882 F.3d at
329 (other internal quotation marks omitted)). Thus,
while Weiss III established that there was sufficient
evidence in the present case to create a triable issue as
to NatWest’s mens rea on the “material support”
claim, the addition of an aiding-and-abetting claim
would be futile because plaintiffs had adduced
no evidence that creates a jury question as to
whether Defendant generally was aware that
it played a role in any of Hamas’s or even Interpal’s . . . violent or life-endangering activities. Evidence that Defendant knowingly provided banking services to a terrorist

24a
organization, without more, is insufficient to
satisfy JASTA’s scienter requirement.
Id. at 239.
Accordingly, final judgments were entered in the
Weiss action and the Applebaum action, dismissing
the complaints in their entirety. A joint notice of appeal was filed in the two actions, challenging Weiss V’s
grant of summary judgment and denial of leave to
amend the complaints.
II. DISCUSSION
On appeal, plaintiffs contend principally that the
district court (1) in dismissing their claims to hold
NatWest liable as a principal, erred by crediting Interpal’s “ostensibly charitable purposes” (Plaintiffs’
brief on appeal at 43 (internal quotation marks omitted)) and requiring evidence tracing the Bank’s transactions for Interpal to specific terrorist attacks; and (2)
in denying their motion to amend the complaints to
assert claims against NatWest as an aider and abetter, erred by applying an erroneous standard in assessing the evidence proffered as to the Bank’s general
awareness that its services to Interpal were aiding and
abetting terrorism by Hamas.
NatWest has cross-appealed to request, in the
event the judgments are not to be affirmed, that we
reverse the district court’s denial of NatWest’s motion
to dismiss the actions for lack of personal jurisdiction.
But it urges that “[g]iven the number of years during
which these cases have already been pending, this
Court can and should ‘assume jurisdiction’ and affirm
on the . . . merits . . . as a means of preventing waste
of judicial resources.” (NatWest brief on appeal at 62
(other internal quotation marks omitted).)

25a
When a cross-appeal is conditional, asking that it
be “reached only if and when the appellate court decides to reverse or modify the main judgment,” and
“the direct appeal fails and the judgment is affirmed,
the usual procedure is to dismiss the cross-appeal as
moot.” Trust for Certificate Holders of Merrill Lynch
Mortgage Investors, Inc. Mortgage Pass-Through Certificates, Series 1999-C1, ex rel. Orix Capital Markets,
LLC v. Love Funding Corp., 496 F.3d 171, 174 (2d Cir.
2007) (internal quotation marks omitted). We follow
that procedure here.
For the reasons that follow, viewing the record in
the light most favorable to plaintiffs as the non-moving parties, see, e.g., Longman v. Wachovia Bank, N.A.,
702 F.3d 148, 150 (2d Cir. 2012), we conclude that the
district court did not err in granting summary judgment or in denying plaintiffs’ motion for leave to
amend. Accordingly, we affirm the judgments; and we
dismiss the cross-appeal as moot.
A. Liability under the ATA as a Principal: 18 U.S.C.
§ 2333(a)
The ATA (or the “Act”) authorizes a private right
of action by providing, inter alia, that
[a]ny national of the United States injured in
his or her person, property, or business by
reason of an act of international terrorism, or
his or her estate, survivors, or heirs, may sue
therefor in any appropriate district court of
the United States and shall recover threefold
the damages he or she sustains and the cost
of the suit, including attorney’s fees.
18 U.S.C. § 2333(a) (emphases added). The Act defines
acts of “international terrorism” as follows:

26a
As used in this chapter—
(1) the term “international terrorism” means
activities that—
(A) involve violent acts or acts dangerous to
human life that are a violation of the criminal
laws of the United States or of any State, or
that would be a criminal violation if committed within the jurisdiction of the United
States or of any State;
(B) appear to be intended—
(i) to intimidate or coerce a civilian population;
(ii) to influence the policy of a government by intimidation or coercion; or
(iii) to affect the conduct of a government by mass destruction, assassination,
or kidnapping; and
(C) occur primarily outside the territorial
jurisdiction of the United States, or transcend
national boundaries in terms of the means by
which they are accomplished, the persons
they appear intended to intimidate or coerce,
or the locale in which their perpetrators operate or seek asylum . . . .
18 U.S.C. § 2331(1) (emphases added).
The Act also defines as crimes the homicide of a
United States national who is outside the United
States, an attempt or conspiracy from outside the
United States to kill a United States national, and
other “physical violence” by a person outside the
United States that either did or was intended to cause
serious bodily injury to a United States national. See
18 U.S.C. §§ 2332(a), (b), and (c). However, it provides

27a
that there is to be no prosecution under § 2332 without
a proper certification that the “offense was intended to
coerce, intimidate, or retaliate against a government
or a civilian population.” Id. § 2332(d) (emphasis
added).
The Act further makes it a crime to provide, or attempt or conspire to provide, “material support or resources to a foreign terrorist organization,” punishable
by a fine and/or up to 20 years’ imprisonment, or up to
life imprisonment if a death has resulted. 18 U.S.C.
§ 2339B(a)(1) (emphasis added). The term “material
support or resources” is defined to include “financial
services.” Id. §§ 2339B(g)(4) and 2339A(b)(1).
Section 2339B(a)(1) also provides, inter alia, that
“to violate” its prohibition against providing “material
support or resources to” an FTO, “a person must have
knowledge that the organization is a designated terrorist organization (as defined in subsection (g)(6)), [or]
that the organization has engaged or engages in terrorist activity (as defined in section 212(a)(3)(B) of the Immigration
and
Nationality
Act[,
8
U.S.C.
§ 1182(a)(3)(B)]).” 18 U.S.C. § 2339B(a)(1) (emphases
added). The definitions expressly referred to in
§ 2339B(a)(1) themselves import additional definitions from other statutes. See id. § 2339B(g)(6) (“the
term ‘terrorist organization’ means an organization
designated as a terrorist organization under section
219 of the Immigration and Nationality Act[, 8 U.S.C.
§ 1189]”); 8 U.S.C. § 1189(a) (such designation is authorized with respect to “a foreign organization” that
“engages in terrorist activity (as defined in [8 U.S.C. §]
1182(a)(3)(B)[)] . . . or terrorism (as defined in section
2656f(d)(2) of Title 22), or retains the capability and
intent to engage in terrorist activity or terrorism)” and

28a
whose “terrorist activity or terrorism . . . threatens the
security of” the United States or its nationals); see also
8 U.S.C. § 1182(a)(3)(B)(iii) (defining “terrorist activity” to include criminal activity that “involves” “threatening to kill” a person in order to coerce a government
to do or refrain from doing an act); 22 U.S.C.
§ 2656f(d)(2) (defining “terrorism” to “mean[] premeditated, politically motivated violence perpetrated
against noncombatant targets by subnational groups
or clandestine agents”).
Thus, as we have noted, if a defendant “provid[es]
material support to an organization that solicits funds
for an FTO” in violation of § 2339B, the defendant,
“through this complex series of statutory incorporation—18 U.S.C. § 2333(a) to 18 U.S.C. § 2331(1) to 18
U.S.C. § 2339B(a)(1) to 8 U.S.C. § 1182(a)(3)(B)— . . .
may be liable for civil remedies under § 2333(a).” Weiss
III, 768 F.3d at 209. Section § 2339B, while making
the provision of material support or resources to an
FTO a crime, does not itself provide a private right of
action; the civil action is authorized by § 2333(a).
As Linde held, and as shown in the statutory language quoted above, § 2333 allows a civil action by a
person injured “by reason of an act of international terrorism,” 28 U.S.C. § 2333(a); that section specifies
what elements must be proven in order for the private
plaintiff to recover; and the definitions provided,
whether spelled out in ATA § 2331 or imported from
other statutes, inform the nature of those elements.
See Linde, 882 F.3d at 319-20. Thus, given that the
ATA allows a United States national to recover for injury suffered “by reason of an act of international terrorism,” 18 U.S.C. § 2333(a), the definition of international terrorism in § 2331(1) means that such a

29a
plaintiff must prove that the defendant’s act not only
violated United States law or a State law (or would be
a criminal violation if committed within the United
States or a State), but that the act “also involve[d] violence or endanger[ed] human life,” and “[f]urther . . .
appear[ed] to be intended to intimidate or coerce a civilian population or to influence or affect a government,” Linde, 882 F.3d at 326 (citing 18 U.S.C.
§§ 2331(1)(A) and (1)(B)) (first emphasis in original;
second emphasis added).
Whether a defendant “appear[ed]” to have intended its activities to intimidate or coerce is not a
question of the defendant’s subjective intent but rather a question of what its intent objectively appeared
to be. See, e.g., Weiss III, 768 F.3d at 207 n.6. Assessment of what an observer could reasonably find “appear[ed] to be intended” depends on whether the consequences of the defendant’s activities were reasonably foreseeable, see, e.g., Boim v. Holy Land Foundation for Relief & Development, 549 F.3d 685, 693-94
(7th Cir. 2008), and reasonable foreseeability depends
largely on what the defendant knew, see id. (“A knowing donor” to an FTO—“that is a donor who knew” the
terroristic “aims and activities” directed at a particular territory—“would know . . . that donations to” the
entity would enable it to “kill more people in” the territory. “And given such foreseeable consequences, such
donations would appear to be intended . . . to intimidate or coerce a civilian population or to affect the conduct of a government by . . . assassination, as required
by section 2331(1) in order to distinguish terrorist acts
from other violent crimes.” (internal quotation marks
omitted) (emphases ours)).

30a
We see no merit in plaintiffs’ contention that the
district court found the evidence as to whether NatWest appeared to intend intimidation or coercion insufficient by “crediting Interpal’s ostensibly charitable
purposes” (Plaintiffs’ brief on appeal at 38 (internal
quotation marks omitted)). The court did not find that
Interpal in fact had only charitable purposes; rather,
it observed that plaintiffs’ own experts said the 13
charities performed charitable work, and that plaintiffs admitted they had no evidence that those charities had funded terrorist attacks or recruited persons
to carry out such attacks. It also noted plaintiffs’ admission that Interpal had not identified any of the
moneys it instructed NatWest to transfer to the charities as being for any violent or terroristic purpose. The
absence of evidence to show that the charities themselves were engaged in terrorism—or to show that the
transfers were designated for that purpose by Interpal—was material to an assessment of what a rational juror could find NatWest knew. Given that
dearth of evidence, the court concluded that a rational
juror could not find that NatWest’s processing of Interpal’s money transfers to the charities objectively exhibited the appearance that NatWest intended to intimidate or coerce a population or a government.
Plaintiffs also contend that the district court misapplied the holdings of Linde, arguing that “Linde held
that where evidence establishes a knowing violation of
§ 2339B that proximately causes injuries in terrorist
attacks, § 2331(1)’s elements must be submitted to the
jury.” (Plaintiffs’ brief on appeal at 39 (emphasis
added).) We disagree with plaintiffs’ characterization
of Linde, in part because it disregards the procedural
posture in which the case arrived in this Court and the

31a
substantive record that had been developed in the district court. The procedural issue before Linde was not,
as in the present case, whether summary judgment
had been properly granted against the plaintiffs for
lack of proof as to certain § 2331(1) elements (on which
they had the burden of proof), but rather whether an
instruction that resulted in judgment in favor of the
plaintiffs had improperly removed consideration of
some of those elements from the jury. The jury had
been instructed that if it found “that Arab Bank provided material support to Hamas in violation of
§ 2339B,” that finding “was alone sufficient to prove
the bank’s own commission of an act of international
terrorism under 2333(a)”; that instruction was error,
relieving the plaintiffs of their burden of proving one
of the elements of their claim. Linde, 882 F.3d at 326.
And while Linde did indeed say that questions as
to the satisfaction of the § 2333(a) elements were to be
resolved by the jury, we in no way intimated that the
existence of a genuine issue as to one element—
whether § 2339B was violated—requires a trial in a
case where there is not sufficient evidence as to another element. In stating that the § 2333(a) elements
of whether the defendant Arab Bank’s provision of material support involved “violence or endanger[ed] life”
and “manifest[ed] the apparent intent required by
§ 2331(1)(B)” were issues to be submitted to the jury,
Linde, 882 F.3d at 326, we not only were dealing with
the procedural posture of the case as indicated above,
but also were considering the record before us, in
which there was “evidence” that transfers were made
to “purported charities known to funnel money to Hamas,” and that some of those transfers were “explicitly
identified as payments for suicide bombings,” id. at

32a
321 (emphases added). A suicide bombing is an act
that inherently involves violence and objectively
would appear intended to intimidate a population or
government. The evidence in Linde thus sufficed to
present a triable issue as to whether Arab Bank had
committed an act of international terrorism by processing transfers that “involve” violence and that “appear” to intend intimidation or coercion of a population
or government.
The district court in the present case granted
summary judgment to NatWest because it found that
plaintiffs had not presented any such evidence as to
the transfers made for Interpal by NatWest—or any
other evidence that the transfers by NatWest involved
violence, or danger to human life, or had the appearance of intending to intimidate or coerce a population
or government. Plaintiffs have not called to our attention anything in the record to contradict that finding.
Plaintiffs’ reliance on this Court’s decision in
Weiss III, vacating the district court’s prior grant of
summary judgment, is misplaced. On that appeal, we
ruled only on the issue of scienter, the sole element on
which the district court in Weiss II had granted summary judgment. See, e.g., Linde, 882 F.3d at 328 (“[I]n
Weiss [III] we addressed the ‘scienter requirement’ of
the predicate material support violation, not the definitional requirements of the ATA.”). The fact that
Weiss III concluded that there was sufficient evidence
to present a genuine dispute as to that element is of no
moment here. Where the undisputed facts reveal that
there is an absence of sufficient proof as to one essential element of a claim, any factual disputes with respect to other elements of the claim become immaterial and cannot defeat a motion for summary

33a
judgment. See, e.g., Celotex Corp. v. Catrett, 477 U.S.
317, 322-23 (1986).
In sum, the § 2333(a) principles announced in
Linde were properly applied in the present case: In order for a plaintiff to prevail on an ATA claim against a
defendant as a principal, the elements listed in
§ 2333(a) must be proven; an element is not proven unless the evidence comports with the ATA’s definition
of the element; and proof of the provision of banking
services, in and of itself, is insufficient either to show
that the services involved an act of violence or threat
to human life or to give the appearance that such services were intended to intimidate or coerce a civilian
population or government.
In order to establish NatWest’s liability under the
ATA as a principal, plaintiffs were required to present
evidence sufficient to support all of § 2331(1)’s definitional requirements for an act of international terrorism. We see no error in the district court’s conclusion
that plaintiffs failed to proffer such evidence, and that
NatWest was entitled to summary judgment dismissing those claims.
B. The Denial of Leave To Amend To Allege Aiding
and Abetting
“We review a district court’s denial of leave to
amend for abuse of discretion, unless the denial was
based on an interpretation of law, such as futility, in
which case we review the legal conclusion de novo.”
Panther Partners Inc. v. Ikanos Communications, Inc.,
681 F.3d 114, 119 (2d Cir. 2012). Normally, a motion
for leave to amend is assessed on the basis of a plaintiff’s proposed new pleading on its face; however,
where, as here, the request is made in response to a

34a
motion for summary judgment, it is well within the
court’s discretion to consider the evidence in the existing record in assessing whether the plaintiff’s new allegations would, “as a matter of law, . . . withstand [a]
motion for summary judgment,” Milanese v. RustOleum Corp., 244 F.3d 104, 110 (2d Cir. 2001) (internal quotation marks omitted). For the reasons that follow, we affirm the district court’s denial of plaintiffs’
request to assert JASTA claims of aiding and abetting.
JASTA was enacted in 2016, amending § 2333 by
adding a new subsection (d) to allow a person injured
by an act of international terrorism to recover from a
person who aided and abetted or conspired in that act.
It provides, in relevant part as follows:
(2) Liability.—In an action under subsection (a) for an injury arising from an act of international terrorism committed, planned, or
authorized by an organization that had been
designated as a foreign terrorist organization
under section 219 of the Immigration and Nationality Act (8 U.S.C. 1189), as of the date on
which such act of international terrorism was
committed, planned, or authorized, liability
may be asserted as to any person who aids and
abets, by knowingly providing substantial assistance, or who conspires with the person
who committed such an act of international
terrorism.
18 U.S.C. § 2333(d)(2) (emphases added). Congress
gave JASTA a measure of retroactivity by providing
that such a secondary liability theory would be available in any action pending on or commenced after its
enactment, arising out of an injury occurring on or after September 11, 2001, with respect to any

35a
organization responsible for a terrorist attack if the organization had been designated an FTO at the time of
its commission, planning, or authorization of that attack. See id.; JASTA, Pub. L. No. 114-222, § 7, 130
Stat. at 855 (Sept. 28, 2016) (“Effective Date”).
Congress’s stated purpose in enacting JASTA was
“to provide civil litigants with the broadest possible
basis, consistent with the Constitution of the United
States, to seek relief against persons [and] entities . . .
that have provided material support . . . to foreign organizations or persons that engage in terrorist activities against the United States,” whether “directly or
indirectly.” JASTA, Pub. L. No. 114-222, § 2(b), 130
Stat. at 853 (“Purpose”). Under JASTA, therefore, a
plaintiff will “not have to prove that the [defendant’s]
own acts constitute[d] international terrorism satisfying all the definitional requirements of § 2331(1).”
Linde, 882 F.3d at 328.
As to what a plaintiff will be required to prove,
Congress, in its JASTA “Findings,” stated that the decision in Halberstam v. Welch, 705 F.2d 472 (D.C. Cir.
1983) (“Halberstam”), “which has been widely recognized as the leading case regarding Federal civil aiding and abetting and conspiracy liability, including by
the Supreme Court of the United States, provides the
proper legal framework for how such liability should
function in the context of chapter 113B of title 18
United States Code [, 18 U.S.C. § 2331 et seq.].” Pub.
L. No. 114-222, § 2(a)(5), 130 Stat. at 852 (“Findings”).
As set out in Halberstam,
[a]iding-abetting includes the following elements: (1) the party whom the defendant
aids must perform a wrongful act that causes
an injury; (2) the defendant must be generally

36a
aware of his role as part of an overall illegal
or tortious activity at the time that he provides
the assistance; [and] (3) the defendant must
knowingly and substantially assist the principal violation.
705 F.2d at 477 (“Halberstam elements”) (emphases
added). And as to “how much aid is ‘substantial aid,’”
which may depend on “many variables,” id. at 483,
Halberstam, after exploring caselaw, concluded that
that element is appropriately evaluated in terms of the
following five factors suggested by the Restatement
(Second) of Torts (1979) (“Restatement”), to wit,
[1] the nature of the act encouraged; [2] the
amount [and kind] of assistance given; [3] the
defendant’s absence or presence at the time of
the tort; [4] his relation to the tortious actor;
[5] and the defendant’s state of mind,
Halberstam, 705 F.2d at 483-84 (citing Restatement
§ 876(b), comment d), along with a sixth factor, the
“duration of the assistance provided,” Halberstam, 705
F.2d at 484.
The first Halberstam element itself has multiple
parts. The person the defendant is alleged to have
aided is the principal; the principal itself must have
performed a wrongful act; and the principal’s act must
have caused an injury. See, e.g., id. at 478 (“[a]n aiderabettor is liable for damages caused by the main perpetrator”); id. at 481 (“an aider-abettor is liable for injuries caused by the principal tortfeasor”). For an ATA
aiding-and-abetting claim, JASTA identifies the principal as “an organization that had been designated as
a foreign terrorist organization,” 18 U.S.C.
§ 2333(d)(2). The aid the defendant provided need not
be have been given to the principal directly; as quoted

37a
above, Congress expressly so declared in its statement
of “Purpose” in enacting JASTA. However, the second
and third Halberstam elements require proof that at
the time the defendant (directly or indirectly) aided
the principal, the defendant was “generally aware” of
the overall wrongful activity and was “knowingly” assisting the principal violation. Halberstam, 705 F.2d
at 477.
In Linde, which had been tried before the enactment of JASTA, we discussed the second Halberstam
element in the course of considering whether the trial
court’s instruction error (see Part II.A. above) could be
considered harmless. We concluded that the error was
not harmless in part because the mens rea element of
aiding and abetting is “different from the mens rea required to establish material support in violation of 18
U.S.C. § 2339B, which requires” proof only of the defendant’s “knowledge of the organization’s connection
to terrorism.” Linde, 882 F.3d at 329-30; see generally
Holder v. Humanitarian Law Project, 561 U.S. 1, 1617 (2010) (“Congress plainly spoke to the necessary
mental state for a violation of § 2339B, and it chose
knowledge about the organization’s connection to terrorism, not specific intent to further the organization’s
terrorist activities.” (emphasis added)).
In contrast to what is needed to show a violation
of § 2339B, the second Halberstam element of aiding
and abetting requires a plaintiff to show the defendant’s “general[] aware[ness] of his role as part of an
overall illegal or tortious activity at the time that he
provides the assistance.” Linde, 882 F.3d at 329 (emphasis added) (internal quotation marks omitted).
[A]iding and abetting an act of international
terrorism requires more than the provision of

38a
material support to a designated terrorist organization. Aiding and abetting requires the
secondary actor to be “aware” that, by assisting the principal, it is itself assuming a “role”
in terrorist activities. Halberstam v. Welch,
705 F.2d at 477.
Id. at 329 (emphases in original).
The issue of the mens rea requirements for a
JASTA claim of aiding and abetting acts of international terrorism was presented more directly in Siegel
v. HSBC North America Holdings, Inc., 933 F.3d 217
(2d Cir. 2019) (“Siegel”), in which we considered the
district court’s dismissal of such an action pursuant to
Fed. R. Civ. P. 12(b)(6) for failure to state a claim. The
Siegel plaintiffs were victims, or representatives of victims, of a series of terrorist attacks in Jordan on November 9, 2005. They brought suit under JASTA
against HSBC Bank USA, N.A. (“HSBC”), and other
defendants, alleging that HSBC had provided financial services to the defendant Al Rajhi Bank (or
“ARB”), a prominent Saudi bank.
The Siegel complaint included the following allegations: that al-Qaeda in Iraq (“AQI”) was the terrorist
organization responsible for the attacks; that ARB had
links to terrorist organizations including AQI; that
HSBC was aware of ARB’s links to terrorist organizations; that ARB was, at all relevant times, involved in
financing terrorist activity; that the government of
Saudi Arabia was monitoring ARB accounts for links
to terrorist organizations; that in 2003, the United
States Central Intelligence Agency referred to ARB as
a conduit for terrorist transactions; that in 2004, the
United States government designated several Saudibased non-profit organizations—all of which were

39a
clients of ARB—as terrorist organizations; that HSBC
internal communications in 2002 and 2003 revealed
that senior officers within the company were concerned that ARB’s account may have been used by terrorists, and that one of ARB’s clients had been linked
to AQI; that despite HSBC’s knowledge of ARB’s support of terrorist organizations, HSBC provided ARB
with a wide range of banking services, including wire
transfers, foreign exchange, trade financing, and asset
management services; and that HSBC helped ARB to
conceal the passage of billions of U.S. dollars through
the United States, and provided ARB with the means
to transfer millions of U.S. dollars to AQI which was
actively engaged in planning and perpetrating the
murder and maiming of Americans, including the victims of the November 2005 bombings in Jordan. See
Siegel, 933 F.3d at 220-21. ARB was an HSBC customer for some 25 years, until January 2005 when
HSBC decided to sever ties with ARB due to its concerns about possible terrorist financing. See id. at 221.
After other defendants had been dismissed for
lack of personal jurisdiction, the district court dismissed the complaint against HSBC for failure to state
a claim under JASTA. This Court affirmed, “conclud[ing] that the plaintiffs’ aiding-and-abetting claim
fail[ed] as a matter of law because the plaintiffs ha[d]
not plausibly alleged that HSBC assumed a role in the
November 9 Attacks or provided substantial assistance to AQI.” Id. at 222.
We observed first that the Siegel plaintiffs
“fail[ed] to advance any plausible, factual, non-conclusory allegations that HSBC knew or intended that” the
funds they forwarded for ARB “would be sent to AQI
or to any other terrorist organizations”; we found that

40a
failure alone sufficient to “foreclose[] their JASTA
claim.” Id. at 224-25. In the absence of factual “allegations that would support a conclusion that HSBC
knowingly played a role in the terrorist activities,” the
plaintiffs’ allegations that HSBC “was aware,” based
on “public reports,” that its banking customer “was believed by some to have links to . . . terrorist organizations” “are insufficient to state a claim for aiding-andabetting liability under JASTA.” Id. at 224 & n.6 (emphases added).
In addition, applying the six “factors” that Linde
and Halberstam found relevant to a determination as
to what may constitute “‘substantial assistance,’” we
noted that “[t]he plaintiffs have also failed adequately
to plead the ‘substantial assistance’ element of aidingand-abetting liability under JASTA.” Siegel, 933 F.3d
at 225. We stated, inter alia, that
plaintiffs here have not plausibly alleged that
HSBC encouraged the heinous November 9
Attacks or provided any funds to AQI. To be
sure, the plaintiffs did allege that HSBC provided hundreds of millions of dollars to ARB,
but they did not advance any non-conclusory
allegation that AQI received any of those
funds or that HSBC knew or intended that
AQI would receive the funds. . . . Similarly, on
the fifth factor—defendant’s state of mind—
the plaintiffs do not plausibly allege that
HSBC knowingly assumed a role in AQI’s terrorist activities or otherwise knowingly or intentionally supported AQI.
Id. (emphases added). We concluded that
[t]aken as true and viewed in the light most
favorable to the plaintiffs, the allegations

41a
establish, at most, that, up until January
2005, HSBC helped ARB violate banking regulations despite knowing that ARB supported
terrorist organizations. Even were that
proven, however, it would be an insufficient
basis for liability under JASTA because the
plaintiffs have failed to allege that HSBC
knowingly assumed a role in AQI’s terrorist
activities or substantially assisted AQI in
those activities, specifically the November 9
Attacks. We therefore conclude that the plaintiffs’ aiding-and-abetting claim fails.
Id. at 225-26 (emphases added).
Thus, in the present case, plaintiffs’ argument
that the relevant JASTA mens rea element—i.e.,
whether NatWest was generally aware it was providing material assistance to Hamas—was established by
evidence that NatWest was assisting Interpal is contrary to Linde and foreclosed by Siegel.
The district court appropriately assessed plaintiffs’ request to add JASTA claims, given the undisputed evidence adduced, in connection with the summary judgment motions, as to the state of NatWest’s
knowledge. As discussed in Part II.A. above, the record
included evidence that plaintiffs’ experts said the
charities to which NatWest transferred funds as instructed by Interpal performed charitable work and
that, as plaintiffs admitted, Interpal did not indicate
to NatWest that the transfers were for any terroristic
purpose; and plaintiffs proffered no evidence that the
charities funded terrorist attacks or recruited persons
to carry out such attacks. On this record, the district
court did not err in denying leave to amend the complaints as futile on the ground that plaintiffs could not

42a
show that NatWest was knowingly providing substantial assistance to Hamas, or that NatWest was generally aware that it was playing a role in Hamas’s acts
of terrorism.
CONCLUSION
We have considered all of plaintiffs’ arguments on
this appeal and have found them to be without merit.
The judgments are affirmed. Defendant’s conditional
cross-appeal is dismissed as moot.

43a
APPENDIX B
________________________________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
________________________________
No. 05-CV-4622 (DLI) (RML)
________________________________
TZVI WEISS, et al.,
Plaintiffs,
v.
NATIONAL WESTMINSTER BANK PLC,
Defendant.
________________________________
No. 07-cv-916 (DLI) (RML)
________________________________
NATAN APPLEBAUM, et al.,
Plaintiffs,
v.
NATIONAL WESTMINSTER BANK PLC,
Defendant.
________________________________
OPINION AND ORDER
________________________________
DORA L. IRIZARRY, Chief United States District
Judge:
Approximately 200 individuals and estates of deceased persons (collectively, “Plaintiffs”), brought this
consolidated action against defendant National Westminster Bank PLC (“Defendant”), seeking to recover
damages from terrorist attacks in Israel and the

44a
Palestine Territories pursuant to the civil liability provision of the Antiterrorism Act of 1992 (“ATA”), 18
U.S.C. § 2333(a). Specifically, Plaintiffs allege that Defendant is liable civilly pursuant to the ATA’s treble
damages provision for: (1) aiding and abetting the
murder, attempted murder, and serious physical injury of American nationals outside the United States
in violation of 18 U.S.C. § 2332; (2) knowingly providing material support or resources to a Foreign Terrorist Organization (“FTO”) in violation of 18 U.S.C.
§ 2339B; and (3) willfully and unlawfully collecting
and transmitting funds with the knowledge that such
funds would be used for terrorist purposes in violation
of 18 U.S.C. § 2339C. Defendant now brings the instant limited renewed motion for summary judgment
pursuant to Federal Rule of Civil Procedure 56. For
the reasons set forth below, Defendant’s motion for
summary judgment is granted; Plaintiff’s cross-motion
for leave to amend the complaint to add a claim under
the Justice Against Terrorism Act, 18 U.S.C.
§ 2333(d)(2) is denied and this action is dismissed.
BACKGROUND1
The Plaintiffs first filed a complaint in Weiss v.
National Westminster Bank PLC2 on September 29,

1

The Court assumes familiarity with the facts and circumstances underlying this action, which are summarized more fully
in the Court’s previous orders. See, e.g., Weiss v. National Westminster Bank PLC (“Weiss II”), 936 F. Supp.2d 100 (E.D.N.Y.
2013), vacated, 768 F.3d 202 (2d Cir. 2014) (“Weiss II-A”).
2

By order dated December 27, 2007, Weiss and Applebaum
were formally consolidated for pretrial proceedings. Citations to
the “Weiss Docket” or “Weiss” are to Weiss v. National

45a
2005. See, Compl., Weiss Dkt. Entry No. 1. On September 27, 2006, the late Honorable Charles P. Sifton,
then presiding, dismissed Plaintiffs’ aiding and abetting claim, but denied dismissal of Plaintiffs’ remaining claims. Weiss v. National Westminster Bank PLC
(“Weiss I”), 453 F. Supp.2d 609 (E.D.N.Y. 2006). On
March 2, 2007, Plaintiffs filed a complaint in Applebaum v. National Westminster Bank PLC. Applebaum Dkt. Entry No. 1. In light of Judge Sifton’s
rulings in Weiss I, the parties in Applebaum agreed to
dismissal without prejudice of their aiding and abetting claim. Applebaum Dkt. Entry Nos. 26, 28.
Defendant first moved for summary judgment
pursuant to Rule 56 on December 7, 2011, Weiss Dkt.
Entry No. 264, which Plaintiffs opposed, Weiss Dkt.
Entry No. 271. Defendant moved on three grounds, the
first of which was that no reasonable jury could find
that Defendant acted with the requisite scienter under
the ATA. On March 28, 2013, this Court granted Defendant’s motion, reaching only the scienter element.
See, Weiss II, 936 F. Supp.2d 100. On September 22,
2014, the Second Circuit reversed the Court’s grant of
summary judgment to Defendant and remanded the
case “for further proceedings, including consideration
of NatWest’s other asserted grounds for summary
judgment.” Weiss II-A, 768 F.3d at 212.
On January 12, 2015, in light of the decision of the
United States Supreme Court in Daimler AG v.

Westminster Bank PLC, 05-CV-4622. Citations to the “Applebaum Docket” or “Applebaum” are to Applebaum v. National
Westminster Bank PLC, 07-CV-916. Where documents have been
filed on both dockets, the Court cites to the Weiss Docket only, as
the lead case.

46a
Bauman, 571 U.S. 117 (2014), Defendant moved to dismiss the action for lack of personal jurisdiction pursuant to Rule 12(b)(2), or in the alternative, for summary
judgment pursuant to Rule 56. Weiss Dkt. Entry No.
327. Plaintiffs opposed Defendant’s motion. Weiss Dkt.
Entry No. 329. Defendant replied. Weiss Dkt. Entry
No. 330. The Court held oral argument on Defendant’s
motion on October 8, 2015. On March 31, 2016, the
Court denied Defendant’s motion in its entirety, holding that NatWest is subject to personal jurisdiction in
New York. See, Weiss v. National Westminster Bank
PLC (“Weiss III”), 176 F. Supp.3d 264 (E.D.N.Y. 2016).
On June 17, 2016, Plaintiffs amended their complaint, adding claims arising from three additional attacks, the Ben Yehuda Street Bombings on December
1, 2001, the Part Junction Bus #32A Bombing on June
18, 2002, and the March 7, 2002 suicide attack on
Atzmona (collectively, the “SoL Attacks”). See,
Amended Complaint, Weiss Dkt. Entry No. 345 and
Amended Complaint, Applebaum, Dkt. Entry No. 218.
On August 2, 2016, the Court granted Defendant permission to file a renewed motion for summary judgment with respect to the ATA elements that the Court
did not reach in Weiss II, as well as Defendant’s motion
for summary judgment with respect to Plaintiffs’
claims based on the SoL Attacks. On February 24,
2017, Defendant filed a renewed motion for summary
judgment. See, Motion for Summary Judgment, Weiss
Dkt. Entry No. 358, which Plaintiffs opposed, See,
Memorandum in Opposition, Weiss Dkt. Entry No.
362. Defendant replied. Reply, Weiss Dkt. Entry No.
365. On September 30, 2017, the Court granted in part
and denied in part Defendant’s renewed motion for
summary judgment. See, Weiss v. National

47a
Westminster Bank PLC (“Weiss IV”), 278 F. Supp.3d
636 (E.D.N.Y. 2017).
The Court denied Defendant’s summary judgment
motion to the extent that: (1) there are genuine issues
of material fact as to whether Defendant proximately
caused international terrorism under the ATA; (2)
there is sufficient admissible evidence for a reasonable
jury to conclude that the 13 Charities are alter egos of
Hamas under Hamas’ control; (3) Plaintiffs’ expert
Ronni Shaked may testify to put factual evidence into
context to establish Hamas’s responsibility for an attack, but not to establish the basic facts in the first instance; (4) Plaintiffs’ witness Evan Kohlmann may
testify as an expert about Hamas’ background and use
of propaganda, but his summaries of the attacks and
recitation of the presented evidence, without using
any expertise, is not admissible; (5) there is sufficient
admissible evidence for a reasonable jury to conclude
that Hamas committed sixteen of the eighteen attacks;
(6) Israeli military court convictions are admissible;
and (7) eyewitness accounts are admissible. Id. at 651.
The Court granted Defendant’s summary judgment
motion to the extent that: (1) Plaintiffs have not provided sufficient admissible evidence of Hamas’ responsibility for the September 24 attack; (2) Hamas’ claims
of responsibility, standing alone, are not admissible;
(3) Plaintiffs are collaterally estopped from arguing
that Hamas committed the Bus No. 19 Attack; and (4)
Plaintiffs’ § 2339C claims are dismissed. Id. The Court
concluded that Plaintiffs’ remaining claims may proceed. Id.
On March 14, 2018, the Court granted Defendant
permission to file a second renewed motion for summary judgment to address the narrow issue of how the

48a
Second Circuit’s recent decision in Linde v. Arab Bank,
Plc, 882 F.3d 314 (2d Cir. 2018), supports its position.
On May 23, 2018, Defendant filed the instant motion
for summary judgment. See, Motion for Summary
Judgment (“Mot.”), Weiss Dkt. Entry No. 395. Plaintiffs opposed Defendant’s motion. See, Memorandum
in Opposition (“Opp.”), Weiss Dkt. Entry No. 403. Defendant replied. See, Reply in Support of Motion for
Summary Judgment (“Reply”), Weiss Dkt. Entry No.
404.
LEGAL STANDARD
I.

Summary Judgment

Summary judgment is appropriate where “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The court
must view all facts in the light most favorable to the
nonmoving party, but “only if there is a ‘genuine’ dispute as to those facts.” Scott v. Harris, 550 U.S. 372,
380 (2007). “When opposing parties tell two different
stories, one of which is blatantly contradicted by the
record, so that no reasonable jury could believe it, a
court should not adopt that version of the facts for purposes of ruling on a motion for summary judgment.”
Id. A genuine issue of material fact exists if “the evidence is such that a reasonable jury could return a verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986) (internal quotations and citations omitted). The nonmoving party,
however, may not rely on “[c]onclusory allegations,
conjecture, and speculation.” Kerzer v. Kingly Manufacturing, 156 F.3d 396, 400 (2d Cir. 1998). “When no
rational jury could find in favor of the nonmoving

49a
party because the evidence to support its case is so
slight, there is no genuine issue of material fact and a
grant of summary judgment is proper.” Gallo v. Prudential Residential Services, Limited Partnership, 22
F.3d 1219, 1224 (2d Cir. 1994) (citing Dister v. Continental Group, Inc., 859 F. 2d 1108, 1114 (2d Cir.
1988)).
II. Primary Liability Under the ATA
Section 2333(a) provides a civil remedy for “[a]ny
national of the United States injured in his or her person, property, or business by reason of an act of international terrorism, or his or her estate, survivors, or
heirs,” stating that such national “may sue therefor in
any appropriate district court of the United States . . .”
18 U.S.C. § 2333(a). Under the ATA, “international
terrorism” means activities that:
(A) involve violent acts or acts dangerous to
human life that are a violation of the criminal
laws of the United States or of any State, or
that would be a criminal violation if committed within the jurisdiction of the United
States or of any State;
(B) appear to be intended—
(i) to intimidate or coerce a civilian population;
(ii) to influence the policy of a government
by intimidation or coercion; or
(iii) to affect the conduct of a government
by mass destruction, assassination, or
kidnapping; and
(C) occur primarily outside the territorial jurisdiction of the United States, or transcend

50a
national boundaries in terms of the means by
which they are accomplished, the persons
they appear intended to intimidate or coerce,
or the locale in which their perpetrators operate or seek asylum . . .
18 U.S.C. § 2331(1); See, Linde, 882 F.2d 314. Thus,
the ATA has four separate requirements for an act to
constitute international terrorism. The act at issue
must: (1) involve violence or endanger human life; (2)
violate federal or state criminal law if committed in
the United States; (3) appear to be intended to intimidate or coerce civilian population, influence government policy, or affect government conduct by specified
means; and (4) occur primarily outside the United
States or transcend national boundaries. See, Linde,
882 F.3d at 326 (citing Licci ex rel. Licci v. Lebanese
Canadian Bank, SAL, 673 F.3d 50, 68 (2d Cir. 2012)).
Plaintiffs bring their claims under 18 U.S.C.
§ 2339B as the predicate criminal violation to satisfy
the second prong, which requires that the act violate
federal criminal law. Section 2339B makes it a felony
to “knowingly provide[] material support or resources
to a [F]oreign [T]errorist [O]rganization,” or attempting or conspiring to do so. 18 U.S.C. § 2339B; See also,
Weiss II-A, 768 F.3d at 207. Under § 2339B, “a defendant may be liable for civil remedies under § 2333(a) for
providing material support to an organization that solicits funds for an FTO,” even if that support is not provided directly to the FTO itself. Weiss II-A, 768 F.3d at
209.
In Linde, the Second Circuit rejected the argument that providing material support to a known FTO
in violation of § 2339B invariably constitutes a violent
act or act dangerous to human life. Linde, 882 F.3d at

51a
326. (“[T]he provision of material support to a terrorist
organization does not invariably equate to an act of international terrorism. Specifically, . . . providing financial services to a known terrorist organization may
afford material support to the organization even if the
services do not involve violence or endanger life and do
not manifest the apparent intent required by
§ 2331(1)(B).”). The Second Circuit explained that,
“conduct that violates a material support statute can
also satisfy the § 2331(1) definition requirements of international terrorism in some circumstances.” Id. (emphasis added). However, the Second Circuit found that
it was “incorrect [for the trial court in Linde] to instruct the jury that a finding that Arab Bank provided
material support to Hamas in violation of § 2339(B)
was alone sufficient to prove the bank’s own commission of an act of international terrorism under
§ 2333(a).” Id. Instead, the jury “needed to be instructed on and to find proved all of § 2331(1)’s definitional requirements for an act of international terrorism, including those pertaining to violence or danger
and the apparent intent to intimidate or influence.” Id.
In Boim v. Holy Land Foundation for Relief and
Development, the Seventh Circuit rejected the plaintiffs’ arguments that the defendant’s financial donations to Hamas and Hamas-affiliated charities constituted an act of international terrorism as a matter of
law when the defendant knew that Hamas used such
money to finance the killing of Israeli Jews (some of
whom were American citizens). 549 F.3d 685 (7th Cir.
2008) (en banc). The Second Circuit in Linde explained
that the holding in Boim was not contrary to its holding, noting that in Boim, the Seventh Circuit had not
determined that the provision of material support is

52a
“always” an act of international terrorism. Linde, 882
F.3d at 327. Instead, in Boim, the Seventh Circuit
analogized that “‘giving money to Hamas’ [is like] ‘giving a loaded gun to a child,’ explaining that, while neither transfer is a violent act, both are acts ‘dangerous
to human life.’” Id. (quoting Boim, 549 F.3d at 690).
The Seventh Circuit in Boim focussed on the foreseeability that providing Hamas funding would enable Hamas to kill more people. Id. However, the Second Circuit in Linde explained: “We need not here decide
whether we would similarly conclude that a jury could
find that direct monetary donations to a known terrorist organization satisfy § 2331(1)’s definitional requirements for an act of terrorism.” Id. (citing Licci,
673 F.3d at 68–69). The Second Circuit in Linde concluded “only that providing routine financial services
to members and associates of terrorist organizations is
not so akin to providing a loaded gun to a child as to
. . . compel a finding that as a matter of law, the services were violent or life-endangering acts that appeared intended to intimidate or coerce civilians or to
influence or affect governments.” Id. Thus, the Second
Circuit determined that the provision of material support to a terrorist organization alone is not enough to
constitute international terrorism.
III. Secondary Liability Under the ATA
Initially, the ATA did not provide a civil remedy
against secondary actors who facilitated acts of international terrorism by others. See, Linde, 882 F.3d at
319-20 (citing Rothstein v. UBS AG, 708 F.3d 82, 97
(2d Cir. 2013)) (“Initially, the ATA afforded civil relief
only against the principals perpetrating acts of international terrorism.”). On September 28, 2016, Congress amended the ATA by enacting the Justice

53a
Against Terrorism Act, Publ. L. No. 114-222 130 Stat.
852 (2016) (“JASTA”). JASTA amends § 2333 by
providing a cause of action against “any person who
aids and abets, by knowingly providing substantial assistance, or who conspires with the person who committed . . . an act of international terrorism.” 18 U.S.C.
§ 2333(d)(2).
“JASTA expressly states that such secondary liability claims are not temporally limited to terrorist
acts occurring after that statute’s enactment.” Linde,
882 F.3d at 320. Rather, aiding and abetting and conspiracy claims can be asserted “as of the date on which
such act of international terrorism was committed,
planned, or authorized.” 18 U.S.C. § 2333(d). JASTA’s
amendment to the ATA applies to any civil action: “(1)
pending on, or commenced after [the date of JASTA’s]
enactment; and (2) arising out of an injury . . . on or
after September 11, 2001.” Id. at Statutory Note (Effective and Applicability Provisions); See also, Linde,
882 F.3d at 320.
In enacting JASTA, Congress instructed that the
“proper legal framework for how [aiding and abetting]
liability should function” under the ATA is the framework identified in Halberstam v. Welch, 705 F.2d 472
(D.C. Cir. 1983). 18 U.S.C. § 2333 Statutory Note
(Findings and Purpose § 5); See also, Linde, 882 F.3d
at 329. Halberstam set forth three elements for finding
aiding and abetting liability in the civil context: (1)
“the party whom the defendant aids must perform a
wrongful act that causes an injury,” (2) “the defendant
must be generally aware of his role as part of an overall illegal or tortious activity at the time that he provides the assistance,” and (3) “the defendant must
knowingly and substantially assist the principal

54a
violation.” 705 F.2d at 487. As discussed in Linde, Halberstam identified six relevant factors for “determining ‘how much encouragement or assistance is substantial enough’ to satisfy the third element: (1) the
nature of the act encouraged, (2) the amount of assistance given by defendant, (3) defendant’s presence or
absence at the time of the tort, (4) defendant’s relation
to the principal, (5) defendant’s state of mind, and (6)
the period of defendant’s assistance.’” Linde, 882 F.3d
at 329 (citing Id. at 483-84).
The Second Circuit has explained that, “[a]iding
and abetting requires the secondary actor to be aware
that, by assisting the principal, it is itself assuming a
role in terrorist activities.” Linde, 882 F.3d at 319 (citation omitted). For a defendant that is a financial institution, this requires a showing that “in providing
[financial] services, the bank was generally aware that
it was thereby playing a role in [the terrorist organization’s] violent or life-endangering activities,” which
“requires more than the provision of material support
to a designated terrorist organization.” Id. (citation
omitted).
DISCUSSION
I.

Defendant’s Primary Liability Under the ATA

Plaintiffs assert, and this Court concluded before
the Second Circuit’s decision in Linde, that a triable
issue of material fact remains as to whether Defendant committed an act of international terrorism by facilitating Interpal’s transfers of funds to 13 charities
(“13 Charities”), which plaintiffs contend are alter
egos of or controlled by Hamas, an FTO. See, Weiss IV,
278 F. Supp.3d at 644, 651. As discussed above, the
ATA sets forth four separate requirements for an act

55a
to constitute international terrorism. The act at issue
must: (1) involve violence or endanger human life; (2)
violate federal or state criminal law if committed in
the United States; (3) appear intended to intimidate or
coerce civilian population, influence government policy, or affect government conduct by specified means;
and (4) occur primarily outside the United States or
transcend national boundaries. See, Licci, 673 F.3d at
68. The Court did not consider in its previous decisions
the satisfaction of all of these specific prongs. See, e.g.,
Weiss IV, 278 F. Supp.3d 636. Defendant argues that
it is entitled to summary judgment because Plaintiffs
cannot satisfy all four requirements. See generally,
Mot. Specifically, Defendant contends that there is no
triable issue of fact as to whether Defendant engaged
in violent acts or acts dangerous to human life and did
so with terroristic intent, and thus, Plaintiffs cannot
demonstrate the first and third prongs discussed in
Linde. Id.
For purposes of its summary judgment motion
and because the Second Circuit previously ruled in
Plaintiffs’ favor on the issue, See, Weiss II-A, 768 F.3d
at 212, Defendant assumes that a triable issue of fact
remains as to whether Defendant knowingly provided
material support to an FTO in violation of § 2339B.
See, Mot. at 5, n.4. Thus, Defendant does not dispute
that the second Linde prong presents a triable issue of
fact. Additionally, Defendant does not dispute the
fourth Linde prong, that its alleged conduct occurred
primarily outside the United States or transcended
national boundaries. Id. at 5, n.3.

56a
A. Violent Acts or Acts Dangerous to
Human Life
Defendant contends that no reasonable juror
could find that Defendant’s routine banking services
to Interpal involved violent acts or acts dangerous to
human life. See, Mot. at 9. Defendant argues that undisputed evidence demonstrates that, to Defendant’s
knowledge, Interpal was a charity “aiming to do good
works in a deeply deprived and troubled region.” Id.
To support this contention, Defendant points to customer information forms and emails between Defendant’s employees, internal meeting minutes, internal
records, and Interpal’s annual reports, all of which indicate that Interpal was a charitable organization. Id.
at 9-11; See also, Defendant’s Supplemental Rule 56.1
Statement (“Def.’s 56.1 Stmt.”), Weiss Dkt. Entry No.
397 ¶¶ 3-6; Declaration of Mark E. McDonald in Support of Mot. (“McDonald Decl.”), Weiss Dkt. Entry No.
396, Exs. 3, 5-7. Defendant provides evidence demonstrating that, of at least 457 wire transfers processed
by Defendant from Interpal to the 13 Charities, none
were identified as being for a specific violent or terroristic purpose. See, Def.’s 56.1 Stmt. ¶¶ 7-8; McDonald
Decl., Ex. 8.
Plaintiffs concede that there is no evidence that
any of Interpal’s transfers to the 13 Charities processed by Defendant were identified as being for any
specific violent or terroristic purpose. See, Plaintiffs’
Response to Defendant’s 2011 Rule 56.1 Statement
(“Pls.’ Resp. to 2011 56.1 Stmt.”), Weiss Dkt. Entry No.
283 ¶ 248 (“Plaintiffs admit they do not contend that
any of the funds Interpal transferred from the accounts it maintained with NatWest to Hamas was
used specifically to finance any of the terrorist attacks

57a
that injured Plaintiffs and/or killed their loved ones.”)
(internal quotation marks and citation omitted); See
also, Plaintiffs’ Response to Defendant’s 56.1 Stmt.
(“Pls.’ Resp. to 56.1 Stmt.”), Weiss Dkt. Entry No. 401
¶ 8 (“Admit that Interpal did not identify any of the
Relevant Transfers as being for any violent or terroristic purpose.”). Furthermore, Plaintiffs’ experts Dr.
Matthew Levitt and Mr. Arieh Spitzen admitted that
the 13 Charities performed charitable work. See, Defendant’s 2011 Rule 56.1 Statement (“Def.’s 2011 56.1
Stmt.”), Weiss Dkt. Entry No. 279 ¶¶ 240-42.
Citing to the experts reports by Levitt and
Spitzen, Plaintiffs instead argue that the evidence
demonstrates that the 13 Charities were controlled by
Hamas founders and that the 13 Charities “were instrumental in organizing and distributing payments
to families of suicide bombers and other terrorists.”
See, Mot. at 10 (citing Plaintiffs’ Supplemental Rule
56.1 Statement (“Pls.’ 56.1 Stmt.”), Weiss Dkt. Entry
No. 402 ¶ 19 and Declaration of Aaron Schlanger
(“Schlanger Decl.”), Weiss Dkt Entry No. 400, Exs. 11,
19-21). Plaintiffs claim that the evidence shows that
the 13 Charities “recruited Hamas operatives to commit terrorist attacks.” See, Id. at 11 (citing Pls.’ 56.1
Stmt. ¶ 19 and Schlanger Decl. Exs. 11, 19-21). Plaintiffs further assert that the 13 Charities were “integral
to Hamas’s structure and operational capacity,” without providing evidentiary support for such an assertion. See, Id. at 11.
Defendant relies on concessions made by Plaintiffs’ own experts, Levitt and Spitzen, to counter the
arguments made by Plaintiffs. See, Reply at 6. Specifically, Levitt does not opine that any funds transferred
by Interpal through Defendant accounts were used to

58a
perpetrate the 15 attacks3 or that any of the 12 Charities4 participated in, planned, trained the perpetrators
of, requested that someone carry out, or was the cause
of any of the 15 attacks. Id.; See also, Mot. at 12-13
(citing Pls.’ Resp. to 2011 56.1 Stmt. ¶¶ 253-56, 25859). Similarly, Spitzen does not opine that any funds
transferred by Interpal through its Defendant account
were used to perpetrate the 15 attacks or that any of
the 13 Charities participated in, planned, trained the
perpetrators of, requested that someone carry out, or
was the cause of any of the 15 attacks. See, Reply at 6;
See also, Mot. at 12-13 (citing Pls.’ Resp. to 2011 56.1
Stmt. ¶¶ 266-69, 271-72). Defendant further maintains that the evidence upon which Plaintiffs rely does
not relate to the wire transfers processed by Defendant. See, Reply at 6.
Plaintiffs rely on the fact that the United States
designated Interpal as a Specially Designated Global
Terrorist (“SDGT”) for providing support, including
fundraising to Hamas, to support their contention that
Defendant’s services involved violent or dangerous
acts. See, Opp. at 10 (citing Pls.’ 56.1 Stmt. ¶ 7 and
Schlanger Decl. Ex. 4). Defendant replies that Interpal’s designation as an SDGT demonstrates, at
best, a violation of § 2339B because of Defendant’s
3

Defendant refers to 15 attacks because, at the time of the
experts’ concessions, Plaintiffs’ claims arose from 15 attacks between March 27, 2002 and September 24, 2004 that Plaintiffs allege were perpetrated by Hamas. See, Pls.’ Resp. to 2011 56.1
Stmt. ¶ 241. After this Court’s decision in Weiss IV, Plaintiffs’
claims now arise out of 16 attacks. See, Weiss IV, 278 F. Supp.3d
at 651.
4

The Expert Report of Dr. Matthew Levitt refers only to
twelve of the 13 Charities. See, Mot. at 12, n.8.

59a
support of an FTO. See, Reply at 6-7 (citing Weiss IIA, 768 F.3d at 211). The Second Circuit indeed distinguished an SDGT designation by OFAC from the State
Department’s FTO designation. See, Weiss II-A, 768
F.3d at 208-09, n.7 (“While an organization designated
as an FTO by the State Department is a terrorist organization for the purposes of § 2339B, that is not true
for organizations designated as SDGT by OFAC.”). Defendant also emphasizes that nothing in the OFAC
designation of Interpal as an SDGT states that Interpal had any involvement with Hamas’s terrorist activities. See, Reply at 7. The OFAC designation also
does not state that the banking services Defendant
provided to Interpal involved Hamas’s terrorist activities. Id.
Finally, Plaintiffs maintain that the Union of
Good, designated as an SDGT in 2008 as an organization created by Hamas leadership in late 2000 to
transfer funds Hamas, was Defendant’s customer. See,
Opp. at 10, n.12 (citing Pls.’ 56.1 Stmt ¶ 12 and
Schlanger Decl. Ex. 9). Defendant’s disputes this assertion. See, Reply at 7. Additionally, Defendant argues that, even if Union of Good were Defendant’s customer, that evidence, at best, would show a violation
of § 2339B as Defendant’s support of an agent of an
FTO. See, Reply at 7.
On appeal from this Court’s initial grant of summary judgment to Defendant, the Second Circuit held
that Plaintiffs’ allegations survive summary judgment
as to whether Defendant had the requisite scienter under the material support statute, § 2339B. See, Weiss
II-A, 768 F.3d 205. The Second Circuit explained that
§ 2339 “requires only a showing that [Defendant] had
knowledge that, or exhibited deliberate indifference to

60a
whether, Interpal provided material support to a terrorist organization, irrespective of whether Interpal’s
support aided terrorist activities of the terrorist organization.” Id. (alterations in original). However,
§ 2331(1) specifies that, to constitute an act of international terrorism supporting civil liability under
§ 2333, Defendant’s activities must meet the definitional requirements of international terrorism
§ 2331(1). See, 18 U.S.C. § 2331(1). Thus, as the Second Circuit subsequently elaborated in 2018 in Linde,
a violation of § 2339B “does not invariably equate to
an act of international terrorism.” Linde, 882 F.3d at
326. While, “conduct that violates a material support
statute can also satisfy the § 2331(1) definitional requirements of international terrorism in some circumstances,” Id. (emphasis added), a reasonable juror cannot conclude that Defendant’s alleged conduct involves
violence or endangers human life.
Plaintiffs assert that the issue of whether Defendant’s conduct satisfies the elements of § 2331(1) and
§ 2333(d) always is a question for the jury. See, Opp.
at 3. However, that assertion is not supported by the
Second Circuit’s ruling in Linde. Instead, the Second
Circuit concluded in Linde that in that case, the acts
alleged, i.e., “providing routine financial services to
members and associates of terrorist organizations,”
was “not so akin to providing a loaded gun to a child
as to . . . compel a finding that as a matter of law, the
services were violent or life-endangering acts that appeared intended to coerce civilians or to influence or
affect government.” Linde, 882 F.3d at 327. Linde did
not preclude a finding that, as a matter of law, providing routine financial services for charitable purposes
to charities that include members and associates of

61a
terrorist organizations is not a violent act or act dangerous to human life under § 2331(1).
The Second Circuit remanded the Linde case for
the jury to determine whether the § 2331(1) requirements were satisfied without finding that defendant
Arab Bank did not satisfy the § 2331(1) requirements
as a matter of law. Id. However, evidence was presented in the Linde case that is not present in this
case. See, Id. at 321-22. For example, Arab Bank executed wire transfers for known Hamas leaders and operatives. Id. at 321. At least one Hamas spokesman
held an account at an Arab Bank branch. Id. Arab
Bank employees admitted their awareness of the Hamas affiliations, as it is alleged Defendant did in this
case. Id. Arab Bank processed transfers on behalf of
purported charities known to funnel money to Hamas.
Id. However, some of the Arab Bank transfers were
identified explicitly as payments for suicide bombings.
Id. at 321-22. There is no evidence that the transfers
Defendant processed on behalf of the 13 Charities
were used explicitly for purposes similar to those describe in Linde.
Without guidance from the Second Circuit as to
the types of activities that would constitute violent
acts or acts dangerous to human life, the Court looks
to the plain language of the statute. Black’s Law Dictionary offers three definitions of ‘violent’: (1) “[o]f, relating to, or characterized by strong physical force;” (2)
“[r]esulting from extreme or intense force;” and (3)
“[v]ehemently or passionately threatening.” Violent,
Black’s Law Dictionary (10th ed. 2014). Black’s Law
Dictionary offers two definitions of ‘dangerous’: (1)
“([o]f a condition, situation, etc.) perilous; hazardous;

62a
unsafe;” and (2) “([o]f a person, an object, etc.) likely to
cause serious bodily harm.” Dangerous, Id.
While the evidence Plaintiffs rely upon is sufficient to demonstrate a triable issue of fact as to
whether Defendant provided material support to a foreign terrorist organization in violation of § 2339B, the
evidence does not warrant a trial as to whether Defendant’s activities involved violent acts or acts dangerous to human life as required under § 2331(1).
Plaintiffs’ reliance on the fact that the 13 Charities
were controlled by Hamas founders, without more, is
insufficient to prove that Defendant’s activities were
violent or endangered human life. Indeed, Plaintiffs
offer no evidence, and their experts do not opine, that
the 13 Charities participated in, planned, trained the
perpetrators of, requested that someone carry out, or
were the cause of the attacks giving rise to Plaintiffs’
claims. Plaintiffs identify no transfers from Interpal to
the 13 Charities as payments meant to involve a violent act or an act dangerous to human life. Similarly,
the fact that Interpal and the Union of Good were designated as SDGTs alone is insufficient to satisfy the
violent act or act dangerous to human life prong of
§ 2331(1).
Plaintiffs contend that Defendant’s banking services to Interpal and the 13 Charities contributed to
terrorism merely because those organizations engage
in terroristic activity. See, Opp. at 8-9. Plaintiffs’ assertions address Defendant’s indirect contribution,
through banking services, to terrorist activities without establishing any nexus between the banking services and the terrorist activities. Plaintiffs offer no evidence that Defendant’s banking services directly involved strong physical force, or intense force, or

63a
vehement or passionate threats. Plaintiffs also do not
offer evidence sufficient to create a factual dispute as
to whether Defendant’s banking services directly involved peril or hazard or were likely to cause serious
bodily harm.
Thus, Defendant’s motion for summary judgment
as to the violent acts and acts dangerous to human life
prong of § 2331(1) is granted because Plaintiffs fail to
present evidence sufficient to create a jury question as
to whether Defendant’s activities involved violent acts
or acts dangerous to human life.
B. Terroristic Intent
The terrorist intent prong of § 2331(1) requires
that Defendant’s actions “appear to be intended to (i)
intimidate or coerce a civilian population; (ii) to influence the policy of a government by intimidation or coercion; or (iii) to affect the conduct of a government by
mass destruction, assassination, or kidnapping.” 18
U.S.C. § 2331(1)(B). The “appear to be intended” requirement “does not depend on the actor’s beliefs, but
imposes on the action an objective standard to recognize the apparent intention of action.” Weiss II-A, 768
F.3d at 207, n.6. As with the violent act or act that is
dangerous to human life prong of § 2331(1), the provision of material support to a terrorist organization in
violation of § 2339B “does not invariably equate to an
act of international terrorism. Specifically, . . . providing financial services to a known terrorist organization
may afford material support to the organization even
if the services . . . do not manifest the apparent intent
required by § 2331(1)(B).” Linde, 882 F.3d at 326.
Here, Plaintiffs have not alleged, and the evidence

64a
does not show that Defendant’s apparent intent satisfies specific the intent requirement under § 2331(B).
Plaintiffs rely on evidence tending to show that
Defendant provided material support to a terrorist organization to argue that an issue of fact exists as to
whether Defendant had the requisite terroristic intent
under § 2331. Plaintiffs rely on evidence that Defendant knowingly provided financial services to a designated FTO, which satisfies that scienter requirement
under § 2339. See, Opp. at 13-15 (discussing an RBS
consent order that detailed its efforts to evade U.S
sanctions against State Sponsors of Terrorism and an
OFAC Settlement Agreement in which OFAC found
that Defendant cleared U.S. dollars on behalf of an
SDGT and its subsidiary and evaded U.S. sanctions).
However, the scienter requirement of the predicate
material support statute is not the same as the definitional requirements of terroristic intent in § 2331(1).
See, Linde, 882 F.3d at 328.
In Linde the Second Circuit provided an example
of an action that would constitute material support
and satisfy the requirements for international terrorism as defined by § 2331(1):
Most obviously, a person who voluntarily acts
as a suicide bomber for Hamas in Israel can
thereby provide material support to that terrorist organization while also committing an
act of terrorism himself. The suicide bombing
is unquestionably a violent act whose apparent intent is to intimidate civilians or influence government.
Id. at 326. In Linde, the evidence demonstrated that
defendant Arab Bank processed bank transfers that

65a
“were explicitly identified as payments for suicide
bombings.” Id. at 321. The Second Circuit concluded
that such evidence was sufficient to create a triable issue of fact as to whether Arab Bank’s activities satisfied the intent requirement under § 2331(1)(B). Id. at
327. Here, Plaintiffs provide no such evidence that Defendant merely provided banking services to Interpal
for ostensibly charitable purposes, which does not satisfy the intent required by § 2331(B) as established by
the Linde Court. Plaintiffs adduce no evidence that
Defendant had the apparent intent to intimidate or coerce a civilian population, influence the policy of a government by intimidation or coercion, or affect the conduct of a government by mass destruction, assassination, or kidnapping.
Accordingly, Defendant’s summary judgment motion as to the terroristic intent prong of § 2331(1) is
granted because there is no material issue of fact as to
whether Defendant’s activities appeared to be intended to intimidate or coerce a civilian population, influence the policy of a government by intimidation or
coercion, or affect the conduct of a government by mass
destruction, assassination, or kidnapping.
II. Plaintiffs’ Aiding and Abetting Claims
Although Judge Sifton dismissed Plaintiffs’ aiding
and abetting claims in 2006, Plaintiffs contend that
they properly have asserted an aiding and abetting
claim by including a claim pursuant to § 2333(d) in the
proposed joint pretrial order, Weiss Dkt. Entry No.
391, filed on March 8, 2018. See, Opp. at 16. Defendant
argues that this Court already dismissed Plaintiffs’
aiding and abetting claim, and that Plaintiffs have not
sought to replead any such claim. See, Mot. at 3, 20-

66a
21. Defendant further contends that, even if the Court
permits Plaintiffs to plead an aiding and abetting
claim, Defendant is entitled to summary judgment on
that claim. See, Id. at 20-24.
A. The Joint Pretrial Order
In the proposed joint pretrial order, Plaintiffs allege that Defendant is liable under § 2333(d) for aiding
and abetting a person or entity who committed an attack committed, planned, or authorized by a FTO. See,
Weiss Dkt. Entry No. 391 at 3-6. Specifically, Plaintiffs
allege that:
(1) Hamas was responsible for the attacks
that injured the Plaintiffs; (2) Defendant provided substantial assistance to Hamas for its
terrorist activities, including these attacks,
by transferring significant sums of money to
organizations that it knew (or consciously
avoided knowing) were controlled by Hamas;
and (3) Defendant’s acts were a substantial
factor in causing the Plaintiffs’ injuries and
those injuries were a reasonably foreseeable
result of the significant sums of money Defendant sent to Hamas.
Id. at 5 (footnote omitted). Plaintiffs concede that the
Court dismissed Plaintiffs’ common law aiding and
abetting claim previously, but they allege that, because JASTA expressly is retroactive, § 2333(d) provides a new and superseding legal basis for Plaintiffs’
aiding and abetting claims, and that Halberstam is
“the proper legal framework” for such claims. Id. (citing Linde, 882 F.3d at 329). Defendant’s summary of
defenses in the proposed joint pretrial order includes
a statement that, “[t]he claims to be tried do not

67a
include an aiding and abetting claim because Judge
Sifton dismissed the only aiding and abetting claim
plaintiffs have ever pleaded in these lawsuits long
ago.” Id. (citing Weiss I, 453 F. Supp.2d at 621).
Plaintiffs argue that they are entitled to proceed
on the aiding and abetting claims alleged in the proposed joint pretrial order because Rule 16(d) “provides
that a pretrial order controls the course of the action,
and such an action supersedes the pleadings.” Opp. at
16, n.18 (quotations and citations omitted). Plaintiffs
offer that, should the Court prefer that Plaintiffs assert their § 2333(d) claims by amending their complaint rather than through a pretrial order, Plaintiffs
would comply. Id.
As a threshold matter, the Court must decide
whether it will permit Plaintiffs to include an aiding
and abetting claim under § 2333(d) in the pretrial order even though Plaintiffs have not included the statutory claim in the pleadings. While a pretrial order
does supersede all prior pleadings and controls the
subsequent course of the action, See, Rockwell International Corp. v. United States, 549 U.S. 457, 474
(2007), the Court normally does not expect to see
claims or defenses not contained in the pleadings appearing for the first time in the pretrial order, particularly in a case such as this that has been pending a
long time and has had substantial motion practice.
See, Wilson v. Muckala, 303 F.3d 1207, 1215 (10th Cir.
2002) (“The laudable purpose of Fed. R. Civ. P. 16 is to
avoid surprise, not foment it.”). Instead, a party may
amend its pleading to add claims with the court’s
leave. See, Fed. R. Civ. P. 15(a). Accordingly, the Court
does not permit Plaintiffs to raise JASTA claims for
the first time in the pretrial order.

68a
The Court instead will consider whether it grants
Plaintiffs leave to amend their complaint pursuant to
Federal Rule of Civil Procedure 15(a) even though
Plaintiffs ask for this relief only in the alternative to
the Court’s acceptance of the claim in the pretrial order, and fashions the request as a cross-motion in a
footnote in the opposition, but does not attach a proposed amended complaint. See, Opp. at 16, n.18
(“Should the Court prefer that Plaintiffs assert their
§ 2333(d) claims by amended their complaints rather
than through the Joint Pre-Trial Order, they will of
course do so.”).
Federal Rule of Civil Procedure 15(a) provides
that a party shall be given leave to amend “when justice so requires.” Id. “Leave to amend should be freely
granted, but the district court has the discretion to
deny leave if there is a good reason for it, such as futility, bad faith, undue delay, or undue prejudice to the
opposing party.” Jin v. Metro. Life Ins. Co., 310 F.3d
84, 101 (2d Cir. 2002); See also, Local 802, Assoc. Musicians of Greater N.Y. v. Parker Meridien Hotel, 145
F.3d 85, 89 (2d Cir. 1998). If a scheduling order has
been entered setting a deadline for amendments, the
schedule “may be modified” to allow the amendment
“only for good cause and with the judge’s consent.”
Fed. R. Civ. P. 16(b)(4).
Here, a June 1, 2016 order set the deadline, June
17, 2016, for Plaintiffs to file the operative amended
complaints. See, June 1, 2016 Order. Although Plaintiffs met that deadline by filing Amended Complaints
on June 17, 2016, See, Amended Complaint, Weiss
Dkt. Entry No. 345, and Amended Complaint, Applebaum, Dkt. Entry No. 218, Plaintiffs could not have
included their JASTA claims in the amended

69a
complaints because Congress enacted JASTA over
three months later on September 28, 2016. “A finding
of good cause depends on the diligence of the moving
party.” Grochowski v. Phoenix Constr., 318 F.3d 80, 86
(2d Cir. 2003) (citing Parker v. Columbia Pictures Indus., 204 F.3d 326, 340 (2d Cir. 2000)). The enactment
of an explicitly retroactive statute after a scheduling
deadline constitutes sufficient good cause.
Nonetheless, Defendant argues that Plaintiffs
should not be able to raise these claims because Judge
Sifton addressed them in Weiss I. See, Mot. at 21. However, Judge Sifton dismissed Plaintiffs’ common law
aiding and abetting claims, but did not, and could not
address Plaintiffs’ statutory aiding and abetting
claims under JASTA as the statute did not exist at the
time. See, Owens v. BNP Paribas, S.A., 897 F. 3d 266,
278 (D.C. Cir. 2018) (“JASTA does not indicate that
Congress merely “clarified” existing law when it
amended § 2333. . . . If anything, JASTA’s passage
confirms that Congress knows how to provide for aiding and abetting liability explicitly and that the version of § 2333 in effect [previously] did not provide for
that liability.”). Defendant contends that Judge Sifton
relied on the same legal framework for dismissing
Plaintiffs’ common law aiding and abetting claims as
required for dismissing JASTA claims. See, Reply at 8
(citing Weiss I, 453 F. Supp.2d at 621-22). Specifically,
Defendant contends that Judge Sifton evaluated
Plaintiffs’ aiding and abetting claim by relying on aiding and abetting precedent set forth in In re Terrorist
Attacks on Sept. 11, 2001, which considered the Halberstam elements. See, Reply at 8-9, 9, n.9 (citing In re
Terrorist Attacks on Sept. 11, 2001, 349 F. Supp.2d
765, 798-800 (S.D.N.Y. 2005)). While Judge Sifton did

70a
reference In re Terrorist Attacks on Sept. 11, 2001, it
is unclear from Weiss I whether he applied the Halberstam factors. See, Weiss I, 453 F. Supp.2d at 62122. The Second Circuit in Linde made clear that the
Halberstam elements of civil aiding and abetting liability and factors relevant to the substantial assistance element provide the proper legal framework for
evaluating a JASTA aiding and abetting claim. 882
F.3d at 329. Because it is unclear whether Judge
Sifton applied that framework, the Court does not consider the decision in Weiss I as a bar to Plaintiffs
amending their complaint. However, for the reasons
that follow immediately below, amendment of the complaint is denied as futile.
B. Summary Judgment
§ 2333(d) Claims

on

Plaintiffs’

Finally, Defendant maintains that, even if the
Court were to permit Defendant to amend its complaint to include an aiding and abetting claim under
JASTA, the amendment would be futile because Defendant would be entitled to summary judgment as to
that claim. See, Opp. at 21-24. As a general matter, a
Rule 12(b)(6) motion is the benchmark for determining
whether amendment is futile. See, Lucente v. International Business Machines Corp., 310 F.3d 243, 258 (2d
Cir. 2002) (“An amendment to a pleading is futile if the
proposed claim could not withstand a motion to dismiss pursuant to Fed. R. Civ. P. 12(b)(6).”); See also,
Alexander v. Westbury Union Free School District, 829
F. Supp.2d 89, 118-19 (E.D.N.Y. 2011) (“Usually, a
proposed amendment is futile if it could not survive a
Rule 12(b)(6) motion to dismiss for failure to state [a]
claim.”). However, “when a motion to amend is made
in response to a summary judgment motion, the court

71a
may deny the amendment as futile when the evidence
in support of the plaintiff’s proposed new claim creates
no triable issue of fact, even if the amended complaint
would state a valid claim on its face.” Alexander, 829
F. Supp.2d at 119 (citing Milanese v. Rust-Oleum
Corp., 244 F.3d 104,110 (2d Cir. 2001)). Here, amendment would be futile because Plaintiffs’ proposed
JASTA claim fails as a matter of law.
Plaintiffs cannot demonstrate that Defendant had
the requisite knowledge required by JASTA. As explained in Linde, “[a]iding an abetting requires the
secondary actor to be ‘aware’ that, by assisting the
principal, it is itself assuming a ‘role’ in terrorist activities.” Linde, 882 F.3d at 329 (quoting Halberstam, 705
F.2d at 477). Thus, JASTA requires Plaintiffs to show
that, “in providing [financial] services, [Defendant]
was ‘generally aware’ that it was thereby playing a
‘role’ in [the terrorist organization’s] violent or life-endangering activities,” which “requires more than the
provision of material support to a designated terrorist
organization.” Id. (citing Halberstam, 705 F.2d at 477).
Accordingly, knowledge under JASTA “is different
from the mens rea required to establish material support in violation of 18 U.S.C. § 2339B, which requires
only knowledge of the organization’s connection to terrorism, not intent to further its terrorist activities or
awareness that one is playing a role in those activities.” Id. (citing Holder v. Humanitarian Law Project,
561 U.S. 1, 16-17 (2010)).
Plaintiffs again rely on evidence that tends to support a finding that Defendant had the requisite scienter required for providing material support to a terrorist organization under § 2339B to support their claim
that Defendant had the requisite scienter for aiding

72a
and abetting liability under JASTA. See, Opp. at 2425 (discussing Defendant’s “massive, illicit funds
transfers” for Interpal and the Union of Good). However, as discussed in detail above, Plaintiffs present no
evidence that creates a jury question as to whether Defendant generally was aware that it played a role in
any of Hamas’s or even Interpal’s or the Union of
Good’s violent or life-endangering activities. Evidence
that Defendant knowingly provided banking services
to a terrorist organization, without more, is insufficient to satisfy JASTA’s scienter requirement.
Plaintiffs’ proposed JASTA aiding and abetting
claim cannot survive summary judgment. Accordingly,
such amendment would be futile and Plaintiffs’ motion
for leave to amend the complaint is denied with prejudice.
CONCLUSION
For the foregoing reasons, Defendant’s summary
judgment motion as to Plaintiffs’ remaining claims of
civil liability under the ATA is granted in its entirety.
Plaintiffs’ motion for leave to amend the complaint to
add a claim under JASTA is denied. Accordingly, this
action is dismissed.
SO ORDERED.
Dated: Brooklyn, New York
March 31, 2019
s/
DORA L. IRIZARRY
Chief Judge

73a
APPENDIX C
________________________________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
________________________________
No. 05-CV-4622 (DLI) (RML)
________________________________
TZVI WEISS, et al.,
Plaintiffs,
v.
NATIONAL WESTMINSTER BANK PLC,
Defendant.
________________________________
No. 07-cv-916 (DLI) (RML)
________________________________
NATAN APPLEBAUM, et al.,
Plaintiffs,
v.
NATIONAL WESTMINSTER BANK PLC,
Defendant.
________________________________
OPINION AND ORDER
________________________________
DORA L. IRIZARRY, Chief United States District
Judge:
Approximately 200 individuals and estates of deceased persons (collectively, “Plaintiffs”), brought this
consolidated action against defendant National Westminster Bank Plc (“NatWest” or “Defendant”), seeking
to recover damages from terrorist attacks in Israel and

74a
the Palestine Territories pursuant to the civil liability
provision of the Antiterrorism Act of 1992 (“ATA”), 18
U.S.C. § 2333(a) (“Section 2333(a)”).
On December 7, 2011, Defendant moved for summary judgment pursuant to Rule 56 of the Federal
Rules of Civil Procedure (Weiss Dkt. Entry No. 264),1
which Plaintiffs opposed (Weiss Dkt. Entry No. 271).
Defendant moved on three grounds, the first of which
was that no reasonable jury could find that Defendant
acted with the requisite scienter under the ATA. On
March 28, 2013, the Court granted Defendant’s motion, reaching only the scienter element. (See Opinion
& Order, Weiss Dkt. Entry No. 310.)2
On September 22, 2014, the Second Circuit reversed the Court’s grant of summary judgment to Defendant and remanded the case “for further proceedings, including consideration of NatWest’s other asserted grounds for summary judgment.” Weiss v. Nat’
Westminster Bank Pic, 768 F.3d 202, 212 (2d Cir.
2014).
On June 17, 2016, Plaintiffs amended their complaint, adding claims arising from three additional attacks, the Ben Yehuda Street Bombings on December
1, 2001, the Part Junction Bus #32A Bombing on June
18, 2002, and the March 7, 2002 suicide attack on
Atzmona (collectively, the “SoL Attacks”). (See
1

Citations to the “Weiss Docket” are to docket 05-CV-4622.
Citations to the “Applebaum Docket” are to docket 07-CV-916.
Where documents have been filed on both dockets, the Court cites
to the Weiss Docket only, as the lead case.
2

This Order is written for the parties and familiarity with the
underlying facts and circumstances of this action is assumed. For
a full recitation of the facts, see the 2013 Opinion & Order.

75a
Amended Complaint “Am. Compl.,” Weiss Dkt. Entry
No. 345 and Amended Complaint “Applebaum Am.
Compl.,” Applebaum Dkt. Entry No. 218.)
On August 2 and 12, 2016, the Court granted Defendant permission to file this renewed motion for
summary judgment with respect to the ATA elements
that the Court did not reach in its March 28, 2013
Opinion & Order, as well as Defendant’s motion for
summary judgment with respect to Plaintiffs’ claims
based on the SoL Attacks.
On February 24, 2017, pursuant to the Court’s
bundle rule, Defendant filed this motion for summary
judgment (See Motion for Summary Judgment, “Mot.,”
Weiss Dkt. Entry No. 358), Plaintiffs opposed (See
Memorandum in Opposition, “Opp.,” Weiss Dkt. Entry
No. 362), and Defendant replied (See Reply in Support
re Motion for Summary Judgment, “Reply,” Weiss Dkt.
Entry No. 365).
LEGAL STANDARD
Summary judgment is appropriate where “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The court
must view all facts in the light most favorable to the
nonmoving party, but “only if there is a ‘genuine’ dispute as to those facts.” Scott v. Harris, 550 U.S. 372,
380 (2007). “When opposing parties tell two different
stories, one of which is blatantly contradicted by the
record, so that no reasonable jury could believe it, a
court should not adopt that version of the facts for purposes of ruling on a motion for summary judgment.”
Id. A genuine issue of material fact exists if “the evidence is such that a reasonable jury could return a

76a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). The nonmoving
party, however, may not rely on “[c]onclusory allegations, conjecture, and speculation.” Kerzer v. Kingly
Mfg., 156 F. 3d 396, 400 (2d Cir. 1998). “When no rational jury could find in favor of the nonmoving party
because the evidence to support its case is so slight,
there is no genuine issue of material fact and a grant
of summary judgment is proper.” Gallo v. Prudential
Residential Servs., Ltd. P’ship, 22 F. 3d 1219, 1224 (2d
Cir. 1994) (citing Dister v. Cont’l Grp., Inc., 859 F. 2d
1108, 1114 (2d Cir. 1988)).
DISCUSSION
I.

Proximate Causation
A. Proximate Causation under the ATA and
Second Circuit Case Law

Defendant asserts that Plaintiffs have failed to
raise a triable issue of fact of proximate causation because there is insufficient evidence that Defendant’s
provision of routine banking services to its customer
Interpal proximately caused the terrorist attacks by
which Plaintiffs were injured. (Mot. at 1-2.) Specifically, Defendant contends that Plaintiffs admittedly
have no evidence that any of the funds that Defendant
transferred at Interpal’s request actually were used to
perpetrate any of the attacks, and, therefore, Plaintiffs
cannot establish indirect causation. (Id. at 3.) Defendant further contends that merely transferring money
to the 13 Charities is not sufficient to show direct causation without establishing that the 13 Charities are
legally the same as Hamas, such that the transfers to
the 13 Charities were in fact direct transfers to Hamas
itself. (Id.) Defendant also maintains that the evidence

77a
upon which Plaintiffs rely to show that the 13 Charities and Hamas are one and the same is inadequate
for that purpose as a matter of law under Second Circuit precedent. (Id.) Plaintiffs counter that, given the
amount and proximity of the funds transferred by Defendant to Hamas-controlled organizations, Defendant cannot establish as a matter of law that the funds
did not aid in the attacks. (Opp. at 5.)
Section 2333(a) provides for recovery by individuals injured “by reason of” international terrorism. 18
U.S.C. § 2333(a). The Second Circuit has held that the
phrase “by reason of” requires that plaintiffs show that
their damages were proximately caused by defendant.
See Rothstein v. UBS AG, 708 F. 3d 82, 95 (2d Cir.
2013) (“We are not persuaded that Congress intended
to permit recovery under § 2333 on a showing of less
than proximate cause . . . .”). In its holding, the court
rejected the plaintiffs’ contention that the “‘by reason
of’ language chosen by Congress in creating a civil
right of action under the ATA was intended to permit
recovery on a showing of less than proximate cause, as
the term is ordinarily used.” Id. As the term is “ordinarily used,” proximate cause requires a showing that
Defendant’s actions were “a substantial factor in the
sequence of responsible causation,” and that the injury
was “reasonably foreseeable or anticipated as a natural consequence.” Lerner v. Fleet Bank, N.A., 318 F. 3d
113, 123 (2d Cir. 2003).
Two months later, in Al Rajhi Bank, the Second
Circuit revisited proximate causation under the ATA,
reaffirming Rothstein. See In re Terrorist Attacks on
Sept. 11, 2001, 714 F.3d 118 (2d Cir. 2013) (“Al Rajhi
Bank”) (“Rothstein holds that proximate cause is required to state a claim under § 2333”). The court

78a
found, as it did in Rothstein, that plaintiffs’ allegations
were insufficient for the purposes of establishing proximate causation. Id. at 124.
In Rothstein, the Second Circuit held that plaintiffs failed to establish proximate cause based on the
allegation that defendant provided Iran with hundreds of millions of dollars in cash knowing that Iran:
(1) promoted terrorism to injure and intimidate Jewish residents of Israel; (2) provided Hamas and Hizbollah with millions of dollars to fund terrorist attacks;
and (3) conditioned that funding on an agreement by
those organizations to conduct terrorist attacks on Israel and its residents. Rothstein, 708 F. 3d at 92.
In Al Rajhi Bank, the Second Circuit held that
plaintiffs failed to establish proximate cause based on
the allegation that defendants provided funding to
charities known to support terrorism, that, in turn,
provided funding to al Qaeda and other terrorist organizations. 714 F.3d at 124. The court held that
plaintiffs’ allegations “fell short” of establishing proximate cause because plaintiffs did not allege that defendants: (1) participated in the terrorist attacks; (2)
provided money directly to al Qaeda; or (3) donated
money to the charities that actually was transferred to
al Qaeda and aided the terrorist attacks. Id. The court
held that it was “not persuaded that providing routine
banking services to organizations and individuals said
to be affiliated with al Qaeda – as alleged by plaintiffs
– proximately caused the September 11, 2001 attacks
or plaintiffs’ injuries. Id.
B. Proximate Cause and Routine Banking
Here, Plaintiffs argue that there is nothing “routine” about knowingly providing banking services to

79a
fund terrorism. The district court in Al Rajhi Bank remarked that “[p]roviding routine banking services,
without having knowledge of the terrorist activities,
cannot subject [bank] to liability.” 349 F. Supp.2d at
835 (emphasis added). In its remand order, the Second
Circuit found that there was “a triable issue of fact as
to whether NatWest’s knowledge and behavior in response satisfied the statutory scienter requirements”
and whether “NatWest had actual knowledge that, or
exhibited deliberate indifference to whether, Interpal
provided material support to a terrorist organization.”
Weiss, 768 F.3d at 206, 212. The court in Linde v. Arab
Bank, PLC agreed that a bank cannot “routinely” provide banking services, if they provide those services
with knowledge of their assistance in funding terrorist
activities. See 384 F. Supp.2d 571, 588 (E.D.N.Y. 2005)
(“Although the Bank would like this court to find, as
did the court in In re Terrorist Attacks [Al Rajhi Bank],
that it is engaged in ‘routine banking services,’ here,
given plaintiffs’ allegations regarding the knowing
and intentional nature of the Bank’s activities, there
is nothing ‘routine’ about the services the Bank is alleged to provide.”).
However, the Second Circuit did not address
whether banking services were no longer “routine” if
the bank had knowledge of the ultimate use of the
funds. Instead, the Second Circuit, in Al Rajhi Bank,
cited the District of D.C.’s use of the phrase. See Burnett v. Al Baraka inv. & Dev. Corp., 274 F. Supp.2d 86,
109 (D.D.C. 2003) (“Plaintiffs offer no support, and we
have found none, for the proposition that a bank is liable for injuries done with money that passes through
its hands in the form of deposits, withdrawals, check
clearing services, or any other routine banking

80a
service.”) (emphasis added). As such, the 2006 ruling
of the Honorable Charles P. Sifton, U.S. District Judge
of this Court,3 on the scope of “routine banking business” stands. See Weiss v. Nat’l Westminster Bank
PLC, 453 F. Supp.2d 609, 625 (E.D.N.Y. 2006) (“However, defendant misconstrues the Terrorist Attacks decision. In holding that there could be no liability on the
basis of ‘routine banking business’ that court did not
mean that the provision of basic banking services
could never give rise to bank liability. Rather the court
relied on the routine nature of the banking services to
conclude that the defendant bank had no knowledge of
the client’s terrorist activities. Where the Bank knows
that the groups to which it provides services are engaged in terrorist activities even the provision of basic
banking services may qualify as material support.”)
(internal quotations and citations omitted).
C. Rothstein and Al Rajhi are Distinguishable
While Defendant asserts that the Second Circuit’s
decisions in Rothstein and Al Rajhi Bank require this
Court to decide in Defendant’s favor here, both cases
are distinguishable because they were dismissed
based on plaintiffs’ conclusory allegations.
In Rothstein, the plaintiff alleged that the defendant-financial institution provided United States currency to the Iranian government. 708 F.3d at 92. The
Iranian government has long been designated a state
sponsor of terrorism by the United States government
and provides material support to Hamas and Hezbollah. Id. at 86. The plaintiffs were injured and/or had

3

Judge Sifton is since deceased, and this case assigned to this
Court.

81a
family members injured or killed in Hamas or Hezbollah attacks. Id. at 85. To make a causation connection
among the currency provided by the defendant to Iran,
Iran’s support of Hamas and Hezbollah, and the attacks at issue, the plaintiffs alleged that Hezbollah
and Hamas “needed large sums of money to fund their
operations; that those organizations, by reason of their
nature and the existence of counterterrorism sanctions, could not freely use normal banking services
such as checks or wire transfers; and that U.S. currency is a universally accepted form of payment.” Id.
at 93.
The Second Circuit held that these allegations,
along with conclusory allegations that the dollars the
defendant provided to the Iranian government “would
be used to cause and facilitate terrorist attacks by Iranian-sponsored terrorist organizations such as Hamas
[and] Hizbollah,” were not adequate to plead proximate causation. Id. at 97 (emphasis in original). This
connection is more attenuated than in the instant
case, where the money from Defendant was purportedly going directly to Hamas front-groups, rather than
to a government that performs myriad legitimate functions in addition to allegedly funding terrorist organizations. Cf. Id. (“But the fact remains that Iran is a
government, and as such it has many legitimate agencies, operations, and programs to fund.”). Here, Hamas
carried out the attacks during the same period of time
within which the money was transferred, which distinguishes this case from Rothstein, where Iran did not
carry out the attacks at issue.
These differences are meaningful because Congress specifically has found that “foreign organizations
that engage in terrorist activity are so tainted by their

82a
criminal conduct that any contribution to such an organization facilitates that conduct.” Antiterrorism and
Effective Death Penalty Act of 1996, Pub. L. 104-32,
§ 301(a)(7), 110 Stat. 1214, 1247 (1996). The same
thing cannot be said about a government. See Rothstein v. UBS AG, 772 F. Supp.2d 511, 516 (S.D.N.Y.
2011) (“[T]he Supreme Court’s finding that FTOs are
so tainted by their criminal conduct that any contribution to such an organization facilitates that conduct is
specific to FTOs. Such a finding does not necessarily,
or even probably, apply to state sponsors of terrorism.”). Indeed, unlike here, in Rothstein, the Second
Circuit explained that, “[t]he Complaint does not allege that [the defendant] was a participant in the terrorist attacks that injured plaintiffs. It does not allege
that [the defendant] provided money to Hizbollah or
Hamas. It does not allege that U.S. currency [the defendant] transferred to Iran was given to Hizbollah or
Hamas.” Rothstein, 708 F.3d at 97. Therefore, Rothstein does not require judgment as a matter of law in
favor of Defendant here.
In Al Rajhi, the Second Circuit reiterated that
Congress “did not intend to permit recovery under
§ 2333 on a showing of less than proximate cause.” Al
Rajhi 714 F.3d 118, 123 (2d Cir. 2013). Plaintiffs there
alleged that defendants provided funding to charity organizations known to support terrorism that, in turn,
provided funding to al Qaeda and other terrorist organizations. Id. at 124. The court held that those allegations were “insufficient for proximate causation purposes for the same reasons the allegations in Rothstein
fell short,” because plaintiffs did not allege that defendants participated in the September 11, 2001 attacks or that they provided money directly to al Qaeda.

83a
Id. Plaintiffs also did not allege that the money the defendants allegedly donated to the charities actually
was transferred to al Qaeda and aided in the September 11, 2001 attacks. Id. Thus, the court held that the
allegations were conclusory. Id.
Plaintiffs here do not engage in such conclusory
allegations. Here, Plaintiffs sufficiently allege that Defendant provided funds to Hamas front-groups and
Hamas carried out the attacks during the same period
of time within which the money was transferred. The
social services provided by Hamas and its front groups
are integral to building popular support for its organization and goals, which then facilitates its ability to
carry out violent attacks. See Boim III, 549 F. 3d at
698 (“Hamas’s social welfare activities reinforce its
terrorist activities both directly by providing economic
assistance to the families of killed, wounded, and captured Hamas fighters and making it more costly for
them to defect (they would lose the material benefits
that Hamas provides them), and indirectly by enhancing Hamas’s popularity among the Palestinian population and providing funds for indoctrinating schoolchildren.”). Congress crafted the ATA to cut off all
money to terrorist organizations, finding that they are
fundamentally tainted, even if they also have non-violent public welfare operations. Thus, Al Rajhi does not
require judgment as a matter of law in favor of Defendant either.
D. Hamas Alter Egos
Defendant asserts that, to show proximate causation, Plaintiffs must establish that the 13 Charities
that received the transfers are, as a matter of law,
equivalent to transfers to Hamas itself. (Mot. at 7.)

84a
Defendant argues that there is no evidence on which a
reasonable juror could make such a finding because
Plaintiffs rely solely on insufficient expert testimony.
(Id.) Plaintiffs contend that their proposed experts, Dr.
Mathew Levitt and Arieh Spitzen, rely upon substantial evidence confirming that the Defendant counterparties to which Interpal sent funds were controlled by
Hamas. (Opp. at 7.) Assuming, arguendo, that, to show
proximate causation, Plaintiffs must establish that at
least some of the 13 Charities are alter egos of Hamas
or under Hamas’ control, Plaintiffs have met their burden for purposes of Defendant’s summary judgment
motion.
In his September 27, 2006 decision granting in
part and denying in part Defendant’s motion to dismiss, Judge Sifton adopted the holding in National
Council of Resistance of Iran v. Department of State,
373 F.3d 152 (D.C. Cir. 2004), where then-United
States Circuit Judge John G. Roberts, Jr., writing for
a panel of the D.C. Circuit, addressed the question of
when an entity is considered an “alias” of an FTO for
purposes of the statute granting the Secretary of State
power to designate FTOs. Weiss v. Nat’l Westminster
Bank PLC, 453 F. Supp.2d 609, 622 (E.D.N.Y. 2006).
Specifically, the D.C. Circuit held that:
[O]rdinary principles of agency law are fairly
encompassed by the alias concept under
AEDPA. When one entity so dominates and
controls another that they must be considered
principal and agent, it is appropriate, under
AEDPA, to look past their separate juridical
identities and to treat them as aliases. . . .
Just as it is silly to suppose that Congress empowered the Secretary to designate a terrorist

85a
organization only for such periods of time as
it took such organization to give itself a new
name, and then let it happily resume the
same status it would have enjoyed had it
never been designated, so too is it implausible
to think that Congress permitted the Secretary to designate an FTO to cut off its support
in and from the United States, but did not authorize the Secretary to prevent that FTO
from marshaling all the same support via juridically separate agents subject to its control.
Nat’l Council of Resistance of Iran, 373 F. 3d at 157-58
(internal citation, quotation marks and alteration
omitted). In adopting the D.C. Circuit’s alter ego concept, Judge Sifton explained that “[f]actors to be considered include whether the organizations share leadership, whether they commingle finances, publications, offices, and personnel, and whether one operates
as a division of the other.” Weiss, 453 F. Supp.2d at
623.
In apparent disregard of the law of the case, Defendant argues that Plaintiffs’ experts rely on “insufficient” facts, even though these facts parallel the factors outlined by Judge Sifton. (Mot. at 7-8.) These facts
include the shared personnel and overlapping leadership between Hamas and the 13 Charities. (Id.) Plaintiffs’ experts detail the findings of multiple government agencies, including the German Ministry of Interior, the Israeli Minister of Defense, and the U.S. Department of Treasury, that the 13 Charities were Hamas-controlled. (Opp. at 7.) Furthermore, Plaintiffs’
experts discuss how the 13 Charities operated as the
social network of Hamas. As the Honorable Brian M.
Cogan, U.S. District Judge of this Court, described in

86a
Linde v. Arab Bank, Dr. Levitt and Spitzen present “a
cornucopia of circumstantial evidence to support a
jury finding that defendant knew or was willfully blind
to the charities’ Hamas affiliations.” 97 F. Supp.3d
287, 335 (E.D.N.Y. 2015).
Considering the factors described by Judge Sifton
and the record developed in this case thus far, a reasonable jury could find that the 13 Charities are Hamas alter egos.
II. Hamas’ Responsibility for the Attacks
Defendant asserts that Plaintiffs failed to present
any admissible evidence from which a reasonable juror
could find that Hamas perpetrated the attacks at issue. (Mot. at 12.) Defendant argues that Plaintiffs’ experts Ronni Shaked, Evan Kohlmann, and Shaul
Naim rely on hearsay to form their opinions. (Id.) For
the reasons set forth below, the court finds that certain
portions of the proposed testimony of Shaked and
Kohlmann are inadmissible. However, Plaintiffs have
presented sufficient independently admissible evidence to create a genuine issue of material fact as to
whether Hamas perpetrated sixteen of the eighteen
attacks.
A. Shaked
Plaintiffs submit a report from Ronni Shaked, in
which Shaked analyzes various materials, including
newspaper articles, claims of responsibility by Hamas
through its reputed websites, interviews of purported
Hamas members, Hamas propaganda literature, Israeli government press releases, and Israeli civilian
and military court records. Based upon these materials, Shaked concludes that Hamas is responsible for
each of the attacks at issue here. Defendant asserts

87a
that Shaked’s opinions are inadmissible to prove that
Hamas was responsible for the attacks under United
States v. Mejia, 545 F. 3d 179 (2d Cir. 2008). (Mot. at
12-13.)
Under Mejia, much of Shaked’s testimony is inadmissible because it does not require expert knowledge.
In Mejia, the Second Circuit held that testimony by a
government expert that the “unspecified deaths of
eighteen to twenty-three persons have been homicides
committed by members of” a certain gang was outside
the scope of appropriate expert testimony pursuant to
Federal Rule of Evidence 702, because it repeated evidence that was understandable to a layperson. 545 F.
3d at 195-96. However, the court held that the expert
could testify about how evidence admitted through a
lay witness connected the murders to the gang. Id. at
195. For example, the expert could provide an “explanation of how the graffiti near a body indicated that
the murderer was a member of [the gang],” or “testimony that the gang used a particular method to kill
enemies and that as a result of his review of the autopsy reports (which would have been in evidence before the jury), he had concluded that [the gang] committed those murders.” Id.
Shaked may use his expertise to provide context
to a jury, but he cannot, under Mejia, use attribution
testimony to introduce and summarize straightforward factual evidence that has not been admitted,
such as a webpage that says “Hamas carried out a suicide bombing.” While Shaked can put factual evidence
in context to help Plaintiffs establish that Hamas is
responsible for an attack, he cannot be used to establish basic facts in the first place. See Mejia, 545 F. 3d
at 196 (“Expert testimony might have been helpful in

88a
establishing the relationship between these facts and
[the gang], but it was not helpful in establishing the
facts themselves.”). Thus, Plaintiffs cannot use
Shaked’s opinions to establish a genuine issue of material fact as to Hamas’ responsibility for the attacks
at issue without first building a proper foundation.
B. Kohlmann
Defendant objects to Kohlmann’s testimony to the
extent that it recites hearsay. (Mot. at 15.) The Court
finds that part of Kohlmann’s proposed testimony is
inadmissible.
Kohlmann is permitted to give background on Hamas, including a description of its use of propaganda
and its websites. These topics are appropriate subjects
of an expert opinion, and are similar to testimony that
Kohlmann has been allowed to give in the past. See
United States v. Paracha, 2006 WL 12768, *21-22
(S.D.N.Y. Jan. 3, 2006), aff’d, 313 F. App’x 347 (2d Cir.
2008); United States v. Kassir, 2009 WL 910767, *7
(S.D.N.Y. Apr. 2, 2009) (holding that Kohlmann’s “testimony on the origins, history, structure, leadership
and various operational methods of al Qaeda and other
terrorist groups is sufficiently reliable.”).
However, the parts of Kohlmann’s testimony that
are nothing more than a recitation of inadmissible secondary evidence is inadmissible. This tactic of simply
“repeating hearsay evidence without applying any expertise whatsoever” has been rejected by the Second
Circuit, and therefore must be rejected here. Mejia,
545 F. 3d at 197.
Accordingly, Kohlmann may testify as an expert
about Hamas’ background and use of propaganda, but
his summaries of the attacks and repetition of

89a
evidence that Hamas was responsible for those attacks, without using any expertise, is not admissible
and cannot be relied upon by this Court in deciding the
summary judgment motion.
C. Other Evidence
Plaintiffs contend that they have brought forth
uncontradicted admissible evidence demonstrating
that Hamas committed the relevant terrorist attacks
apart from the expert reports. (Opp. at 10-25.) Defendant contends that the evidence Plaintiffs have set forth
is inadmissible hearsay. (Reply at 6-10.)
The Court holds that there is sufficient admissible
evidence for a reasonable jury to determine that Hamas committed sixteen of the eighteen attacks.
Shaked and Kohlmann, relied at least in part, upon
judgments of Israeli courts assigning responsibility to
Hamas or its operatives, official Israeli government investigative reports concluding that Hamas or its operatives were responsible for the attack, and/or Shaked’s
own eye-witness accounts. These materials can be authenticated and are admissible.
A judgment of conviction is admissible in a civil
case as an exception to the hearsay rule, if: (1) it was
entered after trial or guilty plea; (2) the conviction was
for a crime punishable by death or imprisonment for
more than one year; and (3) the evidence is admitted
to prove any fact essential to the judgment. Fed. R.
Evid. 803(22). The parties do not dispute that: (1) the
convictions are for crimes punishable by death or more
than one year of imprisonment; (2) the evidence is admitted to prove an essential fact; and (3) this exception
can be “applied to admit evidence of foreign criminal
judgments.” Jack B. Weinstein & Margaret A. Berger,

90a
Weinstein’s Federal Evidence § 803.24[2], at 803-146
(Joseph M. McLaughlin ed., 2d ed. 2012). Moreover, as
foreign public documents, they can be self-authenticated, and Defendant has not challenged the authenticity of the judgments at issue here. See Fed. R. Evid.
902(3); Raphaely Int’l, Inc. v. Waterman S.S. Corp.,
972 F.2d 498, 502 (2d Cir. 1992).
Defendant argues that the Israeli judgments are
inadmissible in this case because Plaintiffs have not
proven that the proceedings that produced the convictions complied with due process. (Reply at 6.) This
Court disagrees. Israeli military courts comport with
minimum due process standards. Israeli military trials typically are open to the public; defendants are entitled to representation by an attorney; the same rules
of evidence as in Israeli civilian courts apply; defendants are entitled to challenge confessions on the
grounds of coercion; witnesses are subject to cross-examination; defendants enjoy the privilege against selfincrimination; and, if defendants enter a guilty plea,
the judge must explain the consequences of the plea to
the defendant before accepting the plea. Strauss v.
Credit Lyonnais, 925 F. Supp.2d 414, 448 (E.D.N.Y.
2013). Any criticisms of the due process afforded defendants in Israeli military courts and their ability to
come to a reliable verdict affects the weight of the evidence, not admissibility, particularly where it appears
on this record that the accused were afforded more
than a modicum of due process. Id.
Accordingly, Plaintiffs have sufficient admissible
evidence to create a genuine issue of material fact as
to Hamas’ responsibility for the attacks on the following dates, at the following places: (1) March 27, 2002,
Park Hotel, Netanya; (2) May 7, 2002, Sheffield Club,

91a
Rishon LeZion; (3) July 31, 2002, Hebrew University
Cafeteria; (4) January 29, 2003, Route 60; (5) March 5,
2003, Bus 37, Haifa; (6) March 7, 2003, Kiryat Arba;
(7) May 18, 2003, Bus 6, French Hill, Jerusalem; (8)
June 11, 2003, Bus 14A, Jaffa Road, Jerusalem; (9)
June 20, 2003, Route 60; (10) August 19, 2003, Bus 2,
Jerusalem; (11) September 9, 2003, Café Hillel, Jerusalem; (12) December 1, 2001, Ben Yehuda Street, Jerusalem; (13) January 18, 2002, Bus 32A, Patt Junction, Jerusalem. (See Plaintiff’s Response to Defendant’s Supplemental Statement of Additional Material
Facts, and Supplemental Counter-Statement of Additional Material Facts, Weiss Dkt. Entry No. 364 (“Pl.
Supplemental 56.1”) ¶ 128-29.)
Hamas’ responsibility for some of the attacks substantiated by a military court conviction, as well as the
April 30, 2003 suicide bombing of Mike’s Place in Tel
Aviv (for which there is no conviction), are supported
by conclusions of public Israeli government reports
that are admissible as hearsay exceptions. See Fed. R.
Evid. 803(8) (public records containing “factual findings from a legally authorized investigation” are admissible); In re Ethylene Propylene Diene Monomer
(EPDM) Antitrust Litig., 681 F. Supp.2d 141, 159 (D.
Conn. 2009) (admitting conclusions of official foreign
investigation as hearsay exception). Defendant argues
that these documents simply recite conclusory statements without citing to any investigative steps that
were taken or evidence that was gathered. (Reply at
8.) However, these documents, including the 2003 ISA
Report and the 2007 ISA Report, can be self-authenticated as foreign public documents. See Fed. R. Evid.
902(3). In addition, Defendant gives no reason why
these reports are unreliable. See Bridgeway Corp. v.

92a
Citibank, 201 F. 3d 134, 143-44 (2d Cir. 2000) (affirming admissibility of factual findings in government report where nothing in the record “indicates any motive
for misrepresenting the facts” in the report). Accordingly, there is sufficient admissible evidence indicating that Hamas is responsible for the attacks, supported by the foreign reports. See Estate of Parsons v.
Palestinian Auth., 651 F. 3d 118, 121-26 (D.C. Cir.
2011) (holding that there is a triable issue of responsibility for attack based upon statement to Palestinian
interrogators by person who planted bomb, an FBI report and a memo in Palestinian Authorities’ investigative files assigning blame for attack).
For the October 22, 2003 shooting attack in Tel
Rumeida, Shaked states that he witnessed firsthand
the aftermath of the attack and saw evidence that Hamas was responsible. (See Shaked Report at 127.) This
eyewitness account is admissible to show that Hamas
perpetrated the attack.
Plaintiffs have not provided sufficient admissible
evidence of Hamas’ responsibility for the September
24 Attack. The evidence Plaintiffs rely on consists
solely on Hamas claims of responsibility, which Plaintiffs assert are credible because there is no evidence
that Hamas asserts false claims of responsibility.
(Opp. at 17-18.)
The claims of responsibility by Hamas, even assuming they could be authenticated, are hearsay.
Plaintiffs assert that the statements are admissible as
a hearsay exception because they are declarations
against interest by unavailable witnesses pursuant to
Rule 804(b)(3) of the Federal Rules of Evidence, and
that there is no evidence that Hamas was motivated
to assert a false claim of responsibility for the

93a
September 24 Attack. (Opp. at 19-20.) While admitting
to a violent attack on innocents typically is detrimental to a declarant’s interests, the interests and motives of terrorists are far from typical. “Under the perverse assumptions of terrorists, an armed attack on civilians reflects glory. Taking ‘credit’ for such an attack
is deemed a benefit, not a detriment, and is not reliable under the circumstances.” Gill v. Arab Bank, PLC,
893 F. Supp.2d 542, 569 (E.D.N.Y. 2012). As Plaintiffs’
experts explain in detail, Hamas actively seeks publicity for its claims of responsibility for attacks against
Israelis as part of its propaganda. Thus, in this instance, Hamas’ claims of responsibility were not
against its interest as an organization such that Hamas only would have made them if it believed them to
be true.
Plaintiffs next feebly assert that the claims of responsibility are admissible under the business records
exception. (Opp. at 20.) Under Federal Rule of Evidence 803(6), records kept in the course of a regularly
conducted business activity, if it was the regular practice of that business to make the record, may be admitted as exceptions to hearsay, unless the source of information or the method or circumstances of preparation indicate lack of trustworthiness. For the reasons
stated above, the Court rejects Plaintiffs’ argument.
Finally, the Court finds that Plaintiffs are collaterally estopped from arguing that Hamas committed
the January 29, 2004 Bus No. 19 attack (“Bus No. 19
Attack”) because Plaintiffs did not challenge a ruling
in Linde v. Arab Bank, PLC, 97 F. Supp.3d 287, 330
(E.D.N.Y. 2015), which found that the Al-Aqsa Martyrs Brigade (“AAMB”) – and not Hamas – was responsible for the Bus No. 19 Attack.

94a
Collateral estoppel, or issue preclusion, bars the
relitigation of issues actually litigated and decided in
a prior proceeding. Cent. Hudson Gas & Elec. Corp. v.
Empresa Naviera Santa S.A., 56 F.3d 359, 368 (2d Cir.
1995). Four elements must be met for collateral estoppel to apply: (1) the issues of both proceedings must be
identical; (2) the relevant issues actually were litigated and decided in the prior proceeding; (3) there
must have been full and fair opportunity for the litigation of the issues in the prior proceeding; and (4) the
issues were necessary to support a valid and final
judgment on the merits. Id. at 368. Defendant argues,
and Plaintiffs do not dispute, that: (1) the issues of
both proceedings involve Hamas’s responsibility for
the Bus No. 19 Attack; (2) the same plaintiffs were involved in Linde; and (3) the issue actually was litigated to support a valid judgment on the merits.
Plaintiffs argue that Defendant waived collateral
estoppel by failing to raise it in its July 1, 2016 answer.
(Opp. at 23.) Federal Rule of Civil Procedure 8(c) requires parties to raise affirmative defenses, such as estoppel, in the pleadings. Rose v. AmSouth Bank of
Florida, 391 F.3d 63, 65 (2d Cir. 2004). “[T]he purpose
of requiring collateral estoppel to be pled as an affirmative defense ‘is to give the opposing party notice of the
plea of estoppel and a chance to argue, if he can, why
the imposition of an estoppel would be inappropriate.’”
Curry v. City of Syracuse, 316 F.3d 324, 331 (2d Cir.
2003) (quoting Blonder–Tongue Labs. v. Univ. Of Ill.
Found., 402 U.S. 313, 350 (1971)). The Second Circuit
has recognized that “waiver of an unpleaded defense
may not be proper where the defense is raised at the
first pragmatically possible time and applying it at

95a
that time would not unfairly prejudice the opposing
party.” Rose, 391 F.3d at 65.
Although Defendant did not add collateral estoppel to its amended answer of July 1, 2016, Plaintiffs
were on notice of Defendant’s collateral estoppel defense and Plaintiffs had the opportunity to respond.
Plaintiffs do not argue, nor can they, that they were
unfairly prejudiced by Defendant’s failure to raise collateral estoppel in its amended answer. See Curry v.
Syracuse, 316 F.3d at 331 (finding that the district
court did not abuse its discretion in permitting a collateral estoppel defense that was raised for the first
time in the reply memorandum to the summary judgment motion because plaintiff was given leave, and additional time, to file a sur-reply in which plaintiff opposed the application of collateral estoppel. The court
reasoned, “if the primary purpose of requiring collateral estoppel to be pled as an affirmative defense is
providing notice and an opportunity to respond, that
purpose was served in the instant case.”)
Plaintiffs next argue that, because their settlement in Linde “tabled” their motion for reconsideration of Judge Cogan’s decision concerning Hamas’s involvement in the Bus No. 19 Attack, Judge Cogan’s
ruling is “factually disputed” and “not now appealable.” (Opp. at 24.)
The Court is not persuaded. Plaintiffs cite no case
law supporting their position that a ruling subject to a
motion for reconsideration has no preclusive effect.
Plaintiffs voluntarily “tabled” the motion for reconsideration when they settled the Linde case, rather than
wait for the adjudication of that motion. Plaintiffs cannot exploit the timing of settlement to avoid issue preclusion.

96a
Furthermore, Plaintiffs’ argument that Judge
Cogan’s ruling is not final because it is not appealable
contradicts controlling case law and thus fails. In
Lummus Co. v. Commonwealth Oil Ref. Co., 297 F.2d
80, 89 (2d Cir. 1961), the Second Circuit, in examining
whether a nonfinal decision under 28 U.S.C. § 1291 is
subject to issue preclusion, reasoned:
‘final’ in the sense of precluding further litigation of the same issue, turns upon such factors
as the nature of the decision (i.e., that it was
not avowedly tentative), the adequacy of the
hearing, and the opportunity for review. ‘Finality’ in the context here relevant may mean
little more than that the litigation of a particular issue has reached such a stage that a
court sees no really good reason for permitting it to be litigated again.
Id. See also Metromedia Co. v. Fugazy, 983 F.2d 350,
366 (2d Cir. 1992) (“As to the need for finality of decision, collateral estoppel, unlike appealability under 28
U.S.C. § 1291 (1988), does not require a judgment
which ends the litigation and leaves nothing for the
court to do but execute the judgment. Rather the concept of finality for collateral estoppel purposes includes many dispositions which, though not final in
that sense, have nevertheless been fully litigated.”)
(quoting Zdanok v. Glidden Company, Durkee Famous
Foods Division, 327 F.2d 944, 955 (2d Cir. 1964)); Kurlan v. C.I.R., 343 F.2d 625, n.1 (2d Cir. 1965) (“general
expressions that only final judgments can ever have
collateral estoppel effect are considerably overstated.”); Rosen v. Paul, Hastings, Janofsky & Walker
LLP, No. 05 CIV. 4211 (LAK), 2005 WL 1774126, at *5
(S.D.N.Y. July 28, 2005) (finding that collateral

97a
estoppel precluded plaintiff from arguing that the
state court lacked jurisdiction to confirm an arbitration award merely because plaintiff had moved for reconsideration of the arbitration award in the arbitration forum).
Plaintiffs next argue that collateral estoppel
should not apply because Plaintiffs’ claims “changed
dramatically when JASTA added 18 U.S.C. § 2333(d)
to the ATA.” (Opp. at 24-25.) Section 2333(d) adds a
secondary liability provision to the ATA, which reads
as follows:
In an action under subsection (a) for an injury
arising from an act of international terrorism
committed, planned, or authorized by an organization that had been designated as a foreign terrorist organization under section 219
of the Immigration and Nationality Act (8
U.S.C. 1189), as of the date on which such act
of international terrorism was committed,
planned, or authorized, liability may be asserted as to any person who aids and abets,
by knowingly providing substantial assistance, or who conspires with the person who
committed such an act of international terrorism.
Plaintiffs argue that because Judge Cogan only
ruled on whether Hamas committed the Bus No. 19 Attack, and not whether Hamas committed, planned, or
authorized the Bus No. 19 Attack, collateral estoppel
is not appropriate.
Plaintiffs misread the statute. Section 2333(d)
creates a cause of action for injuries arising from terrorism committed, planned, or authorized by a foreign

98a
terrorist organization against any person who aids
and abets or conspires with the person who committed
the terrorist act. By the plain language of the statute,
§ 2333(d) does not create liability against a person who
aids and abets or conspires with the person who
merely authorized (rather than committed) the terrorist act, as Plaintiffs suggest.
Accordingly, summary judgment is granted in favor of the Defendant for the January 29, 2004 Bus No.
19 Attack and for the September 24 Attack, but there
is sufficient admissible evidence for a jury to conclude
that Hamas was responsible for the other sixteen attacks.
III. § 2339C Claims
Defendant argues that the third claims of relief in
Weiss and Applebaum should be dismissed in part because § 2339C was enacted after the attacks occurring
on December 1, 2001, March 7, 2002, March 27, 2002,
May 7, 2002, and June 18, 2002, and it cannot be applied retroactively. (Mot. at 25.) Plaintiffs fail to address this argument. The Court agrees with Defendant.
Public Law 107-197 provided that all parts of
§ 2339C would take effect between June and July
2002. Pub. L. 107-197, Title II, § 203, June 25, 2002,
116 Stat. 727. “Statutes are disfavored as retroactive
when their application would impair rights a party
possessed when he acted, increase a party’s liability
for past conduct, or impose new duties with respect to
transactions already completed.” Fernandez-Vargas v.
Gonzales, 548 U.S. 30, 37 (2006). “It has become a rule
of general application that a statute shall not be given

99a
retroactive effect unless such construction is required
by explicit language or by necessary implication.” Id.
Congress has not explicitly made § 2339C retroactive, nor is a retroactive construction necessary. Thus,
to the extent that Plaintiffs’ claims are predicated on
conduct by Defendant that allegedly violated § 2339C,
those claims are dismissed. See Owens v. BNP Paribas
S.A., 2017 WL 394483, at *9 (D.D.C. Jan. 27, 2017)
(“[T]o the extent that plaintiffs raise a claim for primary liability based on an underlying violation of
§ 2339C, this claim is also dismissed, as the enactment
of § 2339C in 2002 post-dates the relevant conduct
here leading up to the 1998 embassy bombings.”). See
also Boim v. Holy Land Found. for Relief & Dev., 549
F.3d 685, 691 (7th Cir. 2008) (holding that, to state a
§ 2333 claim predicated on a violation of § 2339A, the
defendant must have provided material support “between the effective date of section 2339A and [Plaintiff’s] killing.”).
CONCLUSION
For the foregoing reasons, Defendant’s summary
judgment motion is denied to the extent that: (1) Second Circuit case law on proximate cause under the
ATA does not require judgment as a matter of law in
favor of Defendant; (2) there is sufficient admissible
evidence for a reasonable jury to conclude that the 13
Charities are alter egos of Hamas or under Hamas’
control; (3) Shaked may testify to put factual evidence
already admitted into context to establish Hamas’ responsibility for an attack, but not to establish the basic
facts in the first instance; (4) Kohlmann may testify as
an expert about Hamas’ background and use of propaganda, but his summaries of the attacks and recitation

100a
of the presented evidence, without using any expertise, is not admissible; (5) there is sufficient admissible
evidence for a reasonable jury to conclude that Hamas
committed sixteen of the eighteen attacks; (6) Israeli
military court convictions are admissible; and (7) eyewitness accounts are admissible. Defendants’ summary judgment motion is granted to the extent that:
(1) Plaintiffs have not provided sufficient admissible
evidence of Hamas’ responsibility for the September
24 attack; (2) Hamas’ claims of responsibility, standing alone, are not admissible; (3) Plaintiffs are collaterally estopped from arguing that Hamas committed
the Bus No. 19 Attack; and (4) Plaintiffs’ § 2339C
claims are dismissed. Plaintiffs’ remaining claims may
proceed.
SO ORDERED.
Dated: Brooklyn, New York
September 30, 2017
s/
DORA L. IRIZARRY
Chief Judge

101a
APPENDIX D
________________________________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
________________________________
No. 05-CV-4622 (DLI) (RML)
________________________________
TZVI WEISS, et al.,
Plaintiffs,
v.
NATIONAL WESTMINSTER BANK PLC,
Defendant.
________________________________
No. 07-cv-916 (DLI) (RML)
________________________________
NATAN APPLEBAUM, et al.,
Plaintiffs,
v.
NATIONAL WESTMINSTER BANK PLC,
Defendant.
________________________________
OPINION AND ORDER
________________________________
DORA L. IRIZARRY, U.S. District Judge:
This is a consolidated action pursuant to the civil
liability provision of the Antiterrorism Act of 1992
(“ATA”), 18 U.S.C. § 2333(a) (“§ 2333(a)”). Plaintiffs,
approximately 200 individuals and estates of people
who are deceased (collectively, “Plaintiffs”), seek to recover damages from Defendant National Westminster

102a
Bank PLC (“Defendant”) in connection with 15 attacks
in Israel and Palestine allegedly perpetrated by Hamas. (See generally Fifth Am. Compl., (“Weiss FAC”),
Weiss Dkt. Entry No. 141; Compl. (“Applebaum
Compl.”), Applebaum Dkt. Entry No. 1).1 Specifically,
Plaintiffs allege that Defendant is civilly liable pursuant to the ATA’s treble damages provision for: (1) aiding and abetting the murder, attempted murder, and
serious physical injury of American nationals outside
the United States in violation of 18 U.S.C. § 2332; (2)
knowingly providing material support or resources to
a Foreign Terrorist Organization (“FTO”) in violation
of 18 U.S.C. § 2339B; and (3) willfully and unlawfully
collecting and transmitting funds with the knowledge
that such funds would be used for terrorist purposes
in violation of 18 U.S.C. § 2339C. (Weiss FAC ¶¶ 57997; Applebaum Compl. ¶¶ 426-44.) Defendant moves
for dismissal of this action for lack of personal jurisdiction pursuant to Rule 12(b)(2) of the Federal Rules of
Civil Procedure, or in the alternative, for summary
judgment pursuant to Rule 56. (See Def.’s Mem. of Law
in Supp. of Mot. to Dismiss (“Def.’s Mem.”), Weiss Dkt.
Entry No. 327.) Plaintiffs oppose. (See Pls.’ Mem. of
Law in Opp’n to Mot. to Dismiss (“Pls.’ Opp’n”), Weiss
Dkt. Entry No. 329.) For the reasons set forth below,
Defendant’s motion is denied in its entirety.

1

Citations to the “Weiss Dkt.” are to docket 05-cv-4622. Citations to the “Applebaum Dkt.” are to 07-cv-916. Where the same
document has been filed on both dockets, the Court cites to the
Weiss Docket only, as it is the lead case.

103a
BACKGROUND2
I.

The Parties

Plaintiffs’ claims arise from 15 attacks that occurred in Israel and Palestine between approximately
2002 and 2004, which allegedly were perpetrated by
Hamas.3 See Weiss v. Nat’l Westminster Bank PLC
(“Weiss II”), 936 F. Supp. 2d 100, 103 (E.D.N.Y. 2013).
Plaintiffs comprise approximately 200 United States
nationals who were injured in those attacks, the estates of persons killed in those attacks, and/or family
members of persons killed or injured in those attacks.
Id.
Defendant is a financial institution incorporated
and headquartered in the United Kingdom. Id. At the
2

The Court assumes familiarity with the facts underlying
this action, which are summarized more fully in the Court’s
March 28, 2013 Opinion and Order on Defendant’s motion for
summary judgment. See Weiss v. Nat’l Westminster Bank PLC
(“Weiss II”), 936 F. Supp. 2d 100 (E.D.N.Y. 2013), vacated 768
F.3d 202 (2d Cir. 2014). The facts recounted herein are drawn
from the statement of facts set forth in that Opinion and Order,
affidavits and/or testimony submitted in connection with the motions for summary judgment that were the subject of that Order,
the pleadings, and certain materials submitted by the parties in
connection with the instant motion. See Baron Philippe de Rothschild, S.A. v. Paramount Distillers, Inc., 923 F. Supp. 433, 436
(S.D.N.Y. 1996) (“Matters outside the pleadings, however, may
also be considered in resolving a motion to dismiss for lack of personal jurisdiction pursuant to Fed. R. Civ. P. 12(b)(2) without converting it into one for summary judgment.”) (citing Visual Sciences, Inc. v. Integrated Comms., Inc., 660 F.2d 56, 58 (2d Cir.
1981)).
3

Hamas is an acronym for “Harakat al-Muqawama al-Islamiyya,” also known as the “Islamic Resistance Movement.” (Weiss
FAC. ¶ 1 n.1.)

104a
time of the events giving rise to this action, Defendant
allegedly conducted business in the United States
through an office in Houston, Texas and certain “agencies” in Connecticut and New York, including a branch
location in New York City. (Defendant’s “New York
Branch”).4 Id. Defendant purportedly used its New
York Branch as an intermediary bank to execute U.S.
Dollar denominated transactions requested by its customers. (See Dep. Tr. of Neil Trantum (“Trantum
Dep.”) at 90:4-5, Ex. 97 to the Decl. of Valerie Schuster
in Supp. of Def.’s Mot. for Summary Judgment, Weiss
Dkt. Entry No. 267; see also Tr. of Oct. 8, 2015 Oral
Argument (“Tr.”) at 4:19-7:8 (“When the customers
asked for funds to be denominated in dollars, it was
necessary to go through this correspondent banking
track because [Defendant] didn’t deal in dollars directly, it dealt in dollars through its New York
[B]ranch.”))
Among other customers, Defendant maintained
bank accounts in London for Interpal, a/k/a the Palestine Relief & Development Fund, a/k/a Palestinians
Relief & Development Fund (“Interpal”), a non-profit
organization registered in the United Kingdom and
self-described as providing humanitarian aid to various charitable organizations throughout Jordan, Lebanon, and the Palestinian territories. See Weiss II, 936
F. Supp. 2d at 104. During the time Interpal had accounts with Defendant, it transferred money to certain
charitable organizations (each a “Charity,” and

4

The parties do not clearly elucidate the corporate relationship between Defendant and its New York location. Accordingly,
the Court uses the term “New York Branch” as a matter of convenience only.

105a
collectively the “Charities”) that Plaintiffs contend actually were front organizations for Hamas. See Id. at
104, 111. Plaintiffs allege that Defendant aided Hamas by maintaining Interpal’s accounts and sending
money to the Charities on Interpal’s behalf, despite
knowing that Interpal supported Hamas. See Id. at
111. While a number of the transfers Defendant made
to the Charities on behalf of Interpal never went
through the United States, the parties agree that Defendant executed 196 such transfers through its New
York Branch (or otherwise through correspondent
bank accounts that Defendant maintained in New
York) (collectively, the “New York Transfers”), each in
response to a specific request by Interpal to send funds
in U.S. Dollars. (See Oct. 16, 2015 Osen Ltr., Weiss
Dkt. Entry No. 335.) Each New York Transfer was initiated by Defendant and routed through a correspondent bank account in New York, then was directed for
the benefit of the respective Charity to a separate correspondent account maintained by that Charity’s bank
in New York. (See Def.’s Mem. at 5-6; see also Tr. at
4:23-5:13.)
II. Procedural History
In September 2005 and March 2007, respectively,
the Weiss and Applebaum Plaintiffs brought separate
actions against Defendant in this Court. The initial
complaints, and every amended complaint thereafter,
alleged that Defendant is subject both to general personal jurisdiction (“general jurisdiction”) and specific
personal jurisdiction (“specific jurisdiction”) in the
United States. (See Weiss FAC ¶ 4; Applebaum Compl.
¶ 4.) The Weiss Plaintiffs served Defendant with process at its agencies and/or offices in New York, Texas,
and Connecticut in September and October 2005.

106a
(Weiss Dkt Entries Nos. 3, 7, 8.) Thereafter, Defendant
moved for dismissal of the Weiss action pursuant to
Rule 12(b)(6), declining to contest personal jurisdiction
at that time. (See Mot. to Dismiss, Weiss Dkt. Entry
No. 38.) The late Honorable Charles P. Sifton, then
presiding, denied the motion to dismiss with respect to
Plaintiffs’ claims that Defendant provided material
support to an FTO and knowingly transmitted funds
that financed terrorism, but dismissed Plaintiffs’ aiding and abetting claim, with leave to amend. Weiss v.
Nat’l Westminster Bank PLC (“Weiss I”), 453 F. Supp.
2d 609 (E.D.N.Y. 2006). In the Applebaum action, Defendant voluntarily accepted service, (see Applebaum
Dkt. Entry No. 6), and thereafter filed a motion to dismiss. (Applebaum Dkt. Entry No. 13.) The parties subsequently resolved that motion by stipulation, absent
any objection by Defendant as to personal jurisdiction.
(See Applebaum Dkt. Entry Nos. 26, 28.) By order
dated December 27, 2007, the Court formally consolidated the Weiss and Applebaum actions.
Extensive merits discovery between the parties
ensued. On March 22, 2012, Defendant moved for
summary judgment dismissing the consolidated action, but again declined to raise a defense of lack of
personal jurisdiction. (See Weiss Dkt. Entry No. 264.)
By Opinion and Order dated March 28, 2013, the
Court granted summary judgment in favor of Defendant on each claim and dismissed the action in its entirety, finding that Plaintiffs had failed to establish
that a genuine issue of material fact existed as to the
required scienter element of their claims. Weiss II, 936
F. Supp. 2d at 120. Plaintiffs subsequently appealed
the dismissal to the Second Circuit Court of Appeals.
On September 22, 2014, the Second Circuit vacated

107a
this Court’s decision and remanded the consolidated
action for further proceedings, ruling that there were
triable issues of fact as to whether Defendant’s
knowledge in transferring funds on behalf of Interpal
satisfied the statutory scienter requirements under
§ 2333(a). Weiss v. Nat’l Westminster Bank PLC
(“Weiss III”), 768 F.3d 202 (2d Cir. 2014.)
Upon remand, Defendant notified the Court that,
in light of the Supreme Court’s decision in Daimler AG
v. Bauman, 134 S. Ct. 746 (2014), it intended to assert
a personal jurisdiction defense for the first time in
these proceedings. (See Oct. 17, 2014 Friedman Ltr.,
Weiss Dkt. Entry No. 316.) Decided in January 2014,
Daimler addressed the extent to which a forum State
may exercise general jurisdiction over a foreign corporation. Revisiting its past personal jurisdiction jurisprudence, the Supreme Court clarified that a corporation is subject to general jurisdiction in a forum State
only where its contacts are “so continuous and systematic,” judged against the corporation’s nationwide and
worldwide activities, that it is “essentially at home” in
that State. Daimler, 134 S. Ct. at 761 & n.20 (quoting
Goodyear Dunlop Tires Operations, S.A. v. Brown, 131
S. Ct. 2846, 2851 (2011)) (internal quotation marks
omitted). Aside from the “exceptional case,” the Supreme Court explained, a corporation is at home and
subject to general jurisdiction only in a State that represents its formal place of incorporation or principal
place of business. See Id. & nn.19-20. The Supreme
Court emphasized that the “exceptional case” exists
only in rare and compelling circumstances like those
in Perkins v. Benguet Consol. Mining Co., 342 U.S. 437
(1952), where a foreign corporation maintained a surrogate headquarters in Ohio during a period of

108a
wartime occupation in its native Philippines. See Id.
at 755-56 & nn.8, 19.
Citing Daimler, (see Feb. 6, 2014 Friedman Ltr.),
Defendant filed the instant motion to dismiss this action pursuant to Rule 12(b)(2) of the Federal Rules of
Civil Procedure. In the alternative, Defendant contends that it is entitled to summary judgment dismissing Plaintiffs’ claims because, at most, it is subject to
personal jurisdiction in New York only with respect to
the 196 transfers it executed on behalf of Interpal using correspondent accounts in New York. (See Def.’s
Mem. at 18-24.) Renewing arguments from its prior
summary judgment motion, Defendant contends that
no reasonable juror could find that it possessed the
requisite scienter to establish liability under the ATA
when making those New York Transfers, nor could a
reasonable juror find that its activities as of the date
of those transfers proximately caused Plaintiffs’ injuries.
Plaintiffs oppose the instant motion, arguing as a
threshold matter that Defendant waived a personal jurisdiction defense by failing to raise one in its prior
motions to dismiss the Weiss and Applebaum actions,
then actively litigating this case for several years. (See
Pl.s’ Opp’n at 3-10.) Plaintiffs further argue that, even
if the Court declines to find that Defendant waived its
personal jurisdiction defense, it still may exercise specific jurisdiction over Defendant based on its contacts
with New York and the broader United States, including most significantly the New York Transfers. (See Id.
at 12-25.)
On October 8, 2015, oral argument was held on
Defendant’s motion. (See generally Tr.) Following argument, at the Court’s request, the parties provided

109a
additional information concerning the extent of the
transfers Defendant made to the Charities on behalf
of Interpal, and the portion or percentage of those
transfers that went through New York or the broader
United States. (See Weiss Dkt. Entry Nos. 335, 336.)
This decision followed.
DISCUSSION
I.

Waiver

Taken together, Rules 12(g)(2) and 12(h)(1) of the
Federal Rules of Civil Procedure provide that a party
that moves to dismiss an action, but omits an available
personal jurisdiction defense, forfeits that defense.
Even a party that complies with those rules may forfeit the right to contest personal jurisdiction if it unduly delays in asserting that right, or acts inconsistently with it. See, e.g., Insur. Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee, 456 U.S. 694, 70204 (1982); Hamilton v. Atlas Turner, Inc., 197 F.3d 58,
61-62 (2d Cir. 1999). However, an exception exists
where a defendant seeks to assert a personal jurisdiction defense that previously was not available, as it is
well recognized that “a party cannot be deemed to have
waived objections or defenses which were not known
to be available at the time they could first have been
made.” Holzsager v. Valley Hosp., 646 F.2d 792, 796
(2d Cir. 1981).
Here, Plaintiffs argue that Defendant waived its
personal jurisdiction defense by omitting that defense
from its prior motions to dismiss the Weiss and Applebaum actions, then actively litigating this case over
the course of several years. (See Pl.s’ Opp’n at 3-10.)
However, Plaintiffs’ argument is foreclosed by Gucci
America, Inc. v. Weixing Li (“Gucci II”), 768 F.3d 122

110a
(2d Cir. 2014). In Gucci II, non-party Bank of China
appealed from an order of the district court compelling
it to comply with an asset freeze injunction and certain
disclosures. For purposes of that order, the district
court assumed that Bank of China was subject to general jurisdiction in New York because it maintained
branch locations there. See Gucci Am. Inc., v. Weixing
Li (“Gucci I”), 2011 WL 6156936, at *4 n.6 (S.D.N.Y.
Aug. 23, 2011), vacated 768 F.3d 122. While the appeal
was pending, the Supreme Court decided Daimler,
prompting Bank of China to assert an objection that it
was not subject to general jurisdiction in New York.
That objection ordinarily would have been waived because it was not raised in the district court. However,
the Second Circuit declined to find waiver, explaining
that Bank of China’s personal jurisdiction objection
was not available until Daimler cast doubt upon, if not
outright abrogated, controlling precedent in this Circuit holding that a foreign bank with a branch in New
York was subject to general jurisdiction here. See Id.
at 135-36 (citing Wiwa v. Royal Dutch Petroleum Co.,
226 F.3d 88, 93-95 (2d Cir. 2000)) (emphasis in original).
The same conclusion is compelled in this case. Under controlling precedent in this Circuit prior to Daimler, Defendant was subject to general jurisdiction in
New York because it had a New York Branch through
which it routinely conducted business. Gucci II expressly acknowledged that, in the wake of Daimler,
contact of such a nature with a forum State, absent
more, is insufficient to sustain general jurisdiction
over a foreign corporation. See Gucci II, 768 F.3d at
134-35. Accordingly, just as the Daimler ruling permitted Bank of China to raise its personal jurisdiction

111a
objection in Gucci II, it similarly permits Defendant to
assert its personal jurisdiction defense at this juncture. It follows that Defendant did not waive that defense, having asserted it promptly after Daimler first
made it available.
Other courts in this Circuit, relying on the Second
Circuit’s application of Daimler in Gucci II, have held
similarly. See, e.g., In re LIBOR-Based Fin. Instruments Antitrust Litig., 2015 WL 4634541, at *30-31
(S.D.N.Y. Aug. 4, 2015); 7 West 57th St. Realty Co.,
LLC v. Citigroup, Inc., 2015 WL 1514539, at *5-7
(S.D.N.Y. Mar. 31, 2015). Plaintiffs do not provide any
valid reason why this Court should depart from those
decisions, or ignore the clear guidance of Gucci II. At
best, Plaintiffs argue that, if the Supreme Court narrowed the law on general jurisdiction, it did so three
years before Daimler in Goodyear, 131 S. Ct. 2846, in
which case Defendant waived its personal jurisdiction
defense by waiting too long to assert it. (See Pl.s’ Opp’n
at 7-10.) Plaintiffs’ argument finds limited support
outside this Circuit. See, e.g., Am. Fidelity Assur. Co.
v. Bank of N.Y. Mellon, 2014 WL 4471606 (W.D. Okla.
Sept. 10, 2014), aff’d 2016 WL 231474 (10th Cir. 2016);
Gilmore v. Palestinian Interim Self-Government Auth.,
8 F. Supp. 3d 9 (D.D.C. June 23, 2014). However, the
Court is not aware of any authority in this Circuit
holding that Goodyear, rather than Daimler, narrowed
the law on general jurisdiction. To the contrary, the
issue was briefed in Gucci II and the Second Circuit
ultimately held that Daimler effected the relevant
change in the law.5 See Gucci II, 768 F.3d at 135-36;
5

See, e.g., Letter Brief of Bank of China et al., Gucci Am., Inc.
v. Bank of China, 2014 WL 1873367, at *3 (2d Cir. Apr. 8, 2014).

112a
see also 7 West 57th St., 2015 WL 1514539, at *6-7 (rejecting argument that Goodyear altered the law on
general jurisdiction, as “Gucci America unequivocally
holds . . . that Daimler effected a change in the law.”)
The Second Circuit recently reaffirmed that holding in Brown v. Lockheed Martin Corp., 2016 WL
641392, at *6-7 (2d Cir. Feb. 18, 2016). There, the Second Circuit explained that “Goodyear seemed to have
left open the possibility that contacts of substance, deliberately undertaken and of some duration, could
place a corporation ‘at home’ in many locations.” Id. at
*7. However, Daimler all but eliminated that possibility, “considerably alter[ing] the analytic landscape for
general jurisdiction” by more narrowly holding that,
aside from the truly exceptional case, a corporation is
at home and subject to general jurisdiction only in its
place of incorporation or principal place of business.
Id.; see also Daimler, 134 S. Ct. at 760 (“Goodyear did
not hold that a corporation may be subject to general
jurisdiction only in a forum where it is incorporated or
has its principal place of business”) (emphasis in original). As Defendant relies on that newly articulated
principle of law for its personal jurisdiction defense, it
reasonably could not have raised that defense prior to
Daimler.
Plaintiffs also erroneously contend that Defendant actually contested personal jurisdiction in this
case as early as 2006, or at least could have, despite
now asserting that its personal jurisdiction defense
only became available after Daimler. (Pl.s’ Opp’n at 67.) Plaintiffs base their argument on representations
by Defendant that it does not conduct business in the
United States, which Defendant made in: (1) a December 2006 submission to the magistrate judge; and (2)

113a
Defendant’s November 2006 answer to the second
amended complaint. (See Ex. A to the Oct. 16, 2015
Osen Ltr.) Upon review, the Court finds that neither
filing reasonably can be construed as asserting an objection as to personal jurisdiction.
In particular, in its 2006 submission to the magistrate judge, Defendant emphasized its lack of business
activity in the United States only in the context of arguing that it would be unduly burdensome to disclose
business records maintained in the United Kingdom.
(See Def.’s Opp’n to Pl.s’ Discovery Motion, Weiss Dkt.
Entry No. 83, at 20.) Although the magistrate judge’s
order on the discovery motions at issue noted, in a footnote, that Defendant had waived a personal jurisdiction defense by not raising one in its answer, see Weiss
v. Nat’l Westminster Bank PLC, 242 F.R.D. 33, 36 n.5
(E.D.N.Y. 2007), the Court declines to treat that ruling
as the law of the case in light of the intervening change
in the law effected by Daimler. See Johnson v. Holder,
564 F.3d 95, 99 (2d Cir. 2009) (“We may depart from
the law of the case for cogent or compelling reasons
including an intervening change in law . . .”) (internal
quotation marks and citation omitted).
Plaintiffs’ argument that Defendant could have
asserted a personal jurisdiction defense earlier in this
case fares no better. The crux of Plaintiffs’ argument
is that, if Defendant really conducted no business
whatsoever in the United States, as it represented in
2006, then Defendant had a valid basis to contest personal jurisdiction even under pre-Daimler precedent.
Nevertheless, as discussed, any argument by Defendant prior to Daimler that it was not subject to personal
jurisdiction in New York would have been futile because Defendant had a branch in New York during the

114a
timeframe relevant to the Court’s jurisdictional inquiry. See Gucci II, 768 F.3d at 135-36; see also Porina
v. Marward Shipping Co., Ltd., 521 F.3d 122, 128 (2d
Cir. 2008) (“In general jurisdiction cases, we examine
a defendant’s contacts with the forum state over a period that is reasonable under the circumstances—up
to an including the date the suit was filed.”) The Court
declines to find that Defendant, in failing to raise a futile argument, waived its personal jurisdiction defense.
Finally, Plaintiffs argue in passing that, even if an
objection as to general jurisdiction was unavailable to
Defendant prior to Daimler, Defendant still could have
challenged the existence of specific jurisdiction earlier
in this case. However, any challenge to that effect
would have been purely academic because, regardless
of the outcome, Defendant still would have been subject to general jurisdiction in New York under existing
law at the time. To the extent Defendant failed to contest specific jurisdiction at an earlier time, the Court
is satisfied it was for that reason. Accordingly, the
Court concludes that Defendant did not waive its personal jurisdiction defense.
II. Personal Jurisdiction
A. Legal Standard
Once personal jurisdiction has been challenged,
“the plaintiff bears the burden of establishing that the
court has jurisdiction over the defendant.” Bank Brussels Lambert v. Fiddler Gonzalez & Rodriguez, 171
F.3d 779, 784 (2d Cir. 1999). On a motion to dismiss
for lack of personal jurisdiction, the plaintiff need only
make a prima facie showing that jurisdiction exists to
satisfy that burden. See Dorchester Fin. Secs., Inc. v.

115a
Banco BRJ, S.A., 722 F.3d 81, 84 (2d Cir. 2013).
Where, as here, discovery regarding a defendant’s forum contacts has been conducted but no evidentiary
hearing has been held, the “plaintiff[’s] prima facie
showing, necessary to defeat a jurisdiction testing motion, must include an averment of facts that, if credited by [the ultimate trier of fact], would suffice to establish jurisdiction over the defendant.”6 Chloé v.
Queen Bee of Beverly Hills, LLC, 616 F.3d 158, 163 (2d
Cir. 2010) (quoting Metro. Life Ins. Co. v. RobertsonCeco Corp., 84 F.3d 560, 567 (2d Cir. 1996)) (alterations in original). The Court must “construe the pleadings and affidavits in the light most favorable to plaintiffs, resolving all doubts in their favor.” Porina, 521
F.3d at 126. However, the Court is not to “draw argumentative inferences in the plaintiff’s favor,” Robinson
v. Overseas Military Sales Corp., 21 F.3d 502, 507 (2d
Cir. 1994) (internal quotation marks and citation
omitted), or “accept as true a legal conclusion couched
as a factual allegation.” Jazini v. Nissan Motor Co.,
Ltd., 148 F.3d 181, 185 (2d Cir. 1998) (quoting Papasan v. Allain, 478 U.S. 265, 286 (1986)).
To make a prima facie showing that personal jurisdiction exists, a plaintiff must demonstrate: “(1)
proper service of process upon the defendant; (2) a
statutory basis for personal jurisdiction over the defendant; and (3) that [the court’s] exercise of jurisdiction over the defendant is in accordance with
6

No jurisdictional discovery has been ordered in this matter.
However, in the course of merits discovery, Plaintiffs sought and
obtained extensive disclosure concerning the relevant jurisdictional facts. As such, the parties agree that further discovery directed to the jurisdictional facts would be unnecessary. (See Tr.
at 15:22-16:1; see also Def.’s Mem. at 7 n.8.)

116a
constitutional due process principles.” Stroud v. Tyson
Foods, Inc., 91 F. Supp. 3d 381, 385 (E.D.N.Y. 2015)
(citing Licci ex rel. Licci v. Lebanese Canadian Bank,
SAL (“Licci I”), 673 F.3d 50, 59-60 (2d Cir. 2012)).
Here, because Defendant does not dispute that it
properly was served with process, the Court’s analysis
primarily is a two-part inquiry to determine whether
there is a statutory basis for jurisdiction, and, if so,
whether due process is satisfied.
In conducting this analysis, the Court distinguishes between general and specific jurisdiction.
General or “all-purpose” jurisdiction is “based on the
defendant’s general business contacts with the forum
state and permits a court to exercise its power in a case
where the subject matter of the suit is unrelated to
those contacts.” Metro. Life, 84 F.3d at 568 (quoting
Helicopteros Nacionales de Colombia, S.A. v. Hall, 466
U.S. 408, 414-16 & nn.8-9 (1984)). In contrast, specific
or “case-linked” jurisdiction depends “on the relationship among the defendant, the forum, and the litigation,” Walden v. Fiore, 134 S. Ct. 1115, 1121 (2014),
and is said to exist where “a State exercises personal
jurisdiction over a defendant in a suit arising out of or
related to the defendant’s contacts with the forum.”
Metro. Life, 84 F.3d at 567-68 (quoting Helicopteros,
466 U.S. at 414-16 & nn.8-9).
B. General Jurisdiction
A court may exercise general jurisdiction over a
foreign corporation to hear any and all claims against
it when the corporation’s affiliations with the forum
State are so continuous and systematic as to render it
essentially at home there. Goodyear, 131 S. Ct. at 2851
(citing Int’l Shoe Co. v. Washington, 326 U.S. 310, 317

117a
(1945)). Here, it is undisputed that New York is neither Defendant’s principal place of business nor its
place of incorporation. (See Weiss FAC ¶ 439; Applebaum Compl. ¶ 288.) Therefore, Defendant is not at
home in New York under either of the two paradigm
bases for general jurisdiction discussed in Daimler.
See Daimler, 134 S. Ct. at 760. It follows that exercising general jurisdiction over Defendant would not
comport with the principles of due process articulated
in Daimler unless this is an exceptional case, akin to
Perkins, 342 U.S. 437, where Defendant’s contacts
with New York are so substantial and of such a nature
as to render it essentially at home there. See Daimler,
134 S. Ct. at 761 n.19.
The Court has little difficulty concluding that the
facts here do not present an exceptional case. Defendant’s alleged contacts with New York are nowhere
near as substantial as those in Perkins, where the defendant corporation maintained a surrogate headquarters in Ohio, the forum State. Id. By contrast, Defendant in this case merely had a New York Branch,
which it used just for that discrete element of its
worldwide operations that required clearing U.S. Dollar transfers. See Brown, 2016 WL 641392, at *8 (for
purposes of a general jurisdiction analysis, a corporation’s in-forum conduct must be assessed “in the context of the company’s overall activity” throughout the
United States and the world) (citing Daimler, 134
S. Ct. at 762 n.20) (emphasis omitted). In fact, such
contacts with New York are even more attenuated
than those maintained by Bank of China in Gucci II,
which the Second Circuit deemed insufficient to permit the exercise of general jurisdiction. See Gucci II,
768 F.3d at 135.

118a
Moreover, Defendant’s New York contacts fall far
short of the contacts maintained with Connecticut by
Lockheed Martin (“Lockheed”), the corporate defendant that was the subject of the Second Circuit’s recent
decision in Brown. For example, Lockheed continuously maintained a physical presence in Connecticut
for over 30 years, ran operations out of as many as four
leased locations in the State, employed up to 70 workers there, and derived about $160 million in revenue
from its Connecticut-based work during the relevant
timeframe.7 Brown, 2016 WL 641392, at *6-7. Nevertheless, the Second Circuit held that those facts still
did not rise to an exceptional case that would support
general jurisdiction over Lockheed in a forum where it
neither was headquartered nor incorporated. Id. at *79. In reaching its decision, the Second Circuit emphasized that a corporation’s “mere contacts” with such a
forum, “no matter how systematic and continuous, are
extraordinarily unlikely to add up to an exceptional
case.” Id. at *8 (internal quotation marks omitted).

7

Lockheed also was formally registered to do business in Connecticut. Notably, the Second Circuit declined to interpret the
Connecticut business registration statute as requiring foreign
corporations to consent to general jurisdiction as a condition of
registration. Brown, 2016 WL 641392, at *9-18. The Second Circuit further observed that, even if the statute required such consent, it is questionable whether such consent validly could confer
general jurisdiction over a foreign corporation after Daimler. Id.
at *18. Here, even if Defendant’s New York Branch was registered in New York under § 200 of the Banking Law, the Court
declines to find that Defendant consented to general jurisdiction
in New York by virtue of such registration. See 7 West 57th St.,
2015 WL 1514539, at *11 (“The plain language of this provision
limits any consent to personal jurisdiction by registered banks to
specific personal jurisdiction.”) (emphasis in original).

119a
Given the fact that neither Gucci II nor Brown
amounted to an exceptional case, the instant case
clearly is not exceptional either. Accordingly, in light
of Daimler, there is no basis for the Court to exercise
general jurisdiction over Defendant in New York.
C. Specific Jurisdiction Under Rule 4(k)(1)(A)
Rule 4(k)(1)(A) of the Federal Rules of Civil Procedure permits a federal court to “exercise personal jurisdiction to the extent of the applicable [State] statutes.” Peterson v. Islamic Republic of Iran, 2013 WL
1155576, at *11 (S.D.N.Y. Mar. 13, 2013), aff’d 758
F.3d 185 (2d Cir. 2014) (citing Fed. R. Civ. P.
4(k)(1)(A)). Under this rule, a federal court may look
to the long-arm statute of the State in which it sits to
establish a statutory basis for the exercise of personal
jurisdiction over a defendant. Here, Plaintiffs invoke
provisions of New York’s longarm statute, alleging
that Defendant is subject to specific jurisdiction under
New York Civil Practice Law and Rules (“C.P.L.R.”)
§§ 302(a)(1) and (a)(3). (See Pl.s’ Opp’n at 15-17.) Because the Court concludes that C.P.L.R. § 302(a)(1)
(“§ 302(a)(1)”) permits the exercise of specific jurisdiction over Defendant, it does not consider whether jurisdiction also exists under § 302(a)(3).
1.

CPLR § 302(a)(1)

Pursuant to § 302(a)(1), a court may exercise personal jurisdiction over a non-domiciliary that “transacts any business within the state.” N.Y. C.P.L.R.
§ 302(a)(1). This provision confers jurisdiction over a
defendant if two requirements are met. First, the defendant must have transacted business in New York.
Known as the “purposeful availment” prong of
§ 302(a)(1), this requirement calls for a showing that

120a
the defendant “purposefully avail[ed] itself of the privilege of conducting activities within New York . . .
thereby invoking the benefits and protections of its
laws.” Id. at 61 (internal quotation marks and citations omitted). The second requirement, known as the
“nexus” prong of § 302(a)(1), holds that there must be
an “articulable nexus” or “substantial relationship” between the plaintiff’s claim and the defendant’s transaction in New York. See Best Van Lines, Inc. v. Walker,
490 F.3d 239, 246 (2d Cir. 2007) (quoting Henderson v.
INS, 157 F.3d 106, 123 (2d Cir. 1998)).
In Licci v. Lebanese Canadian Bank, SAL (“Licci
II”), 20 N.Y.3d 327 (2012), the New York State Court
of Appeals (“Court of Appeals”) answered questions
certified from the Second Circuit concerning the reach
of § 302(a)(1) in the context of an action, like the instant one, alleging that a foreign bank violated the
ATA by knowingly transferring funds that supported
an FTO. Notably, the defendant bank in Licci II “did
not operate branches or offices, or maintain employees, in the United States.” Id. at 332. Nevertheless, the
Court of Appeals held that the bank transacted business in New York by executing dozens of wire transfers through a correspondent bank account in New
York on behalf of an entity that allegedly served as the
financial arm of an FTO. As the Court of Appeals explained: “[A] foreign bank’s repeated use of a correspondent account in New York on behalf of a client—
in effect, a course of dealing—show[s] purposeful
availment of New York’s dependable and transparent
banking system, the dollar as a stable and fungible
currency, and the predictable jurisdictional and commercial law of New York and the United States.” Id.

121a
at 339 (internal quotations marks and citation omitted).
The Court of Appeals further explained that the
nexus prong of § 302(a)(1) does not demand a causal
connection between the defendant’s New York transaction the plaintiff’s claim, but instead requires only a
“relatedness . . . such that the latter is not completely
unmoored from the former.” Id. at 339. This “relatively
permissive” nexus is satisfied where “at least one element [of the plaintiff’s claim] arises from the [defendant’s] New York contacts.” Id. at 339, 341. The Court
of Appeals held that this requisite nexus was established in Licci II because the defendant bank, in utilizing a correspondent account in New York allegedly
to send money to a terrorist organization, purportedly
violated the very statutes under which the plaintiffs
sued. Id. at 340. Furthermore, the bank did not direct
those funds through New York “once or twice by mistake,” but deliberately and repeatedly used a New
York account allegedly to support the same terrorist
organization accused of perpetrating the attacks in
which the plaintiffs were injured. Id. at 340-41.
Turning to the instant action, Defendant’s relevant New York conduct is even more substantial and
sustained than that of the foreign bank in the Licci
cases (collectively, “Licci”). Whereas the bank in Licci
maintained only a correspondent account as its sole
point of contact in New York, Defendant had a New
York Branch. Defendant routinely conducted business
in New York through a correspondent account it maintained at that branch, utilizing that account to clear
U.S. Dollar transfers requested by its customers. In
doing so, Defendant necessarily availed itself of the
benefits and protections accorded to such transactions

122a
when carried out using New York’s dependable banking system, under the auspices of New York banking
and commercial laws. See Licci II, 20 N.Y.3d at 33940. These facts satisfy the purposeful availment prong
of § 302(a)(1).
With respect to the nexus prong of § 302(a)(1), the
relevant facts further demonstrate a close relatedness
between Plaintiffs’ claims in this action and Defendant’s New York conduct. Most significantly, in executing the New York Transfers, Defendant allegedly used
New York’s banking system to effect the very financial
support of Hamas that is the basis for Plaintiffs’
claims. While the New York Transfers represent only
a subset of the total transfers Defendant made to the
Charities on behalf of Interpal, they integrally constitute part of Defendant’s alleged support of Hamas and
its terrorist activities, including the attacks in which
Plaintiffs were injured. As such, the New York Transfers unquestionably are among the financial services
underlying Plaintiffs’ claims.
That nexus would be too attenuated if, contrary to
the facts alleged here, Defendant routed transfers
through New York just “once or twice by mistake,” or
executed the New York Transfers at a time far removed from the attacks that caused Plaintiffs’ injuries. Licci II, 20 N.Y.3d at 340. However, 196 separate
times, Defendant deliberately routed a transfer
through New York in response to a specific request by
Interpal to transmit funds in U.S. Dollars. Those
transfers by no means were de minimis, representing
as much as $4,345,342.35 in total funds allegedly
transferred to the Charities. (See Oct. 16, 2015 Osen
Ltr.) Furthermore, the first New York Transfer occurred in 1996, while the last New York Transfer

123a
purportedly occurred on August 15, 2003. (See Def.’s
Mem. at 5, 18.) As such, those transfers not only overlapped with the attacks in 2002 through 2004 that
caused Plaintiffs’ injuries, but also occurred at a time
when Defendant allegedly knew that funds it transferred on behalf of Interpal were being used to support
a terrorist organization. (See, e.g., Weiss FAC ¶¶ 550561; Applebaum Compl. ¶¶ 398-407.)
Defendant nevertheless argues that the nexus required by § 302(a)(1) is foreclosed because Plaintiffs
have not proven with respect to any New York Transfer that the beneficiary Charity actually received and
took possession of the underlying funds. (See Def.’s
Mem. at 15-16.) However, it is not Plaintiffs’ burden to
adduce any such proof at this stage. Rather, Plaintiffs
need only plead facts that, if credited, would establish
jurisdiction over Defendant. See Metro. Life, 84 F.3d at
567. Plaintiffs have done so, having alleged on the basis of the relevant electronic transfer records that each
New York Transfer was directed to a beneficiary Charity, was routed by Defendant through a correspondent
account in New York, and reached a separate correspondent account in New York maintained by the beneficiary Charity’s bank.
Finally, a court analyzing jurisdiction under
§ 302(a)(1) must consider not only the quantity of a defendant’s contacts in New York, but also the quality of
those contacts when viewed in the totality of the circumstances. Fischbarg v. Doucet, 9 N.Y.3d 375, 380
(2007); Farkas v. Farkas, 36 A.D.3d 852, 853 (2d Dep’t
2007). Here, Defendant had a New York Branch where
it maintained a correspondent account to facilitate the
clearing of U.S. Dollar transfers requested by its customers. Whatever efficiency and cost savings

124a
Defendant gained as a result allowed Defendant to retain relationships with customers that had a need to
deal in U.S. currency, a contingent that from time to
time included Interpal. Most importantly, Defendant
executed the 196 New York Transfers, repeatedly and
deliberately using New York’s banking system to effect the alleged financial support of Hamas that is the
basis for Plaintiffs’ claims. Given the quality of those
contacts and their close connection to New York, the
Court concludes that § 302(a)(1) permits the exercise
of jurisdiction over Defendant.
2.

Scope Of Jurisdiction Under § 302(a)(1)

A plaintiff must establish personal jurisdiction
with respect to each claim asserted. See Sunward Elecs., Inc. v. McDonald, 362 F.3d 17, 24 (2d Cir. 2004).
Invoking this principle, Defendant argues that each
Plaintiff in this action asserts a claim under the ATA
separately and individually, and that jurisdiction
must be established uniquely for each one of these
claims. (See Def.’s Reply in Further Supp. of Mot. to
Dismiss (“Def.s Reply”), Weiss Dkt Entry No. 330.)
Plaintiffs argue otherwise, essentially contending that
they assert a “claim” under the ATA, and that a single
New York contact that would support the exercise of
specific jurisdiction is sufficient to confer jurisdiction
over that entire claim.
Because Plaintiffs allege injuries in connection
with 15 different attacks, each associated with a distinct class of Plaintiffs, the Court disagrees that all of
their claims can be aggregated into a single, unitary
claim under the ATA for purposes of establishing specific jurisdiction. Even so, the Court concludes that Defendant is subject to jurisdiction under § 302(a)(1) with

125a
respect to claims made in connection with all 15 attacks. To explain why, it is useful to consider the result
if Plaintiffs had pursued their claims in 15 separate
actions, each premised upon a single attack. As previously noted, the first New York Transfer was in 1996
and the last transfer purportedly occurred on August
15, 2003. (See Def.’s Mem. at 5, 18.) Given the timing
of those transfers and the substantial amount underlying them, Plaintiffs in all 15 actions legitimately
could rely upon the New York Transfers as among the
financial services and material support allegedly provided by Defendant in violation of the ATA.
That conceivably would not be the case if, for instance, one of the attacks for which Plaintiffs sought
recovery occurred in 1991, five years before the first
New York Transfer. Under such circumstances, the
nexus between claims arising from the 1991 attack
and a series of transfers that did not even begin to occur until five years later theoretically would be too attenuated to support jurisdiction under § 302(a)(1). See,
e.g., Standard Chartered Bank v. Ahmad Hamad Al
Gosaibi & Bros. Co., No. 653506/2011, 2013 N.Y. Slip.
Op. 32312(U), at *3-5 (Sup. Ct. N.Y. Cnty. Sept. 24,
2013) (nexus required under § 302(a)(1) not satisfied
where 2009 default could not have arisen from business the defendant transacted in New York in 2010
and thereafter). However, those are not the facts here.
Even assuming that Plaintiffs had pursued their
claims in 15 separate actions, the New York Transfers
would embody purportedly unlawful conduct relevant
to establishing Defendant’s liability in each action. As
such, the claims in each action could be said to arise,
at least in part, from the New York Transfers, in which

126a
case § 302(a)(1) would confer jurisdiction over Defendant in each action. See Licci II, 20 N.Y.3d at 341.
Nevertheless, Defendant contends that the scope
of jurisdiction the Court may exercise in this action,
where Plaintiffs assert their claims collectively, is narrower and does not permit adjudication of all of Plaintiffs’ claims. Defendant’s position rests on the fact that
the New York Transfers are not the only transfers underlying Plaintiffs’ claims. Rather, aside from those
196 transfers, Defendant executed approximately 300
other transfers to the Charities on behalf of Interpal
during the relevant timeframe, none of which was
routed through New York or the United States. (See
Oct. 16, 2015 Osen Ltr.) Defendant contends that, if
the Court were to adjudicate all of Plaintiffs’ claims
arising from all of the relevant transfers, it necessarily
would be exercising specific jurisdiction not only with
respect to the New York Transfers, but also with respect to numerous other transfers that never touched
New York or the United States. (See Def.’s Mem. at 810) (“This Court cannot treat [Defendant’s] prior wire
transfers that touched New York as providing a basis
for asserting personal jurisdiction over [Defendant] in
New York for claims based on subsequent transfers
that never touched the United States.”) According to
Defendant, exercising jurisdiction over the latter category of transfers is impermissible in a “specific jurisdiction universe” because those transfers, which were
not routed through New York, have no connection to
Defendant’s New York conduct.
Defendant’s argument is fundamentally flawed,
however, as it erroneously assumes that the Court’s
adjudicatory power over Defendant is defined according to which individual transfers satisfy the

127a
jurisdictional requirements of § 302(a)(1), rather than
which claims satisfy those requirements. In fact, the
two are distinct. Plaintiffs’ claims are that Defendant
violated the ATA, causing injury, by providing material support to an FTO and knowingly financing terrorism. See 18 U.S.C. §§ 2339B and 2339C. Those
claims do not necessarily correspond one-to-one with
particular transfers, but instead rest upon the millions
of dollars Defendant allegedly transferred to Hamas
front organizations in close temporal proximity to the
15 attacks in which Plaintiffs were injured. Because
the New York Transfers were a substantial part of
that allegedly unlawful conduct, the Court may exercise jurisdiction with respect to claims made in connection with all 15 attacks.
This is true notwithstanding the fact that those
claims also may arise from other transfers Defendant
did not route through New York, including ones performed after the last of the New York Transfers was
executed in August 2003.8 There is no requirement

8

For this reason, the Court rejects Defendant’s argument
that Plaintiffs should be required to prove their claims based on
the state of affairs, and what Defendant knew, as of the date of
the last New York Transfer. (See Def.’s Mem. at 16-17.) That argument is premised on the fallacy that the Court only may exercise jurisdiction over the individual New York Transfers, which
uniquely give rise to specific claims that are not premised on any
other transfers. That is not the case, however, as all of Plaintiffs’
claims arise more broadly from the many transfers Defendant
made to the Charities during the relevant timeframe, of which
the New York Transfers were a part. Moreover, the Court unequivocally rejects Defendant’s unsupported contention that personal jurisdiction limits the evidence Plaintiffs may use to prove
their claims, confining it just to what existed at the time of the
last New York Transfer.

128a
under § 302(a)(1) that a plaintiff’s claim must arise exclusively from New York conduct. To the contrary, as
long as there is a relatedness between a plaintiff’s
claim and the defendant’s New York transaction,
§ 302(a)(1) confers jurisdiction even if some, or all, of
the acts constituting the breach sued upon occurred
outside New York. See Hoffritz for Cutlery, Inc. v.
Amajac Ltd., 763 F.2d 55, 59 (2d Cir. 1985) (applying
§ 302(a)(1) and rejecting the district court’s “finding of
no jurisdiction over defendants merely on the basis
that the acts alleged in the complaint did not take
place in New York.”); Hedlund v. Products from Sweden, Inc., 698 F. Supp. 1087, 1091-93 (S.D.N.Y.1988)
(finding defendant subject to jurisdiction in New York
under § 302(a)(1) with respect to a claim of tortious interference that arose from conduct in Sweden). Thus,
even if Defendant’s conduct outside New York substantially gave rise to Plaintiffs’ claims, Plaintiffs’
claims still are within the permissible scope of jurisdiction under § 302(a)(1) because they are all “sufficiently related to the business transacted [in New
York] that it would not be unfair . . . to subject [Defendant] to suit in New York.” Hoffritz, 763 F.2d at 59.
The Court is not persuaded that a different result
is compelled by Fontanetta v. American Board of Internal Medicine, 421 F.2d 355 (2d Cir. 1970), a case Defendant heavily relies upon even though it was decided
45 years ago without the benefit of clear precedent
from the New York courts regarding how § 302(a)(1)
should be applied. See Hoffritz, 763 F.2d at 61. Fontanetta involved a physician who sought certification
as an internist from the American Board of Internal
Medicine, which required passing both an oral and
written exam. See Fontanetta, 421 F.2d at 356. The

129a
physician passed the written exam in New York in
1963, but twice failed the oral exam—once in Philadelphia, Pennsylvania in 1965, and once in St. Louis, Missouri in 1967. Id. After he failed the oral exam for a
second time, the physician brought suit in New York
to compel the Board to disclose the reasons why he had
failed the two oral exams, and to issue the requested
certification. Id. Applying § 302(a)(1), the Second Circuit held that the physician’s claim, which concerned
only the oral exam, was not sufficiently related to the
written exam to sustain jurisdiction in New York. Id.
at 357-58. As the Second Circuit later explained in
Hoffritz: “We held [in Fontanetta] that the substantive
differences between the two kinds of examination, together with the separation both in time and geographic location of the oral examination from the written examination, rendered unrealistic a view of the
two as one unit.” Hoffritz, 763 F.2d at 61.
Here, while the transfers at issue vary in time and
location to a degree, substantively they constitute a
single course of conduct by Defendant that purportedly entailed violations of the same statute in the
same manner with respect to all of Plaintiffs’ claims.
Moreover, whereas in Fontanetta the plaintiff’s claim
did not relate to the written examination, the Court
already has determined that all of Plaintiffs’ claims in
this action relate to the New York Transfers. See Id.
at 61-62 (similarly distinguishing Fontanetta and
holding that jurisdiction existed under § 302(a)(1) with
respect to a claim “sufficiently connected to defendants’ transaction of business in New York.”) As such,
the Court’s finding that it may exercise jurisdiction
with respect to all of Plaintiffs’ claims is not inconsistent with Fontanetta.

130a
Defendant’s reliance on State v. Samaritan Asset
Management Services, Inc., 22 Misc.3d 669 (Sup. Ct.
N.Y. Cnty. 2008), similarly is unavailing. There, the
New York Attorney General brought a securities fraud
action against the defendants under the State’s Martin Act, N.Y. Gen. Bus. Law § 352 et. seq. The court
dismissed the action in part, holding that it could exercise personal jurisdiction with respect to trades the
defendants executed through New York brokers, but
not with respect to trades executed through a trust
company located in Phoenix, Arizona. Id. at 676-77.
However, that holding substantially was a consequence of the territorial limitations of the Martin Act,
which applies exclusively to acts “within and from”
New York. See Id. at 674, 676-77. No such limitation
binds the Court here. To the contrary, the ATA expressly is directed at terrorist activities that “occur
primarily outside the territorial jurisdiction of the
United States.” 18 U.S.C. § 2331(1). Indeed, the very
purpose of the ATA was to “provide a new civil cause
of action in Federal law for international terrorism
that provides extraterritorial jurisdiction over terrorist acts abroad against United States nationals.” In re
September 11 Litig., 751 F.3d 86, 93 (2d Cir. 2014)
(quoting H.R. 2222, 102d Cong. (1992)) (internal quotation marks omitted). While these are concepts of territorial jurisdiction, not personal jurisdiction, they distinguish Samaritan and render it inapposite here.
D. Jurisdiction Under Rule 4(k)(1)(C)
Plaintiffs argue that Rule 4(k)(1)(C) of the Federal
Rules of Civil Procedure provides an additional statutory basis for the Court to exercise personal jurisdiction over Defendant. The Court agrees. Under Rule
4(k)(1)(C), personal jurisdiction may be established

131a
through proper service of process upon a defendant
pursuant to a federal statute that contains its own service provision. See Fed. R. Civ. P. 4(k)(1)(C) (“Serving
a summons or filing a waiver of service establishes
personal jurisdiction over a defendant . . . when authorized by a federal statute.”); see also 4B Wright &
Miller et al., Federal Practice & Procedure § 1125 (4th
ed.) As relevant here, the ATA expressly authorizes
nationwide service of process, thereby establishing
personal jurisdiction over a defendant properly served
under the statute.9
Here, Defendant does not dispute that it properly
was served with process in New York, Texas, and Connecticut in connection with the Weiss action, and voluntarily accepted service in connection with the Applebaum action. (See Weiss Dkt Entry Nos. 3, 7, 8; Applebaum Dkt. Entry No. 6.) As such, Rule 4(k)(1)(C)
provides an additional basis for this Court to exercise
personal jurisdiction over Defendant, to the extent

9

See 18 U.S.C. § 2334 (providing for nationwide service of
process “where[ever] the defendant resides, is found, or has an
agent”); Licci I, 673 F.3d at 59 n.8 (2d Cir. 2012) (acknowledging
the ATA’s nationwide service of process provision as a possible
basis for personal jurisdiction); Stansell v. BGP, Inc., 2011 WL
1296881, at *3 (M.D. Fla. Mar. 31, 2011); Sokolow v. Palestine
Liberation Org., 2011 WL 1345086, at *2 (S.D.N.Y. Mar. 30,
2011); Wultz v. Islamic Republic of Iran (“Wultz I”), 755 F. Supp.
2d 1, 31-32 (D.D.C. 2010); In re Terrorist Attacks on Sept. 11,
2001, 349 F. Supp. 2d 765, 806-07 (S.D.N.Y. 2005); see also IUE
AFL-CIO Pension Fund v. Hermann, 9 F.3d 1049, 1056 (2d Cir.
1993) (federal statute authorizing nationwide service of process
may be used to establish personal jurisdiction).

132a
permitted by due process.10 See In re Terrorist Attacks,
349 F. Supp. 2d at 806 (exercise of personal jurisdiction pursuant to Rule 4(k)(1)(C) still requires demonstration that defendant has sufficient “minimum contacts” to satisfy traditional due process inquiry); see
also Wultz I, 755 F. Supp. 2d at 32 (“Nationwide service of process does not dispense with the requirement
that an exercise of personal jurisdiction comport with
the Due Process Clause.”)
E. Constitutional Due Process
Having concluded that there is a statutory basis
to exercise personal jurisdiction over Defendant, the
Court must consider whether exercising such jurisdiction would comport with the due process protections
provided by the United States Constitution. As articulated by the Supreme Court in International Shoe, the
touchstone due process principle requires that the defendant “have certain minimum contacts [with the forum state] such that maintenance of the suit does not
offend traditional notions of fair play and substantial
justice.” Licci ex rel. Licci v. Lebanese Canadian Bank,
SAL (“Licci III”), 732 F.3d 161, 169 (2d Cir. 2013)
(quoting Int’l Shoe, 326 U.S. at 316) (alterations in
10
In Wultz v. Republic of Iran (“Wultz II”), 762 F. Supp. 2d 18,
25-29 (D.D.C. 2011), the district court held that the ATA’s nationwide service of process provision cannot be invoked to establish
personal jurisdiction unless the first clause of that provision, concerning proper venue under the statute, also is satisfied. Here,
Defendant has waived any argument that venue is improper by
failing to raise that issue. In any event, given that the ATA provides for venue in any district where any plaintiff resides or
where the defendant is served, the Court would find that venue
is proper in this district even if Defendant had asserted a challenge. See 18 U.S.C. § 2334(a).

133a
original). Assuming the threshold showing of “minimum contacts” is satisfied, the Court also must consider whether its exercise of jurisdiction would be reasonable under the circumstances. See Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 476-77 (1985); see
also Licci III, 732 F.3d at 173-74.
Notably, after the Court of Appeals determined in
Licci II that the defendant bank was subject to jurisdiction in New York under § 302(a)(1), the Second Circuit in Licci III considered whether exercising such jurisdiction would comport with due process. In concluding that due process was satisfied, the Second Circuit
observed that it would be “rare” and “unusual” for a
court to determine that the exercise of personal jurisdiction over a defendant was permitted by § 302(a)(1),
but prohibited under principles of due process. Licci
III, 732 F.3d at 170. In fact, the Second Circuit noted
that it was aware of no such decisions within this Circuit. Id. Therefore, given the Court’s prior determination that § 302(a)(1) permits the exercise of jurisdiction over Defendant, it would be unusual, and even unprecedented, for the Court to find that due process is
not satisfied here.
1.

Minimum Contacts

Where, as here, a court’s specific jurisdiction is invoked, “minimum contacts” sufficient to satisfy due
process exist if “the defendant purposefully availed itself of the privilege of doing business in the forum and
could foresee being haled into court there.” Licci III,
732 F.3d at 170 (quoting Bank Brussels Lambert v.
Fiddler Gonzalez & Rodriguez, 305 F.3d 120, 127 (2d
Cir. 2002.)) Courts typically conduct this inquiry under two separate prongs: (1) the “purposeful

134a
availment” prong, “whereby the court determines
whether the entity deliberately directed its conduct at
the forum”; and (2) the “relatedness” prong, “whereby
the court determines whether the controversy at issue
arose out of or related to the entity’s in-forum conduct.” Gucci Am., Inc. v. Weixing Li (“Gucci III”), 2015
WL 5707135, at *7 (S.D.N.Y. Sept. 29, 2015) (citing
Chew v. Dietrich, 143 F.3d 24, 27-29 (2d Cir. 1998)).
Because this action arises under the ATA, a nationwide service of process statute, the appropriate
“minimum contacts” inquiry is whether Defendant has
sufficient contacts with the United States as a whole.11
Nevertheless, aside from offices and/or agencies Defendant purportedly maintained in Connecticut and
Texas, essentially all of the contacts relevant to the
Court’s due process inquiry involve Defendant’s conduct in New York. Moreover, having already determined that Defendant’s New York conduct satisfies
the purposeful availment prong of § 302(a)(1), the
Court has little difficulty concluding that it similarly
demonstrates purposeful availment sufficient to establish “minimum contacts” with the United States.
11

See LIBOR, 2015 WL 4634541, at *18; Wultz II, 762 F. Supp.
2d at 25; In re Terrorist Attacks, 349 F. Supp. 2d at 806 (Where
jurisdiction is asserted under the ATA’s service provision, the
“relevant inquiry under such circumstances is whether the defendant has minimum contacts with the United States as a whole
[to satisfy Fifth Amendment due process requirements], rather
than . . . with the particular state in which the federal court sits.”)
(quoting Estates of Ungar ex rel. Strachman v. Palestinian Auth.,
153 F. Supp. 2d 76, 87 (D.R.I. 2001)) (alterations in original). But
see Gucci II, 768 F.3d at 142 n.21 (noting that the Second Circuit
has not yet decided whether the “national contacts” approach is
proper for determining personal jurisdiction in cases arising under federal statutes that authorize nationwide service.)

135a
See Licci III, 732 F.3d at 170. There is nothing remotely “random, isolated, or fortuitous” about that
conduct that would call into question whether it was
purposefully directed at the United States. Id. at 171
(quoting Keeton v. Hustler Magazine, Inc., 465 U.S.
770, 774 (1984)). Defendant had a New York Branch
and systematically utilized a correspondent account at
that branch as a clearing channel for U.S. Dollar
transfers requested by its customers.
Most notably, Defendant deliberately used New
York’s banking system to execute the New York Transfers. Given that “dozens” of similar transfers routed
through a New York correspondent account were sufficient to establish purposeful availment in Licci III,
the New York Transfers demonstrate such availment
a fortiori because they represent almost 200 transactions totaling over $4 million carried out through Defendant’s own branch in New York (or otherwise
through correspondent accounts Defendant maintained in New York.) As such, there is no question that
Defendant purposefully availed itself of the “privilege
of conducting business in [New York],” thereby subjecting itself to suit in the United States with respect
to any and all claims substantially related to such conduct. Licci III, 732 F.3d at 171 (quoting Bank Brussels
Lambert, 305 F.3d at 127); see also Gucci III, 2015 WL
5707135, at *8.
Turning to the question of relatedness, the Second
Circuit held in Licci III that the defendant bank’s use
of an in-forum correspondent account to execute the
very wire transfers that were the basis for the plaintiffs’ claims satisfied “minimum contacts.” As the Second Circuit explained:

136a
[W]e by no means suggest that a foreign defendant’s ‘mere maintenance’ of a correspondent account in the United States is sufficient
to support the constitutional exercise of personal jurisdiction over the account-holder in
connection with any controversy. In this case,
the correspondent account at issue is alleged
to have been used as an instrument to achieve
the very wrong alleged. We conclude that in
connection with this particular jurisdictional
controversy—a lawsuit seeking redress for
the allegedly unlawful provision of banking
services of which the wire transfers are a
part—allegations of [the defendant’s] repeated, intentional execution of U.S.-dollardenominated wire transfers on behalf of Shahid, in order to further Hizballah’s terrorist
goals, are sufficient [to sustain jurisdiction].
Licci III, 732 F.3d at 171. The same conclusion is compelled here, where the New York Transfers are among
the allegedly unlawful financial services Defendant
provided to Interpal for which Plaintiffs seek redress
in this action.
Defendant attempts to distinguish Licci III on the
ground that all of the wire transfers at issue in that
case were routed through New York, whereas in this
case only 196 of the approximately 496 transfers at issue went through New York. However, in Licci III, the
Second Circuit did not hold, or even suggest, that due
process was satisfied because the transfers at issue
were routed exclusively through New York. That fact
was not even made explicit in the Second Circuit’s
opinion. Rather, per the Second Circuit’s express holding, “minimum contacts” were established by the

137a
defendant bank’s repeated and deliberate use of a New
York correspondent account to effect the financial services underlying the plaintiffs’ claims. See Id. at 17173; Wultz I, 755 F. Supp. 2d at 34 (suggesting that a
single wire transfer knowingly performed in the U.S.
for the benefit of a terrorist organization could support
a finding of specific jurisdiction in the ATA context);
see also Burger King, 471 U.S. at 475 n.18 (“So long as
it creates a substantial connection with the forum,
even a single act can support jurisdiction.”) (internal
quotation marks and citation omitted). The facts alleged here demonstrate the same repeated and deliberate conduct by Defendant.
Furthermore, such conduct allegedly resulted in
the provision of over $4 million to the Charities, which
thereafter purportedly was delivered into the hands of
Hamas during the same timeframe that Hamas carried out the attacks in which Plaintiffs were injured.
Contra 7 West 57th St., 2015 WL 1514539, at *10
(“minimum contacts” not satisfied in LIBOR fixing
case because defendant bank’s conduct in New York
had no alleged connection with plaintiff’s injury and
did not even occur during the relevant timeframe).
Plaintiffs further allege that Defendant executed the
New York Transfers at a time when it knew, or at least
suspected, that it was supporting a terrorist organization by transferring money from Interpal to the Charities. Cf. Wultz I, 755 F. Supp. 2d at 34 (“Where a bank
has knowledge that it is funding terrorists . . . contacts
created by such funding can support such a finding [of
specific jurisdiction].”) (citing In re Terrorist Attacks

138a
on Sept. 11, 2001, 718 F. Supp. 2d 456, 488-90
(S.D.N.Y. 2010)).12
For the reasons discussed by the Court when analyzing the scope of jurisdiction under § 302(a)(1), supra, the Court further concludes that Defendant’s New
York conduct established “minimum contacts” as to
which all of Plaintiffs’ claims substantially relate. As
such, the Court finds that it may exercise jurisdiction
over Defendant with respect to all of those claims without offending due process. See Walden, 134 S. Ct. at
1121 (“minimum contacts” satisfied if “the defendant’s
suit-related conduct . . . create[s] a substantial connection with the forum State.”). Furthermore, as
12

In its March 28, 2013 summary judgment Order, the Court
ruled that the evidence in the record was insufficient to establish
that, at any time between 1994 and 2007, Defendant had the requisite scienter to support liability under § 2333(a), i.e. that Defendant knew (or exhibited deliberate indifference to whether) Interpal provided material support to Hamas. In vacating the
Court’s Order, the Second Circuit held that Plaintiffs had presented sufficient evidence to create a triable issue of fact as to
scienter. According to Defendant, all such evidence specifically
identified by the Second Circuit concerned facts after August 15,
2003, the date when the last New York Transfer was executed.
Therefore, Defendant argues that there is no evidence to support
a conclusion that, at the time it made the New York Transfers, it
knew that it was providing support to a terrorist organization.
(Def.’s Mem. at 19-24.) Whatever relevance that argument may
have to Plaintiffs’ burden to prove scienter at trial, it is not dispositive as to the question of personal jurisdiction presently before the Court, particularly in light of: (1) the millions of dollars
Defendant funneled through New York on Interpal’s behalf for
the benefit of the Charities in close proximity to the attacks at
issue; (2) the fact that the Second Circuit, in its decision, actually
did discuss evidence potentially relevant to a finding of scienter
prior to August 2003; and (3) Plaintiffs’ burden at this stage,
which does not require them to prove any jurisdictional fact.

139a
acknowledged by the Second Circuit, there is authority
for the “general proposition that use of a forum’s banking system as part of an allegedly wrongful course of
conduct may expose the user to suits seeking redress
in that forum when that use is an integral part of the
wrongful conduct.” Licci III, 732 F.3d at 172 n.7. Here,
Defendant is a sophisticated financial institution that
had a New York Branch and routinely conducted business in the United States through an account it maintained at that branch. As such, it reasonably can be
presumed that Defendant was “fully aware of U.S. law
concerning financial institutions, including provisions
of the ATA criminalizing material support to terrorist
organizations.” Wultz I, 755 F. Supp. 2d at 34. Assuming the truth of Plaintiffs’ allegations, Defendant reasonably could have foreseen that repeatedly availing
itself of New York and its laws to execute the New
York Transfers would subject it to jurisdiction in the
United States with respect to the overall course of conduct of which those transfers were a part.
Nevertheless, Defendant asserts the same fallacy
as it did with respect to § 302(a)(1), arguing that due
process prohibits the Court from exercising “jurisdiction” over transfers that never went through New
York or the United States. Defendant contends that
this principle is exemplified in a decision recently
reached by the Honorable Naomi R. Buchwald, United
States District Judge for the Southern District of New
York, in a multidistrict litigation concerning alleged
manipulation of the London Interbank Offer Rate (“LIBOR”). (See Oct. 16, 2015 Friedman Ltr., Weiss Dkt.
Entry No. 336; see also Tr. 11:3-18, 20:5-7.) In basic
terms, LIBOR is a set of interest-rate benchmarks calculated on the basis of quotes from a panel of leading

140a
banks, each of which reports on a daily basis the rate
at which it could borrow funds under certain stated
conditions. See LIBOR, 2015 WL 4634541, at *2-3. The
plaintiffs in the multidistrict litigation allege, inter
alia, that the panel banks knowingly and persistently
submitted falsely high or low quotes to manipulate LIBOR in a manner designed to fraudulently improve
their respective positions in the market. As a threshold ruling, Judge Buchwald indicated that specific jurisdiction would not exist in New York with respect to
any claim alleging fraud based upon a false LIBOR
quote that neither was determined nor submitted in
New York, nor otherwise requested by a trader located
in New York. See Id. at *32.
Whatever basis in the facts and law that ruling
had in LIBOR, no such basis can be found here. In that
case, each purportedly false LIBOR submission at issue was alleged to have caused a distinct and identifiable harm that directly gave rise to a specific plaintiff’s
claim. The transfers at issue here are not comparable.
Without rehashing the Court’s entire analysis concerning the scope of jurisdiction under § 302(a)(1), supra, Plaintiffs’ claims are that Defendant provided
material support to an FTO and knowingly financed
terrorism. Those claims rest upon the many transfers
Defendant made to the Charities on behalf of Interpal
in close temporal proximity to the 15 attacks in which
Plaintiffs were injured. Due process does not require
that the Court secure a basis for jurisdiction over all
of those transfers in order to adjudicate Plaintiffs’
claims. Rather, as discussed, Plaintiffs must show that
there is a substantial relationship between claims
made in connection with all 15 attacks and Defendant’s relevant New York conduct. See Walden, 134

141a
S. Ct. at 1121. Based on its prior determination that
Plaintiffs adequately have done so, prima facie, the
Court may exercise jurisdiction with respect to all of
their claims without offending due process.
2.

Reasonableness

At the second stage of the due process analysis,
the party challenging jurisdiction bears a heavy burden to make “a compelling case that the presence of
some other considerations would render jurisdiction
unreasonable.” Bank Brussels Lambert, 305 F.3d at
129 (quoting Metro. Life Ins. Co., 84 F.3d at 568).
Where a defendant purposefully has directed its suitrelated conduct at the forum State, as is the case here,
“dismissals resulting from the application of the reasonableness test should be few and far between.”
Metro. Life, 84 F.3d at 575 (citing Burger King, 471
U.S. at 477). Among the factors typically considered by
a court assessing the reasonableness of exercising jurisdiction are: (1) “the burden that the exercise of jurisdiction will impose on the [entity]”; (2) “the interests
of the forum state in adjudicating the case”; (3) “the
plaintiff’s interest in obtaining convenient and effective relief”; (4) “the interstate judicial system’s interest
in obtaining the most efficient resolution of the controversy”; and (5) “the shared interest of the states in furthering substantive social policies.” Gucci III, 2015
WL 5707135, at *9 (citing Bank Brussels Lambert, 305
F.3d at 129) (alterations in original). In addition,
“[w]hen the entity that may be subject to personal jurisdiction is a foreign one, courts consider the international judicial system’s interest in efficiency and the
shared interests of the nations in advancing substantive policies.” Id. (citing Asahi Metal Indus. Co. v.

142a
Superior Ct. of Cal., Solano Cnty. 480 U.S. 102, 115
(1987)) (emphasis in original).
Here, in challenging jurisdiction, Defendant does
not directly address the individual reasonableness factors. Having considered those factors anyway, the
Court concludes that they support the exercise of jurisdiction over Defendant. To begin with, Defendant
has been litigating this action in this Court for the better part of ten years. Extensive discovery already has
taken place, with the parties capably surmounting any
obstacles presented by the fact that many of the pertinent witnesses and documents are located abroad. As
such, Defendant cannot seriously contend that continuing to litigate this case in New York presents an unreasonable burden. See Licci III, 732 F.3d at 174 (observing that any such burden is eased by “the conveniences of modern communication and transportation”).
Indeed, up until Daimler was decided, Defendant presumably had every expectation of litigating this matter to a resolution in New York.
Furthermore, the claims in this action are predicated on the overall course of conduct by which Defendant allegedly provided financial support to a terrorist organization. To the extent Defendant’s use of
New York’s banking system was integral to that conduct, the Court also may take into account “the United
States’ and New York’s interest in monitoring banks
and banking activity to ensure that its system is not
used as an instrument in support of terrorism.” Id. Finally, although not a controlling factor, it is appropriate to consider the federal policy underlying Congress’
enactment of the ATA. Cf. 4 Wright & Miller, Federal
Practice and Procedure § 1068.1 (4th ed.) (“[W]hen
Congress has undertaken to enact a nationwide

143a
service statute applicable to a certain class of disputes,
that statute should be afforded substantial weight as
a legislative articulation of federal social policy.”) As
demonstrated by the legislative history and express
language of the ATA, a clear statutory objective is “to
give American nationals broad remedies in a procedurally privileged U.S. forum.” Goldberg v. UBS AG, 660
F. Supp. 2d 410, 422 (E.D.N.Y. 2009). That policy by
no means overrides the due process to which Defendant is entitled. However, having already determined
that Defendant established “minimum contacts” with
the United States as a whole, the Court is further persuaded by that policy and the other reasonableness
factors that exercising jurisdiction over Defendant is
consistent with due process. Accordingly, Defendant’s
motion to dismiss for lack of personal jurisdiction is
denied.13
III. Defendant’s Motion for Summary Judgment
Defendant alternatively moves for summary judgment on the basis that the Court can exercise jurisdiction only with respect to the New York Transfers, and
Plaintiffs cannot prove Defendant’s liability in a case
confined just to those 196 transfers. (See Def.’s Mem.
13
In Gucci II, the Second Circuit directed the district court to
consider, upon remand, whether the exercise of jurisdiction over
Bank of China would comport with principles of international
comity. See Gucci II, 768 F.3d at 138-39. However, in that case,
there was an alleged conflict of law between Chinese banking
laws and an asset-freeze injunction issued by the district court.
Id. Here, Defendant does not address the issue of comity, nor is
there any suggestion that merely continuing to exercise jurisdiction over Defendant, albeit on a theory of specific jurisdiction rather than general, would conflict with any foreign laws or otherwise infringe on the sovereign interests of a foreign state.

144a
at 15-25.) In other words, Plaintiffs purportedly cannot prevail on their claims because they cannot prove
that as of August 15, 2003—the date of the last New
York Transfer—Defendant acted with the requisite
scienter and proximately caused Plaintiffs’ injuries.
However, the Court already has rejected Defendant’s
arguments seeking to limit the scope of jurisdiction in
this manner, including the fallacy that the Court must
secure jurisdiction over individual transfers rather
than jurisdiction over Defendant itself. Accordingly,
Defendant’s motion for summary judgment is denied.
CONCLUSION
For the foregoing reasons, Defendant’s motion to
dismiss this action, or in the alternative for summary
judgment, is denied in its entirety.
SO ORDERED.
Dated: Brooklyn, New York
March 31, 2016
s/
DORA L. IRIZARRY
United States District Judge

145a
APPENDIX E
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
No. 13-1618-cv
________________________________
TZVI WEISS ET AL., NATAN APPLEBAUM, ET AL.,
Plaintiff-Appellants,
v.
NATIONAL WESTMINSTER BANK PLC,
Defendant-Appellee.1
________________________________
August Term, 2013
Argued: March 11, 2014 Decided: September 22, 2014
________________________________
Before: JACOBS, LEVAL, and POOLER, Circuit
Judges.
________________________________
Plaintiffs Weiss et al. appeal from the judgment of
the United States District Court for the Eastern District of New York (Irizarry, J.) dismissing, on summary judgment, their claims against Defendant National Westminster Bank PLC for civil remedies pursuant to the Antiterrorism Act, 18 U.S.C.
§§ 2331(1)(A), 2333(a), 2339B(a)(1), and 2339C. The
Court of Appeals (Leval, J.) concludes that the district

1

The Clerk of the Court is directed to amend the caption in
this case to conform to the listing of the parties above.

146a
court misapplied § 2339B(a)(1)’s scienter requirement
and finds that there was a triable issue of fact as to
whether Defendant possessed the mental state required for liability under §§ 2333(a) and 2339B(a)(1).
The judgment of the district court is, therefore, VACATED and the case REMANDED with instructions
to consider Defendant’s other arguments in support of
summary judgment.
*

*

*

LEVAL, Circuit Judge:
Plaintiffs, who are approximately 200 United
States nationals (or their estates, survivors or heirs)
who were victims of terrorist attacks launched in Israel by Hamas, appeal from the judgment of the
United States District Court for the Eastern District
of New York (Irizarry, J.), dismissing, on summary
judgment, their suit against Defendant National
Westminster Bank PLC (“NatWest”). The claimed basis of liability is that NatWest provided material support and resources to a terrorist organization in violation of the Antiterrorism Act (“ATA”), 18 U.S.C.
§§ 2331(1)(A), 2333(a) and 2339B(a)(1), and collected
and provided funds for the financing of terrorism in
violation of 18 U.S.C. §§ 2331(1)(A), 2333(a) and
2339C.2 The complaint accuses NatWest of providing
material support and resources to a foreign terrorist
organization by maintaining bank accounts and

2

Plaintiffs also sought civil remedies under § 2333(a) based
on alleged violations of 18 U.S.C. § 2332 for aiding and abetting
the murder of United States citizens. This claim was dismissed
for failure to state a claim pursuant to Rule 12(b)(6). Weiss v.
Nat’l Westminster Bank PLC, 453 F. Supp. 2d 609 (E.D.N.Y.
2006). Plaintiffs do not challenge that dismissal here.

147a
transferring funds for the Palestine Relief & Development Fund, a/k/a Interpal (“Interpal”). Interpal allegedly engaged in “terrorist activity” by soliciting funds,
and otherwise providing support, for Hamas.
NatWest moved for summary judgment on the
grounds that Plaintiffs could not show that NatWest
acted with the requisite scienter to support an award
of civil remedies under the ATA, that its acts were the
proximate cause of the Plaintiffs’ injuries, that Plaintiffs had Article III standing, and that Hamas was responsible for the terrorist attacks at issue. The district
court granted the motion for summary judgment on
the basis of Plaintiffs’ failure to establish a triable issue of fact as to whether NatWest had the requisite
scienter, and did not address the other asserted
grounds. Weiss v. Nat’l Westminster Bank PLC, 936
F. Supp. 2d 100 (E.D.N.Y. 2013).
Plaintiffs contend on this appeal that the district
court used an incorrect standard for determining
whether NatWest acted with the requisite scienter for
liability under 18 U.S.C. § 2333(a) predicated on a violation of 18 U.S.C. § 2339B(a)(1),3 by focusing on
whether NatWest had knowledge that, or exhibited
deliberate indifference to whether, Interpal funded
terrorist activities. We conclude that the statute’s requirement is less exacting, and requires only a showing that NatWest had knowledge that, or exhibited deliberate indifference to whether, Interpal provided material support to a terrorist organization, irrespective
of whether Interpal’s support aided terrorist activities
of the terrorist organization. As Hamas is an
3

Plaintiffs have not argued on appeal that the district court
erred in dismissing their claims based on 18 U.S.C. § 2339C.

148a
organization designated as a Foreign Terrorist Organization (“FTO”) by the United States Secretary of
State, Plaintiffs can fulfill this burden by demonstrating either that NatWest had actual knowledge that Interpal provided material support to Hamas, or that
NatWest exhibited deliberate indifference to whether
Interpal provided material support to Hamas. There is
a triable issue of fact as to whether NatWest possessed
the requisite scienter. Therefore, we vacate the judgment and remand for the district court to consider
NatWest’s other arguments in support of summary
judgment.
BACKGROUND
I.

Factual Background

Interpal is a non-profit organization registered
with the Charity Commission for England & Wales
(the “Charity Commission”). Its Declaration of Trust
states that Interpal collects funds for humanitarian
aid, which it transfers to various charitable organizations in England and Wales, Jordan, Lebanon, and the
Palestinian Territories. NatWest maintained accounts
for Interpal from 1994, the year Interpal was founded,
until 2007.4 During that time, NatWest recorded unusual activity in a permanent database and reported
certain suspicious activity to British authorities. NatWest is a member of the Royal Bank of Scotland Group
and is incorporated and headquartered in the United
Kingdom.
On August 21, 2003, the United States Treasury
Department Office of Foreign Assets Control (“OFAC”)
4

NatWest provided banking services to Interpal’s predecessor, the Palestine & Lebanon Relief Fund, beginning in 1987.

149a
designated Interpal as a Specially Designated Global
Terrorist (“SDGT”). OFAC issued a press release stating:
Interpal . . . has been a principal charity utilized to hide the flow of money to HAMAS. Reporting indicates it is the conduit through
which money flows to HAMAS from other
charities . . . . Reporting indicates that Interpal is the fundraising coordinator of HAMAS. This role is of the type that includes supervising activities of charities, developing
new charities in targeted areas, instructing
how funds should be transferred from one
charity to another, and even determining
public relations policy.
Joint App’x (“JA”) at 1681, Weiss v. Nat’l Westminster
Bank PLC, No. 13-1618 (Aug. 5, 2013).
On August 26, 2003, the Charity Commission issued an order freezing Interpal’s accounts and commenced an investigation of Interpal’s activities. On
September 24, 2003, the Charity Commission published a report, announcing that it had completed its
investigation and cleared Interpal of any allegations of
terror financing. The Report concluded that: (1) “The
US Authorities were unable to provide evidence to
support allegations made against INTERPAL . . .,”
and (2) “in the absence of any clear evidence showing
INTERPAL had links to Hamas’ political or violent
militant activities, INTERPAL’s bank accounts should
be unfrozen and the Inquiry closed.” JA at 702-03. According to internal NatWest communications, the Metropolitan Police Special Branch (the “Special Branch”)
also investigated OFAC’s SDGT designation and
“found that there was insufficient evidence to prove a

150a
link [of Interpal] to terrorism, so no UK action was
taken against INTERPAL . . . .” JA at 736.
Following OFAC’s designation of Interpal as an
SDGT, NatWest sought guidance from the Financial
Sanctions Unit of the Bank of England. On October 3,
2003, the Bank of England informed NatWest that
“there are presently no plans to list [Interpal] under
the Terrorism Order in the UK” and “there is no need
to take any further action . . . .” JA at 2996. The Financial Sanctions Unit also informed NatWest that “any
payments to, or for the benefit of, Hamas are prohibited,” and any suspicion of such payments should be
reported to the Charities Commission, the Bank of
England, and the Special Branch. JA at 2996. NatWest began conducting reviews of Interpal’s accounts
every six months.
In May 2005, while conducting one of these reviews, NatWest uncovered a payment by Interpal to
an organization that was subsequently designated by
the Bank of England as “an organisation suspected of
supporting terrorism.” JA at 736. NatWest’s reviews
also revealed that some of the organizations receiving
funds from Interpal were suspected of having connections with Hamas, including at least five committees
alleged by United States authorities to be “operated on
behalf of, or under the control of, Hamas” in a 2004
indictment. Superseding Indictment, United States v.
Holy Land Found. for Relief & Dev., No. 3:04-CR-240P (N.D. Tex. July 26, 2004), JA at 2707. On the other
hand, there is no evidence NatWest was aware of any
Interpal payments to any organizations that were designated as terrorist organizations by the Bank of England or OFAC at the time of the payment.

151a
NatWest closed the last of Interpal’s accounts in
March 2007.
DISCUSSION
I.

Analysis

Plaintiffs argue that, in its focus on whether NatWest was shown to have awareness of Interpal’s financing of terrorist activities, the district court employed an incorrect scienter standard. We agree. As we
understand the statute, in order to establish entitlement to a civil remedy under 18 U.S.C. § 2333(a) predicated on a violation of § 2339B(a)(1), Plaintiffs were
obliged to show that NatWest had actual knowledge
that, or exhibited deliberate indifference to whether,
Interpal provided material support to a terrorist organization, irrespective of whether the support aided
terrorist activities.
a.

The Statutory Framework

Plaintiffs seek relief under a complex statutory
framework
involving
the
ATA,
18
U.S.C.
§§ 2331(1)(A), 2333, and 2339B, and the Immigration
and Nationality Act, 8 U.S.C. §§ 1182, 1189. Through
a series of statutory incorporations, in order for NatWest to be liable under § 2333(a), it must have had
knowledge that (or exhibited deliberate indifference to
whether) Interpal provided material support to Hamas (an FTO), regardless of whether that support was
for terrorist activities.
Section 2333(a) provides civil remedies for United
States nationals injured by acts of international terrorism:
Any national of the United States injured in
his or her person, property, or business by

152a
reason of an act of international terrorism, or
his or her estate, survivors, or heirs, may sue
therefor in any appropriate district court of
the United States and shall recover threefold
the damages he or she sustains and the cost
of the suit, including attorney’s fees.
18 U.S.C. § 2333(a) (emphasis added). The term “international terrorism,” as used in that Section, is defined by § 2331(1) to mean:
[A]ctivities that (A) involve violent acts or
acts dangerous to human life that are a violation of the criminal laws of the United States
or of any State, or that would be a criminal
violation if committed within the jurisdiction
of the United States or of any State; (B) appear
to be intended (i) to intimidate or coerce a civilian population; (ii) to influence the policy of
a government by intimidation or coercion; or
(iii) to affect the conduct of a government by
mass destruction, assassination, or kidnapping; and (C) occur primarily outside the territorial jurisdiction of the United States . . . .

153a
18 U.S.C. § 2331(1) (emphasis added).5 This wording
is sufficient indication that Congress intended extraterritorial application.6
The complaint alleges that NatWest committed
acts that fall within § 2331(1)(A) by providing banking
services to Interpal in violation of 18 U.S.C.

5

In Morrison v. National Australia Bank Ltd., the Supreme
Court recognized a presumption against extraterritoriality pursuant to which we must presume a statute does not apply extraterritorially “unless there is the affirmative intention of the Congress clearly expressed to give a statute extraterritorial effect.”
561 U.S. 247, 255 (2010) (internal quotation marks and citation
omitted). Congress clearly expressed its intention for § 2333(a) to
apply extraterritorially by focusing on “international terrorism”
and defining it to include exclusively activities that “occur primarily outside the territorial jurisdiction of the United States.”
18 U.S.C. § 2331(1); see In re September 11 Litig., 751 F.3d 86, 93
(2d Cir. 2014) (“The purpose of the ATA was ‘[t]o provide a new
civil cause of action in Federal law for international terrorism
that provides extraterritorial jurisdiction over terrorist acts
abroad against United Sates nationals.’” (quoting H.R. 2222,
102d Cong. (1992))). Accordingly, we find that NatWest may be
found liable under § 2333(a) for conduct that occurred in the
United Kingdom.
6

The requirement to “appear to be intended . . .” does not depend on the actor’s beliefs, but imposes on the actor an objective
standard to recognize the apparent intentions of actions. Cf. Boim
v. Holy Land Found. for Relief and Dev., 549 F.3d 685, 693-94
(7th Cir. 2008) (en banc) (Posner, J.) (describing the appearanceof-intention requirement “not [as] a state-of-mind requirement”
and stating that “it is a matter of external appearance rather
than subjective intent . . . .”). On appeal, we review only whether
there is a triable issue of fact as to whether NatWest fulfilled
§§ 2333(a) and 2339B’s scienter requirement; we do not address
whether NatWest fulfilled this definitional requirement or the
other requirements of the statute.

154a
§ 2339B(a)(1). That section imposes criminal penalties
on
[w]hoever knowingly provides material support or resources to a foreign terrorist organization . . . . To violate this paragraph, a person must have knowledge . . . that the organization has engaged or engages in terrorist activity (as defined in section 212(a)(3)(B) of the
Immigration and Nationality Act) . . . .
18 U.S.C. § 2339B(a)(1).
While § 2333(a) does not include a mental state
requirement on its face, it incorporates the knowledge
requirement from § 2339B(a)(1), which prohibits the
knowing provision of any material support to terrorist
organizations without regard to the types of activities
supported. Its application is not limited to the provision of support to the terrorist activities of a terrorist
organization. Id. In upholding the constitutionality of
§ 2339B against as applied challenges for vagueness
and violations of the First Amendment rights to freedom of association and speech, the Supreme Court
found that “Congress plainly spoke to the necessary
mental state for a violation of § 2339B, and it chose
knowledge about the organization’s connection to terrorism, not specific intent to further the organization’s
terrorist activities.” Holder v. Humanitarian Law Project, 561 U.S. 1, 16-17 (2010); see also Antiterrorism
and Effective Death Penalty Act of 1996, Pub. L. No.
104-132, § 301(a)(7), 110 Stat. 1214, 1247, note following 18 U.S.C. § 2339B (Findings and Purpose) (“[F]oreign organizations that engage in terrorist activity are
so tainted by their criminal conduct that any contribution to such an organization facilitates that conduct.”).
The Court explained:

155a
Money is fungible, and when foreign terrorist
organizations that have a dual structure raise
funds, they highlight the civilian and humanitarian ends to which such moneys could be
put. But there is reason to believe that foreign
terrorist organizations do not maintain legitimate financial firewalls between those funds
raised for civil, nonviolent activities, and
those ultimately used to support violent, terrorist operations. Thus, funds raised ostensibly for charitable purposes have in the past
been redirected by some terrorist groups to
fund the purchase of arms and explosives.
Humanitarian Law Project, 561 U.S. at 31 (internal quotation marks, citations, and alterations omitted); cf. Boim v. Holy Land Found. for Relief and Dev.,
549 F.3d 685, 698 (7th Cir. 2008) (en banc) (Posner, J.)
(“If Hamas budgets $2 million for terrorism and $2
million for social services and receives a donation of $
100,000 for those services, there is nothing to prevent
its using that money for them while at the same time
taking $100,000 out of its social services ‘account’ and
depositing it in its terrorism ‘account.’”).
Thus, to fulfill § 2339B(a)(1)’s scienter requirement, incorporated into § 2333(a), Plaintiffs must
show that NatWest both knew that it was providing
material support to Interpal and knew that Interpal
engaged in terrorist activity. Section 2339B(a)(1) does
not require a showing that NatWest knew it was
providing material support for terrorist activity.
For the purposes of § 2339B(a)(1), a defendant has
knowledge that an organization engages in terrorist
activity if the defendant has actual knowledge of such
activity or if the defendant exhibited deliberate

156a
indifference to whether the organization engages in
such activity. See Strauss v. Credit Lyonnais, S.A., 925
F. Supp. 2d 414, 428-29 (E.D.N.Y. 2013); In re Terrorist Attacks on September 11, 2001, 740 F. Supp. 2d 494,
517 (S.D.N.Y. 2010). A defendant exhibits deliberate
indifference if it “knows there is a substantial probability that the organization engages in terrorism but
. . . does not care.” Boim, 549 F.3d at 693.
Section 2339B(a)(1) explicitly incorporates the
meaning of “engage[] in terrorist activity” from
§ 212(a)(3)(B) of the Immigration and Nationality Act,
8 U.S.C. §1182(a)(3)(B)(iv)(IV), which defines “engage
in terrorist activity” to include “solicit[ing] funds or
other things of value for . . . (bb) a terrorist organization described in clause (vi)(I) . . . .” Clause (vi)(I) defines “terrorist organization” to mean “an organization
. . . designated under section 1189 of this title . . . ,”
8 U.S.C. § 1182(a)(3)(B)(vi)(I), and § 1189 authorizes
the Secretary of State to designate an organization as
a foreign terrorist organization (“FTO”).7 Pursuant to
§ 1189, the Secretary of State designated Hamas as an
FTO on October 8, 1997. U.S. Dep’t of State Bureau of
Counterterrorism, Foreign Terrorist Organizations,
http://www.state.gov/j/ct/rls/other/des/123085.htm (last
visited August 6, 2014). Thus, if Interpal solicited
funds for Hamas, then Interpal engaged in terrorist
activity within the meaning of Section 212(a)(3)(B) of
the Immigration and Nationality Act.

7

OFAC’s SDGT designation is distinct from the State Department’s FTO designation. While an organization designated as an
FTO by the State Department is a terrorist organization for the
purposes of § 2339B, that is not true for organizations designated
as SDGT by OFAC.

157a
In sum, through this complex series of statutory
incorporation—18 U.S.C. § 2333(a) to 18 U.S.C.
§ 2331(1) to 18 U.S.C. § 2339B(a)(1) to 8 U.S.C.
§ 1182(a)(3)(B)—a defendant may be liable for civil
remedies under § 2333(a) for providing material support to an organization that solicits funds for an FTO.
Under Plaintiffs’ theory of liability, in order for Plaintiffs to establish that NatWest came within the scienter requirement of § 2339B, they must present evidence showing that NatWest provided material support to Interpal while having knowledge that, or exhibiting deliberate indifference to whether, Interpal
“solicit[ed] funds or other things of value” for Hamas,
regardless of whether those funds were used for terrorist or non-terrorist activities. 8 U.S.C.
§ 1182(a)(3)(B)(vi)(IV); 18 U.S.C. § 2339B(a)(1).
b.

The District Court’s Decision

As we understand the district court’s reasoning, it
imposed on Plaintiffs a more onerous burden with respect to NatWest’s scienter than § 2339B(a)(1) requires. The court focused on NatWest’s employees’
knowledge of Interpal’s terror financing as opposed to
their knowledge of Interpal’s financing of a terrorist
organization. See, e.g., Weiss v. Nat’l Westminster
Bank PLC, 936 F. Supp. 2d 100, 115 (E.D.N.Y. 2013)
(“The filing of [Suspicious Activity Reports] does not
equate to knowledge or even legitimate suspicion of
terror financing . . . .” (emphasis added)); id. (“It is undisputed that none of the [Suspicious Activity Reports]
and resulting investigations led to any credible evidence of terror financing.” (emphasis added)); id.
(“NatWest employees involved with internal investigations of Interpal testified that NatWest had a zero
tolerance policy for terror financing.” (emphasis

158a
added)); id. at 117 (“There is no evidence to suggest
that, had NatWest known or actually suspected Interpal of terror financing, it would have done anything
other than close its accounts.” (emphasis added)). This
focus on “terror financing,” as opposed to the financing
of a terrorist organization, regardless of the character
of the activities being financed, is not consistent with
the text of § 2339B(a)(1) or the Supreme Court’s opinion in Humanitarian Law Project. See 561 U.S. at 16.
Moreover, the district court found that NatWest
did not exhibit deliberate indifference to whether Interpal was a terrorist organization following Interpal’s
SDGT designation, in part, because British authorities––the Charity Commission, the Special Branch,
and the Bank of England––condoned NatWest’s relationship with Interpal. Weiss, 936 F. Supp. 2d at 114.
In this regard, the court gave inappropriate weight to
the British authorities’ decisions. The Charity Commission and the Bank of England condoned NatWest’s
relationship with Interpal based on the Charity Commission’s 2003 investigation, which focused on only a
subset of conduct that is criminalized under United
States law. The Charity Commission investigated
whether Interpal financed Hamas’s political and violent militant activities, not whether Interpal provided
any material support to Hamas, regardless of purpose.
While the Charity Commission’s 2003 report found no
clear evidence showing that Interpal supported Hamas’s political or violent militant activities, the report
made no findings regarding whether Interpal provided
material support to Hamas for non-political and non-

159a
violent activities.8 Thus the conclusions of the British
authorities were in response to a different question
than is posed by the United States statutes. The British authorities’ guidance, based on the Charity Commission’s 2003 report, is not inconsistent with a finding that NatWest had knowledge that, or exhibited deliberate indifference to whether, Interpal financed Hamas’s non-political and non-violent activities.
The same observations apply to the conclusions of
the Special Branch. An internal NatWest memorandum reported that the Special Branch investigated
OFAC’s SDGT designation of Interpal and found “insufficient evidence to prove a link to terrorism, so no
UK action was taken against Interpal . . . .” JA at 736.
There is no evidence, however, that the Special Branch
investigated whether Interpal financed Hamas’s nonterrorist activities. As with the Charity Commission’s
investigation, the Special Branch’s conclusion is in no
way incompatible with a finding that NatWest met
§ 2339B(a)(1)’s scienter requirement.
Even if the British authorities had investigated
whether Interpal provided material support to Hamas
8

The Charity Commission previously investigated Interpal’s
connections with Hamas in 1996. In its 1996 report, the Charity
Commission explained, “The allegation that funds were going to
supporters of Hamas and in particular the families of suicide
bombers was not of direct concern so long as the funds were being
applied within the objects of the charity.” JA at 557. The Charity
Commission found no evidence of pro-terrorist activity, and the
Charity Commission’s review of Interpal’s bank accounts “provided evidence of an appropriate end use for its funds.” JA at 566.
It recommended closing its investigation and prescribed that
“[w]hat [Interpal needs] to do is to take whatever steps [it] can to
ensure that [its] donations only go to charitable purposes within
[its] objects.” JA at 566.

160a
for any purpose and had concluded that Interpal had
no links to Hamas at all, the British authorities’ conclusion would not be inconsistent with liability under
the United States statutes and could not justify summary judgment in the face of contrary evidence. The
views of foreign governments, particularly when addressed to the same questions of fact as are pertinent
under United States law, could support NatWest’s
contentions to the jury that it believed Interpal was
not supporting a terrorist organization just as its inquiries to the U.K. authorities (and the answers it received) could support the contention that it was not indifferent to the issue. However, in the face of contrary
findings—in this case by the United States Treasury
Department—such views of foreign governments could
not support summary judgment. See Fed. R. Civ. Pro.
56(a) (“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.”).
As with the extraterritorial application of any law,
applying § 2333(a) to non-domestic activities risks creating circumstances where United States law conflicts
with foreign law. The Supreme Court acknowledged
the importance of avoiding such conflicts in Morrison
v. National Australia Bank Ltd. See 561 U.S. 247, 255
(2010); see also supra note 6. But, as the Court explained, whether a United States law applies extraterritorially (risking conflict with foreign laws) is a question of congressional intent. Morrison, 561 U.S. at 255.
The presumption against extraterritoriality is only a
presumption; it is overcome by clearly expressed Congressional intent for a statute to apply extraterritorially. When Congress has manifested clear intent that

161a
a statute apply extraterritorially, it will generally apply extraterritorially regardless of whether there is a
risk of conflict with foreign law. Cf. id. Although the
British government’s approval of NatWest’s relationship with Interpal and decision not to designate Interpal as a terrorist organization creates tension with
OFAC’s decision to designate Interpal as an SDGT,
Congress clearly expressed its intention for § 2333(a)
to apply to extraterritorial activities when the statute’s standards are met, regardless of the views and
laws of other nations. See supra note 6.
c.

Evidence Supporting a Finding that
NatWest
Knew
Interpal
Provided
Material Support to Hamas

We conclude that Plaintiffs have presented sufficient evidence to create a triable issue of fact as to
whether NatWest fulfilled § 2339B(a)(1)’s scienter requirement, especially if assessed under the “lenient”
standard we have approved for ruling on the sufficiency of evidence of scienter issues. See In re DDAVP
Direct Purchaser Antitrust Litig., 585 F.3d 677, 693
(2d Cir. 2009) (“We are . . . lenient in allowing scienter
issues to withstand summary judgment based on
fairly tenuous inferences, because such issues are appropriate for resolution by the trier of fact.” (internal
quotation marks omitted)). First, NatWest was aware
of OFAC’s designation of Interpal as an SDGT9 in
9

We do not mean to suggest that the designation of an organization as an SDGT is sufficient, without more, to create a triable
issue of fact regarding a foreign defendant’s scienter. Interpal’s
SDGT status is, of course, significant, but we consider it only as
one of several pieces of evidence that we view in the light most
favorable to Plaintiffs.

162a
August 2003 and of its press release announcing that
Interpal provided material support to Hamas, which
stated:
Interpal . . . has been a principal charity utilized to hide the flow of money to HAMAS. Reporting indicates it is the conduit through
which money flows to HAMAS from other
charities . . . . Reporting indicates that Interpal is the fundraising coordinator of HAMAS. This role is of the type that includes supervising activities of charities, developing
new charities in targeted areas, instructing
how funds should be transferred from one
charity to another, and even determining
public relations policy.
JA at 1681.
Second, in December 2004, Amanda Holt, the
head of NatWest’s Group Enterprise Risk, the department responsible for the oversight of terrorism-related
matters, sent an internal email stating, “[W]e were
aware that we had accounts for people connected to
Hamas, but not Hamas itself.” JA at 2640.
Third, Michael Hoseason, the head of NatWest’s
Group Security and Fraud Office, which is responsible
for reviewing suspicious activities and reporting suspicions of terror financing to British authorities, testified that NatWest would cease banking with a customer on the basis that the customer engaged in unlawful activity only “[i]f [NatWest] knew with absolute
certainty that the customer was engaged in any kind
of illegal activity.” JA at 1767 (emphasis added). He
testified that he would not recommend ending NatWest’s relationship with a customer suspected of

163a
terror financing unless the customer was “[c]onvicted
in a court of law . . . .” JA at 1769-70. Furthermore, he
stated that NatWest would need “proof of the purpose
of the transfers,” in other words, “if [NatWest] had
been supplied with clear evidence that demonstrated
that . . . funds were subsequently utilized to buy bullets . . . .” JA at 1795. When asked, “[S]hort of evidence
that the funds were used to buy bullets or explosives,
is there anything else that you would consider to be
proof of the nefarious purposes of the transfers?”, Hoseason responded, “No.” JA at 1795.
Fourth, through its biannual reviews of Interpal’s
accounts, NatWest discovered that Interpal made payments to organizations suspected of “being connected
with terrorism, in particular Hamas.” JA at 2666. Specifically, in December 2004, NatWest uncovered Interpal payments to at least five committees, which the
United States alleged were “operated on behalf of, or
under the control of, Hamas” in a 2004 indictment. Superseding Indictment, United States v. Holy Land
Found. for Relief & Dev., No. 3:04-CR-240-P (N.D. Tex.
July 26, 2004), JA at 2707. That indictment alleged
that Holy Land Foundation for Relief and Development et al. conspired to provide material support to
foreign terrorist organizations in violation of
§ 2339B(a)(1) by providing funds to, inter alia, those
committees. JA 2702-07.10

10

United States v. Holy Land Found. for Relief & Dev. did not
proceed to trial until after NatWest closed Interpal’s accounts in
March 2007. After an initial mistrial, the defendants were convicted of conspiracy to provide material support to foreign terrorist organizations in violation of § 2339B(a)(1). United States v. El-

164a
Fifth, in May 2005, NatWest discovered that Interpal made a payment to an organization which in
June 2005 was designated by the Bank of England as
“an organisation suspected of supporting terrorism.”
JA at 736.
This evidence was sufficient to create a triable issue of fact as to whether NatWest’s knowledge and behavior in response satisfied the statutory scienter requirements.
CONCLUSION
For the foregoing reasons, the judgment of the district court is VACATED and the case REMANDED for
further proceedings, including consideration of NatWest’s other asserted grounds for summary judgment.

Mezain, 664 F.3d 467, 489 (5th Cir. 2011) (affirming the convictions and noting that “[t]he evidence of Hamas control of the . . .
committees was substantial”).

165a
APPENDIX F
________________________________
18 U.S.C. § 2331 provides in relevant part:
§ 2331. Definitions
As used in this chapter—
(1) the term “international terrorism” means activities that—
(A) involve violent acts or acts dangerous to human life that are a violation of the criminal laws of
the United States or of any State, or that would be
a criminal violation if committed within the jurisdiction of the United States or of any State;
(B) appear to be intended—
(i) to intimidate or coerce a civilian population;
(ii) to influence the policy of a government by
intimidation or coercion; or
(iii) to affect the conduct of a government by
mass destruction, assassination, or kidnapping;
and
(C) occur primarily outside the territorial jurisdiction of the United States, or transcend national
boundaries in terms of the means by which they are
accomplished, the persons they appear intended to
intimidate or coerce, or the locale in which their perpetrators operate or seek asylum;
*

*

*

166a
18 U.S.C. § 2333 provides:
§ 2333. Civil remedies
(a) ACTION AND JURISDICTION.—Any national of
the United States injured in his or her person, property, or business by reason of an act of international
terrorism, or his or her estate, survivors, or heirs, may
sue therefor in any appropriate district court of the
United States and shall recover threefold the damages
he or she sustains and the cost of the suit, including
attorney’s fees.
(b) ESTOPPEL UNDER UNITED STATES LAW.—A final judgment or decree rendered in favor of the United
States in any criminal proceeding under section 1116,
1201, 1203, or 2332 of this title or section 46314,
46502, 46505, or 46506 of title 49 shall estop the defendant from denying the essential allegations of the
criminal offense in any subsequent civil proceeding
under this section.
(c) ESTOPPEL UNDER FOREIGN LAW.—A final judgment or decree rendered in favor of any foreign state
in any criminal proceeding shall, to the extent that
such judgment or decree may be accorded full faith
and credit under the law of the United States, estop
the defendant from denying the essential allegations
of the criminal offense in any subsequent civil proceeding under this section.
(d) LIABILITY.—
(1) DEFINITION.—In this subsection, the term
“person” has the meaning given the term in section
1 of title 1.
(2) LIABILITY.—In an action under subsection
(a) for an injury arising from an act of international
terrorism committed, planned, or authorized by an

167a
organization that had been designated as a foreign
terrorist organization under section 219 of the Immigration and Nationality Act (8 U.S.C. 1189), as of
the date on which such act of international terrorism was committed, planned, or authorized, liability may be asserted as to any person who aids and
abets, by knowingly providing substantial assistance, or who conspires with the person who committed such an act of international terrorism.
(e) USE OF BLOCKED ASSETS TO SATISFY JUDGMENTS OF U.S. NATIONALS.—For purposes of section
201 of the Terrorism Risk Insurance Act of 2002 (28
U.S.C. 1610 note), in any action in which a national of
the United States has obtained a judgment against a
terrorist party pursuant to this section, the term
“blocked asset” shall include any asset of that terrorist
party (including the blocked assets of any agency or
instrumentality of that party) seized or frozen by the
United States under section 805(b) of the Foreign Narcotics Kingpin Designation Act (21 U.S.C. 1904(b)).
18 U.S.C. § 2339A provides in relevant part:
§ 2339A. Providing material support to terrorists
*

*

*

(b) DEFINITIONS.—As used in this section—
(1) the term “material support or resources”
means any property, tangible or intangible, or service, including currency or monetary instruments or
financial securities, financial services, lodging,
training, expert advice or assistance, safehouses,
false documentation or identification, communications equipment, facilities, weapons, lethal substances, explosives, personnel (1 or more

168a
individuals who may be or include oneself), and
transportation, except medicine or religious materials;
(2) the term “training” means instruction or
teaching designed to impart a specific skill, as opposed to general knowledge; and
(3) the term “expert advice or assistance”
means advice or assistance derived from scientific,
technical or other specialized knowledge.
18 U.S.C. § 2339B provides in relevant part:
§ 2339B. Providing material support or resources
to designated foreign terrorist organizations
(a) PROHIBITED ACTIVITIES.—
(1) UNLAWFUL CONDUCT.—Whoever knowingly
provides material support or resources to a foreign
terrorist organization, or attempts or conspires to
do so, shall be fined under this title or imprisoned
not more than 20 years, or both, and, if the death of
any person results, shall be imprisoned for any term
of years or for life. To violate this paragraph, a person must have knowledge that the organization is a
designated terrorist organization (as defined in subsection (g)(6)), that the organization has engaged or
engages in terrorist activity (as defined in section
212(a)(3)(B) of the Immigration and Nationality
Act), or that the organization has engaged or engages in terrorism (as defined in section 140(d)(2) of
the Foreign Relations Authorization Act, Fiscal
Years 1988 and 1989).
*

*

*

